<html>
<title> - EXAMINING EFFORTS TO MAINTAIN AND REVITALIZE NATIVE LANGUAGES FOR FUTURE GENERATIONS</title>
<body><pre>[Senate Hearing 115-367]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-367

                   EXAMINING EFFORTS TO MAINTAIN AND 
           REVITALIZE NATIVE LANGUAGES FOR FUTURE GENERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 22, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
 
 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-539 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a> 
 
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 22, 2018..................................     1
Statement of Senator Cortez Masto................................    43
Statement of Senator Daines......................................     4
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     6
Statement of Senator Schatz......................................     5
Statement of Senator Tester......................................     4
Statement of Senator Thune.......................................     7
Statement of Senator Udall.......................................     2

                               Witnesses

Baird, Hon. Jessie Little Doe, Vice Chairwoman, Mashpee Wampanoag 
  Tribe..........................................................    12
    Prepared statement...........................................    14
Hovland, Hon. Jeannie, Commissioner, Administration for Native 
  Americans, U.S. Department of Health and Human Services........     8
    Prepared statement...........................................    10
Hummingbird, Lauren E., Graduate, Tsalagi Tsunadeloquasdi, 
  Cherokee Nation Immersion School...............................    32
    Prepared statement...........................................    34
Rawlins, Namaka, Director, Strategic Partnerships and 
  Collaboration, Aha Punana Leo..................................    18
    Prepared statement...........................................    19
Sims, Christine, Ph.D., Director, American Indian Language Policy 
  Research and Teacher Training Center...........................    25
    Prepared statement...........................................    27

                                Appendix

American Council on the Teaching of Foreign Languages (ACTFL), 
  prepared statement.............................................    61
Barbry, John D., Director of Development & Programing, Education 
  Program, Language & Culture Revitalization Program, Tunica-
  Biloxi Tribe of Louisiana, prepared statement..................    58
Barnes, Nancy, Juneau, AK , prepared statement...................    65
Begaye, Hon. Russell, President, Navajo Nation, prepared 
  statement......................................................    60
Bowman, Dr. Jolene, President, National Indian Education 
  Association (NIEA), prepared statement.........................    67
Burr, Terri, Ahl'lidaaw Language Facilitator, Tsimshian Education 
  Department, prepared statement.................................    71
Cancuba Collective, prepared statement...........................    54
Dawson, Desa, ACTFL Past President; Director of World Language 
  Education, Oklahoma State Department of Education, prepared 
  statement......................................................    54
Dewitt-Narino, Lisa Maria, prepared statement....................    60
Doak, Ivy, Ph.D., Denton, TX; Former Executive Secretary, Society 
  for the Study of the Indigenous Languages of the Americas 
  (2008-2017), prepared statement................................    57
Gettleman, Todd, Kealakekua, HI, prepared statement..............    81
Greymorning, Dr. Neyooxet, prepared statement....................    56
Haliwa-Saponi Indian Tribe, prepared statement...................    64
Hayton, Allan, Language Revitalization Program Director, Doyon 
  Foundation, prepared statement.................................    50
Hayward, Amber Sterud, Director, Puyallup Tribal Language 
  Program; Zalmai Zahir Ph.D. Candidate, Linguistics University 
  of Oregon, Lushootseed Language Consultant, prepared statement.    50
Heaton, Raina Ph.D,, Linguistics, Assistant Professor of Native 
  American Studies; Assistant Curator of Native American 
  Languages, Sam Noble Oklahoma Museum of Natural History, 
  University of Oklahoma, prepared statement.....................    70
Kowalski, Sandra, Director of Indigenous Programs, Office of 
  Rural, Community and Native Education, University of Alaska 
  Fairbanks, prepared statement..................................    72
Kroskrity, Paul V., Professor of Anthropology; Professor and 
  Chair, American Indian Studies, UCLA, prepared statement.......    69
Macaulay, Monica, President/Kristine Hildebrandt, Vice President, 
  Endangered Language Fund (ELF), prepared statement.............    56
Montler, Timothy, Distinguished Research Professor of 
  linguistics, Department of Technical Communication, University 
  of North Texas, prepared statement.............................    79
National Council for Languages and International Studies, 
  prepared statement.............................................    66
Response to written questions submitted by Hon. Tom Udall to:
    Hon. Jeanie Hovland..........................................    82
    Dr. Christine Sims...........................................    81
Richards, Norvin, Massachusetts Institute of Technology 
  Department of Linguistics and Philosophy, prepared statement...    68
Sam, Paula, Enrolled Member, Northern Paiute (Gidutikad Band) of 
  the Fort Bidwell Reservation, prepared statement...............    70
Speas, Margaret, Professor Emerita of Linguistics, University of 
  Massachusetts, Amherst, prepared statement.....................    61
Thornes, Tim, Ph.D., Associate Professor of Linguistics, 
  Department of English, Boise State University, prepared 
  statement......................................................    79
Tuttle. Siri G., Ph.D., Director, Alaska Native Language Center, 
  University of Alaska Fairbanks, prepared statement.............    53
Whalen, Douglas H., Chair/Board of Directors, Endangered Language 
  Fund; Margaret P. Moss, Incoming Director, First Nations House 
  of Learning, University of British Columbia; and Daryl Baldwin, 
  Director, Myaamia Center, Miami University (Ohio), joint 
  prepared statement.............................................    71
Whitaker, Tyler A., Linguist, Tunica-Biloxi Tribe of Louisiana, 
  Language & Culture Revitalization Program (LCRP), Cultural & 
  Educational Resources Center (CERC) Library, prepared statement    80
Wilson, William H., Ph.D., prepared statement....................    73

 
                   EXAMINING EFFORTS TO MAINTAIN AND 
                    REVITALIZE NATIVE LANGUAGES FOR 
                           FUTURE GENERATIONS

                              ----------                              


                       WEDNESDAY, AUGUST 22, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will call this hearing to order. I would 
like to thank everyone for attending and certainly thank all of 
our witnesses and, of course, the outstanding Vice Chairman of 
the Committee.
    Senator Udall. Well, thank you, Mr. Chairman.
    The Chairman. So, the Committee today is holding an 
oversight hearing to examine efforts to maintain and revitalize 
Native languages for future generations. Native languages are 
an ancient and distinct part of Native identity and culture and 
have played a crucial role in our Nation's history.
    The Native Code Talkers of World War I and World War II 
helped save thousands of American and ally lives by using their 
language to send coded messages during several military 
campaigns. These codes were never broken by the enemy. Matter 
of fact, I saw the movie. It was a tremendous movie. It was 
written by a fellow I knew and grew up with, John Rice. Really 
a powerful movie about the Code Talkers; really amazing what 
they did.
    Though these languages have been critical for Indian 
Country and our Nation, of the many distinct Native languages 
that have historically existed in this Country, over 200 have 
become extinct within the past 400 years. Without the 
initiatives created to preserve the remaining languages, more 
of them would become extinct over the next few decades.
    Congress has identified this need to preserve and 
revitalize Native languages and has disavowed past policies 
designed to eliminate languages and cultures. Through the 
passage of the Native American Languages Act and the Esther 
Martinez Native American Languages Preservation Act, Congress 
formalized the promotion of Native languages. These laws have 
helped facilitate opportunities for Native communities to 
learn, research, and preserve their languages, ultimately 
strengthening their culture and their traditions.
    Now, turning to our witnesses, we have with us this 
afternoon the recently confirmed Commissioner of the 
Administration for Native Americans, Ms. Jeannie Hovland. 
Welcome.
    Do you pronounce it Hoveland or Hovland?
    Ms. Hovland. I pronounce it Hovland.
    The Chairman. Okay. I thought so. I was misinformed. I 
won't say by who. But I have some very good friends and they 
pronounce it Hovland, and that's why I asked.
    Ms. Hovland. It is kind of the Dakotas how we pronounce it, 
Hovland.
    The Chairman. That is right. My name is Hoeven and nobody 
ever says Hoeven, it is Hooven and everything else under the 
sun. But I thought maybe it was Hovland because I do have a 
number of friends that have the same spelling.
    So, this is your first time appearing before Congress since 
confirmed. Thanks for being here. We look forward to working 
with you very much.
    Ms. Hovland. Thank you.
    The Chairman. I want to welcome you and all of our 
witnesses today.
    Before I do that, because we are going to have some 
different Senators doing some of the introductions, I am going 
to turn to Senator Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Chairman Hoeven. Really 
appreciate your working with me on today's hearing on Native 
languages. Native language revitalization has been a long-time 
priority for me, and I appreciate the Committee highlighting 
this issue.
    I would also like to just recognize my former congressional 
colleague.
    The Chairman. We can't allow that.
    Senator Udall. I will just say there is a good guy out 
there, Congressman Bill Delahunt, back there, who served in the 
House with me and probably several of the other members up 
here.
    Before I begin, I would like to welcome Dr. Christine Sims 
of the University of New Mexico. Dr. Sims is a member of the 
Acoma Pueblo in New Mexico and a leader in Native language 
revitalization. Thank you very much, Dr. Sims, for being here 
today and thank you for your very important work there out in 
New Mexico.
    I would also like to welcome Administration for Native 
Americans Commissioner Jeannie Hovland to her first hearing 
before the Committee. I look forward to hearing your plans for 
your term as Commissioner. I know that Senator Thune has said 
very nice things about you, but you probably already know that.
    Native languages are not only crucial to the communities 
that speak them, but they also have played an important role in 
our shared American history. Like Senator Hoeven, I would like 
to honor the work of the Code Talkers.
    One notable example is the Navajo Code Talkers of World War 
II. The Navajo recruits who arrived at Camp Pendleton were 
tasked with developing a secret code using their Native 
language. Without using any modern technology, Code Talkers 
were able to develop and implement a secret code that is 
attributed to saving countless lives of the allied troops and 
civilians and securing our victory in the Pacific.
    Today, in my home State of New Mexico, 23 pueblos and 
Tribes speak seven major Native languages, each different and 
distinct and reflecting the beauty of diversity of New Mexico 
itself. The diversity of Native languages in New Mexico is a 
microcosm of the vast diversity of languages throughout Indian 
Country.
    There are an estimated 200 Native languages currently 
spoken in the United States. Some others have gone extinct, but 
they are waiting to be brought back again. They all represent 
some of the greatest linguistic diversity in the world, coming 
from at least 29 different language families, and each serves 
the irreplaceable role for its community of speakers. The 
revitalization of Native language is crucial to the cultural 
identity and sovereignty of Native communities throughout 
Indian Country.
    Today's hearing is a chance for us to highlight the 
diversity of Native languages that exist and to ensure Federal 
resources are supporting all aspects of Native language revival 
and preservation.
    Our witnesses here today represent this range and different 
needs of four different Native communities on their unique 
paths to language revitalization and maintenance: the Cherokee 
language, the Hawaiian language, the Wampanoag language, and 
the Keres language. Each of these languages is unique and 
requires individualized resources, curriculum, and training to 
support revitalization efforts.
    According to the United Nations Educational, Scientific and 
Cultural Organization, 74 Native languages will disappear 
within the next decade if we don't take significant action. 
This is why programs like the Esther Martinez Immersion Grants, 
which I have supported throughout my service in both the House 
and the Senate, are so vital.
    The Esther Martinez program has helped revitalize 58 
different Native languages and involved over 4,500 elders in 
preserving languages, and it has helped over 12,000 youth to 
maintain Native languages for future generations. The success 
of this program is why I have sponsored S. 254, the Esther 
Martinez Native Language Preservation Act, and that would 
reauthorize the program until fiscal year 2023.
    Native languages hold within them the culture, the history, 
and the resiliency of Native communities throughout Indian 
Country. My hope is that today's hearing is an important step 
among many to support the revitalization of Native languages 
for all Native communities.
    Thank you to the panel for your valued work, and I look 
forward to hearing the testimony, Mr. Chairman.
    I see that Senator Thune has arrived, also. I said a good 
word about you.
    The Chairman. Thanks, Vice Chairman.
    Before we turn to Senator Thune, I am going to turn to 
Senator Daines for an opening statement.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Mr. Chairman, first of all, thank you and 
Ranking Member Udall. Thank you for having this hearing on this 
important topic.
    Native American culture and languages are cornerstones, 
truly, of our national heritage, and that is why, in the last 
Congress, Senator Schatz, Murkowski, Sullivan, and I authored 
an amendment, which was subsequently enacted into law, to study 
the benefits of Native language immersion education, a medium 
which today's witnesses highlight in their testimonies.
    Like many Indian Tribes across our Nation, Montana Tribes 
are teaching their languages. The Crow, the Little Shell, the 
Salish Tribes, for example, have developed language apps that 
you can download on your smartphone. I often like to talk about 
how technology can break down barriers to geography. These 
innovative efforts are a way to harness technology to break 
down generational language gaps and support these Tribes' 
cultures.
    It is also a real pleasure to welcome Ms. Jeannie Hovland 
to this Committee. It is great to have a confirmed Commissioner 
of the Administration for Native Americans at the Department of 
Health and Human Services before this very Committee.
    I will close by reinforcing just how important the topic of 
today's hearing is. The United States didn't always promote 
Tribes speaking their Native tongues; in fact, it was going the 
opposite direction for quite some time, and some tribal elders 
still remember firsthand that very dark time when the Federal 
Government indeed did the opposite, because, as my Tribes tell 
me back home in Montana, when you lose a language, you lose a 
culture. I am glad we are discussing not just preserving Native 
languages but revitalizing them for future generations.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank all the folks who are testifying here 
today. I appreciate it. I look forward to this hearing.
    It wasn't so long ago that kids were taken from their 
homes, put in boarding schools, forbidden to speak their 
language in an attempt to assimilate Native people into our 
Country. The legacy of this policy still lives on today through 
intergenerational trauma evidenced by generations of folks who 
did not have the opportunity to learn their Native language.
    We have a responsibility to do something about that, and 
hopefully we will continue to assist in any way to repair the 
damage that was done so many generations ago.
    We know that language is intricately connected to culture, 
tradition, ceremony, song. It is the lifeblood of people. 
Without it, much is lost, and that is why it is of utmost 
importance that we don't let these precious resources slip 
away; that we do everything we can do to invest in 
preservation.
    We see the staggering statistics coming out of Indian 
Country, and they are staggering; from high dropout rates to 
low test scores to high suicide rates. Language is a key piece 
to strengthen a people, and the Native American cultures around 
our Country need to be strengthened. Investing in Native 
language invests in that culture and it will help boost their 
self-esteem; it helps boost their ability to be successful in 
this world.
    So, hopefully, especially you, Ms. Hovland, we can find out 
some good ideas on what has worked and what hasn't, and how we 
can move forward in a way that makes sense for Indian Country 
to make them all they can be.
    The Chairman. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman Hoeven and Vice Chair 
Udall, for your leadership in convening this hearing.
    It is my honor and privilege to introduce one of the most 
respected leaders in the fight to preserve and revitalize the 
Hawaiian language. Her name is Namaka Rawlins, and we are lucky 
that she is able to join our distinguished witness panel today. 
Aloha, Namaka.
    In 1982, Native Hawaiians were facing the imminent loss of 
their language. For more than 80 years, the use of Hawaiian in 
schools, both in conversation and as a medium for education, 
was prohibited. The number of fluent speakers had dwindled to 
just a few elders, combined with the isolated population of 
Hawaiians living on Niihau, less than 50 of whom were under the 
age of 18.
    Inspired by the success of language nests overseas, a group 
of Native Hawaiian educators pulled together and put forth the 
idea of creating a preschool program that allowed Native 
Hawaiian children to be educated exclusively in their Native 
language. The first Aha Punana Leo preschool opened in 1984 and 
it was a success.
    Namaka has been part of this incredible group of educators 
for more than two decades. Her leadership has ensured the 
successful navigation of State and Federal legal and policy 
obstacles to create an immersion program that educates students 
from preschool through graduate school.
    Over the years, I have had the opportunity to visit some of 
these schools and to see what is happening with my own eyes. 
What is happening in Hawaiian immersion schools is truly 
special. Students that would ordinarily be considered the most 
likely to fail are succeeding at an unprecedented rate.
    Since 1999, students attending Nawahi, where Namaka sits on 
the board of directors, have an 85 percent college enrollment 
rate, with some seniors earning upwards of 36 college credits 
prior to graduation. These students are among the best and the 
brightest across the State.
    I could spend many more minutes of unallotted time listing 
Namaka's many titles and accomplishments to maintain and 
revitalize the Hawaiian language. She has worked hard at home, 
across the Country, and around the world to help Native 
communities maintain indigenous languages.
    I thank you for being here today and for all you have done 
for Hawaii. Your work has changed lives by helping children to 
reach their full potential, and I look forward to learning more 
from the hearing. Mahalo.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. [Greeting in Native language], Mr. 
Chairman. Thank you.
    You all know me as Lisa Murkowski, Alaska, but my adopted 
Tlingit name is Aan Shaawk'i, a name that I am very proud of, 
Lady of the Land. I have come to have great respect for those 
who are not only sharing their culture, but sharing their 
languages, preserving their identity.
    So being able to work with you and the Vice Chairman and so 
many on this Committee to ensure that we look to our Native 
cultural languages, our heritage languages with an eye towards 
revitalization, what we can be doing is so very, very 
important. We say it all the time, but I think when a Native 
person knows their language, they know their culture, they know 
who they are; it is part of their identity. We see that in 
academic performance; we see it in social indicators. We just 
see the value.
    We, following Senator Schatz's comments, know what it is 
means to lose languages at a rapid pace. The late Chief Marie 
Smith Jones was the last full-blooded Eyak. She was the last 
fluent speaker of the Eyak language. She was a fierce activist 
for Native American rights. But when she passed in 2008, the 
Eyak language went dormant.
    Today, in Alaska, we have five ANA language grants. One 
that I would like to just address very briefly here is a 
preservation and maintenance grant that the community of 
Igiugig is implementing, and they have a project that they have 
entitled We All Speak Lake Iliamna Yup'ik. When they applied 
for their grant, they figured that there were only 23 fluent 
speakers of this dialect left that were still living.
    In the past three years, this grant has taken 
apprenticeships that are starting in the preschools, a 
preschool immersion program teaching Yup'ik with the children 
there, taught by a master, taught by an apprentice. We, too, 
have the language nests, we call it Unglu, which is Yup'ik for 
nest. It is taught by a speaker, an elder by the name of Annie 
Wilson. Annie was born and raised there in Igiugig. She is 
currently one of the last 23 fluent speakers that are there.
    But, again, what we are seeing in the young children, what 
we are seeing in the results coming out of the school, 
measurements of academic success have been really 
extraordinarily impressive. Igiugig School has a perfect five-
star rating on our Alaska School Performance Index. Our Igiugig 
students perform at some of the highest levels in the State, 
and we think that much of this can be traced back to, again, a 
sense of identity, a sense of self, and truly a purpose.
    Thank you, Mr. Chairman, for the Committee hearing today 
and for those who work so hard to preserve and revitalize our 
Native languages.
    The Chairman. Thank you, Senator.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Chairman Hoeven and Vice Chairman Udall, 
thank you for the opportunity to be here today.
    I want to introduce Jeannie Hovland in just a minute, but 
thank you for the attention of this subject. I think 
preservation of our language and culture is such an important 
part of our Country's heritage, so I appreciate your focus on 
this and for giving me the privilege of being here today to 
introduce a former member of my staff and the current 
Commissioner for the Administration for Native Americans at the 
Department of Health and Human Services, and that is Jeannie 
Hovland.
    Before I say a few words about Jeannie, I want to thank you 
both and your staff and the members of this Committee for your 
efforts during the confirmation process and getting her 
installed in this important position.
    Jeannie Hovland is an enrolled member of the Flandreau 
Santee Sioux Tribe. She joined my staff in 2005. That was a 
great find for our office and for me and for our staff. During 
much of this time, Jeannie led outreach efforts to Native 
American communities and with tribal leaders across South 
Dakota, and, with nine Tribes spread across the State of South 
Dakota, this was no small task.
    I am sure, if you asked her, she could tell you the fastest 
route from Sioux Falls to Standing Rock or from Mitchell to 
Mission, but she spent many early mornings and late nights on 
those roads, putting miles on her car and sometimes spending 
time away from her children to ensure that folks living in 
tribal communities heard from us and, more importantly, that we 
heard from them.
    Over the years, I consistently heard praise from tribal 
leaders about Jeannie's hard work, praise for her presence at 
tribal council meetings, visits to tribal programs, her 
oversight work on Federal programs that are operating in tribal 
communities. Over time, Jeannine also became an important 
policy advisor and helped inform my work on tribal issues here 
in the Senate. She left her mark on many important bipartisan 
legislative items of note, including the Tribal Law and Order 
Act and the Indian Health Care Improvement Act, just to name a 
few.
    I think maybe most important, and the thing that often gets 
overlooked, were the words of thanks from individual tribal 
members who Jeannie helped: a tribal veteran needing assistance 
working through the bureaucracy at the Indian Health Service or 
the VA; a tribal program director in search of grant funding to 
keep the doors open; a tribal rancher looking for answers from 
the Bureau of Indian Affairs.
    For Jeannie, there was no problem too large or too small. 
She is undaunted by a challenge and believes profoundly there 
is a solution to every problem, and I can think of no better 
advocate for Indian Country than Jeannie.
    As she continues carrying out her duties as Commissioner 
for the Administration for Native Americans, I have no doubt 
that the Committee will find that Jeannie is not only talented, 
hard-working, honest, diligent, but she is also passionate 
about finding solutions that will improve the lives of people 
in our tribal communities.
    So, Jeannie, thank you for all your great work that you 
have done on behalf of Indian Country. I encourage you to keep 
it up.
    And I thank you, Mr. Chairman, and you, Mr. Vice Chairman, 
for giving me the opportunity to speak today. Thank you.
    The Chairman. Thank you, Senator Thune.
    Did I miss any opening statements? If not, we will turn to 
our witnesses and we will begin with Commissioner Hovland.

STATEMENT OF HON. JEANNIE HOVLAND, COMMISSIONER, ADMINISTRATION 
                  FOR NATIVE AMERICANS, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Hovland. Thank you, Senator Thune. That means so much. 
I appreciate that you gave me the opportunity to have worked 
for you in South Dakota and to work with the great Nations of 
the Lakota, Dakota, Nakotas, so thank you. That means so much 
to me and I am glad you are here today.
    Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee, it is my honor to testify before you about Native 
American language preservation and maintenance. I had the 
pleasure of meeting some of you during my confirmation process 
just over a month ago. I have been eager and grateful to visit 
our grantees and their communities. Seeing the diversity of 
tribal nations firsthand is the best way to understand their 
concerns and specific social, economic, and cultural contexts.
    I attended our Native Youth Summit in Montana and visited 
grantees in Hawaii and New Mexico. Next week I will join 
Federal partners and nearly 150 experts and practitioners in 
Oklahoma at the fifth annual Native American Language Summit. 
Next month I will host my first Tribal Consultation for ACF and 
travel to Alaska for the secretary's Tribal Advisory Committee.
    These visits promote ANA's mission and goal of self-
sufficiency and cultural preservation for Native Americans. We 
provide discretionary grants, training, and technical 
assistance to Tribes, tribal organizations, nonprofits, and 
Native American communities, and support Native American 
languages, environmental regulatory enhancement, and social and 
economic development strategies.
    Language revitalization is essential for continuing Native 
American culture and strengthening self-determination. Native 
American values and traditions, which are a source of 
resilience and cultural cohesion, are embedded in language.
    Many of you are familiar with the important role Native 
American Code Talkers played in the United States' victories in 
World War I and World War II. Although these heroes were not 
allowed to use their language in day-to-day life, their 
languages were relied upon to communicate vital information. We 
need to honor their sacrifice by keeping their languages alive.
    The use of Native American languages has declined, but a 
fundamental desire to maintain and revitalize Native languages 
remains. In response, the Esther Martinez Native American 
Languages Preservation Act amended NAPA to specifically target 
grants for language immersion and restoration programs.
    The three-year EMI projects have been funded for just over 
a decade. We continually refine our processes to elicit 
stronger applications and improve evaluation.
    In fiscal year 2018, ANA strengthened its approach by 
requiring that applicants describe a feasible monitoring and 
outcome evaluation plan. In addition, all applicants must now 
achieve one of four project outcomes: increased language 
fluency, increased community member use of language learning 
resources, language teachers certified, or increased capacity 
to implement a language program.
    Since 2010, ANA has held annual competitions for 
preservation and maintenance and EMI language projects. The 
funding we distribute for all program areas varies based on the 
number of projects ending. For example, the total funding for 
new EMI projects this year is just over $2 million. With this, 
we are able to meet about 29 percent of new funding requested.
    Congress requested that ANA support language funding at or 
above the minimum of $12 million for Native languages overall 
and $4 million for projects funded under EMI. We have met that 
target annually and, in fiscal year 2018, we will again.
    One of our current EMI grantees, the Cook Inlet Tribal 
Council in Alaska, is operating a Yup'ik Language Nest. 
Language nests are for the youngest learners, and these 
children are in a full day, year-round Early Head Start 
setting. When they transition to the Head Start classroom, they 
continue to receive a minimum of 500 hours of instruction 
solely in Yup'ik. The project also provides weekly family-
centered Yup'ik language instruction to parents and caregivers.
    Another current EMI grantee, Sitting Bull College, received 
startup funding in 2012 to hire and train staff and recruit 
families for a Lakota immersion preschool on the Standing Rock 
Reservation. In 2015, they received EMI funding to develop 
language immersion classes and curriculum for children 
kindergarten through third grade. The project also includes 
intensive training for staff in language acquisition, immersion 
techniques, rigorous parent involvement, and language learning.
    We thank Congress for the additional funding provided to 
ANA in recent years. These appropriations have funded five NLCC 
projects in four States to build upon the successes of ANA's 
short-term, project-based Native language funding and address 
gaps in community coordination across the Native language 
educational continuum.
    During my tenure as Commissioner, I have three main goals 
to strengthen all language programs: using ANA resources 
efficiently without duplication; identifying and providing 
outreach to lower capacity Tribes and communities that have 
never had a language grant; and making materials more readily 
available to use as sample resources.
    I am thankful for the longstanding support of this 
Committee. I look forward to working with Congress to reform 
NAPA, including amending the Esther Martinez Native American 
Languages Preservation Act.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Hovland follows:]

       Prepared Statement of Hon. Jeannie Hovland, Commissioner, 
  Administration for Native Americans, U.S. Department of Health and 
                             Human Services
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
it is my honor to testify before you on behalf of the Department of 
Health and Human Services concerning Native American language 
preservation and maintenance. My name is Jeannie Hovland and I serve as 
the Commissioner of the Administration for Native Americans (ANA) 
within the Administration for Children and Families. I had the pleasure 
of meeting with some of you and your staff during my confirmation 
process just over a month ago. As you may recall, I am a proud member 
of the Flandreau Santee Sioux Tribe located in South Dakota and worked 
for Senator John Thune of South Dakota for nearly 13 years.
    I am a proud proponent of our programs and I have been eager and 
grateful to visit our grantees and their communities. Seeing the 
diversity of tribal nations first hand is the best way to understand 
their concerns and specific social, economic, and cultural context. I 
have been able to spend time at our ANA Native Youth Summit in 
Missoula, Montana, to visit some of our grantees on the Big Island and 
Oahu in Hawaii, and in the Pueblos of Santa Ana, Cochiti, Isleta, and 
Taos in New Mexico. Next week, I will travel to Midwest City, Oklahoma 
to join our Federal partners at the Bureau of Indian Education and the 
Department of Education's White House Initiative of American Indian and 
Alaska Native Education in the fifth annual Native American Language 
Summit. This year's Summit theme is ``Honoring the Gift of Native 
American Languages'' and we expect nearly 150 experts and practitioners 
to attend. Next month, I will host my first Tribal Consultation for the 
Administration for Children and Families, meet with our Tribal Advisory 
Committee, and travel to Fairbanks, Alaska for the Secretary's Tribal 
Advisory Committee.
    These visits are important for promoting ANA's mission and 
underlying goal of self-sufficiency and cultural preservation for 
Native Americans. We provide discretionary grants, training, and 
technical assistance to tribes, tribal organizations, non-profits, and 
Native American communities, including American Indians, Alaska 
Natives, Native Hawaiians, and Native Pacific Islanders. We support 
three program areas authorized under the Native American Programs Act 
of 1974 (NAPA): Native American Languages, Environmental Regulatory 
Enhancement, and Social and Economic Development Strategies.
    We believe that language revitalization is essential for continuing 
Native American culture and strengthening self-determination. Native 
American values and traditions are embedded in language. These values 
and traditions are a source of resilience and cultural cohesion that 
connects us with past and future generations.
    Many of you are familiar with the important role Native American 
Code Talkers played in the success of the United States victories in 
World War I and World War II. Although these heroes were not allowed to 
use their language in day to day life, their languages were relied upon 
to communicate vital information. Unfortunately, most of the code 
talkers have passed away. We need to honor their sacrifice by keeping 
their languages alive along with their legacy.
    The use of Native American languages has declined for a variety of 
reasons, including resistance to bilingual education in many states and 
the basic fact that a majority of Native American students attend 
English medium schools. However, there is still a fundamental desire to 
maintain and revitalize native languages. In response, Congress 
supported this effort by passing the Esther Martinez Native American 
Languages Preservation Act of 2006. This law amended NAPA to 
specifically target grants for language immersion and restoration 
programs. These two methods show promise in creating fluent speakers 
who, in turn, continue to revitalize, preserve, and maintain native 
languages.
    The three year Esther Martinez Initiative (EMI) projects have been 
funded for just over a decade. We continually refine our application 
and project reporting processes to elicit stronger applications and 
better ways to document grantees' progress in meeting their project 
objectives. With the Fiscal Year (FY) 2018 funding opportunity 
announcements for the EMI Program and Native American Language 
Preservation and Maintenance Program, ANA strengthened its approach to 
funding rigorous immersion and language acquisition programs through 
the addition of the ANA Project Framework. In this framework, a new 
project monitoring tools section requires the applicant to describe a 
feasible monitoring and outcome evaluation plan. In addition, all 
applicants must now achieve one of four project outcomes: increased 
language fluency; increased community member use of language learning 
resources; language teachers certified; or increased capacity to 
implement a language program.
    Since 2010, ANA has held two separate annual competitions for the 
language projects, Native American Language Preservation and 
Maintenance Program and EMI. Between 2010 and 2018, ANA received 843 
applications for all Native American language projects. Of those, 155 
applications were for EMI projects. The amount of funding we distribute 
for all program areas varies based on the number of projects ending. 
For example, the total funding for new EMI projects this year is just 
over $2 million. With this, we are able to meet approximately 29 
percent of funding requested in new applications.
    Congress appropriated approximately $54 million to ANA for FY 2018, 
of which we awarded approximately $45.7 million through competitive 
funding opportunity announcements. Congress has requested, in its 
explanatory statement accompanying the FY 2018 appropriations, that ANA 
continue to support language funding at or above the minimum of $12 
million for native languages overall and $4 million for projects funded 
under EMI. We have met that target annually. In FY 2018, we estimate 
providing $4.3 million for EMI grants, $5.86 million for preservation 
and maintenance grants, and $1.9 million for Native Language Community 
Coordination, for a combined total of over $12 million in our language 
specific funding area. Approximately $31.6 million was awarded for our 
social and economic development strategies, and just under $2 million 
was awarded for environmental and regulatory enhancement grants. The 
balance of our funds was spent on contracts to support technical 
assistance and grantee support.
    I would like to share information about the success of two of our 
current EMI grants. One is the Cook Inlet Tribal Council in Alaska. 
They are operating a Yup'ik Language Nest. Language nests are for the 
youngest learners, and these children aged birth to three are part of a 
full day, year round Early Head Start setting. When they transition to 
the Head Start classroom, they will continue to receive the minimum of 
500 hours of instruction solely in Yup'ik. The project also provides 
weekly family-centered Yup'ik language instruction to parents and 
caregivers, and monthly referrals to cultural activities in the 
community. Our regional program manager of Tribal Head Start programs 
was able to visit them recently and was impressed with what they have 
been able to achieve. Tribal Head Start grantees have consistently 
requested additional resources to implement immersion, and ANA funding 
has been used to enhance Head Start services when resources are 
unavailable from the Office of Head Start.
    In 2012, ANA provided start-up funding to Sitting Bull College for 
a Lakota immersion preschool on the Standing Rock Reservation. During 
the first three years, the college was able to hire and train staff as 
well as recruit families to be part of the immersion school. After the 
important progress of this project, they applied and received EMI 
funding in 2015 to develop language immersion classes and curriculum 
for kindergarten through third grade. They have chosen to follow the 
Montessori Method, and therefore, the project also includes intensive 
training for staff in Montessori methodology, language acquisition, 
immersion techniques, rigorous parent involvement, and language 
learning. In addition, the college is seeking North Dakota 
accreditation for a kindergarten through third grade school.
    We thank Congress for the additional funding provided to ANA in 
recent years. With these appropriations, we funded five Native Language 
Community Coordination Demonstration (NLCC) projects to build upon the 
successes of ANA's short-term, project-based native language funding. 
The five projects are located in Alaska, California, Montana, and two 
in Oklahoma. The NLCC is intended as a demonstration that will address 
gaps in community coordination across the native language educational 
continuum. In 2016, ANA staff held the first cohort convening for team 
building, goal setting, and baseline measure development. In 2017, we 
developed both cohort-wide and project-specific indicators. Recipients 
were actively engaged in deciding which measures would be indicators of 
success for their community and across the cohort. We are now beginning 
the third year of this demonstration project and have worked with our 
staff and contractors to begin setting the stage for the Report to 
Congress which will be completed at the end of this demonstration.
    Currently, ANA has four geographically focused technical assistance 
centers. This year, ANA awarded an additional contract to specifically 
support NLCC projects. The virtual NLCC Technical Assistance Center 
assists recipients in maximizing language revitalization efforts. The 
Center launched a website that connects the five NLCC recipients and 
provides native language resources, tools, and community engagement. 
The website is also available to all ANA native language grantees and 
the public.
    During my tenure as commissioner, I have three main goals to 
strengthen our language program:

        1.)  Ensuring that we are using ANA resources the best we can 
        without duplication.

        2.)  Making sure we identify and provide outreach to lower 
        capacity tribes/communities that have never had a language 
        grant.

        3.)  Making materials more readily available to use as sample 
        resources by cataloguing them, and, with the permission of the 
        tribe or entity that developed them, sharing them more broadly.

    We are thankful for the long standing support of this Committee in 
achieving the mission of ANA. We look forward to working with Congress 
to reform the Native American Programs Act, including the amendments to 
the Esther Martinez Native American Languages Preservation Act to (1) 
authorize the transmission of products developed under Native American 
language grants to the National Museum of the American Indian in 
Washington D.C., (2) incorporate evaluation practices with current 
principles to measure effectiveness of outcomes or impact to identify, 
implement, and sustain effective programs and practices, and (3) 
eliminate duplicative and ineffective procedures related to publication 
of annual funding opportunity announcements that currently require ACF 
to engage in a rulemaking process under the Administrative Procedure 
Act prior to publishing annual funding opportunity announcements to the 
public.
    Thank you again for the opportunity to testify and I would be happy 
to answer any questions.

    The Chairman. Thank you, Commissioner Hovland. Again, we 
look forward to working with you in your new capacity.
    Next we will hear from the Honorable Jessie Baird, Vice 
Chairwoman of the Mashpee Wampanoag Indian Tribe, Mashpee, 
Massachusetts. Thanks for being here.

  STATEMENT OF HON. JESSIE LITTLE DOE BAIRD, VICE CHAIRWOMAN, 
                    MASHPEE WAMPANOAG TRIBE

    Ms. Baird. [Greeting in Native language.] Chairman Hoeven 
and Vice Chairman Udall and honorable members of the Committee, 
on behalf of the Mashpee Wampanoag Tribe, thank you for holding 
this hearing.
    I am Jessie Little Doe Baird. I introduced myself in the 
language given to my people by Creator. I am the Vice 
Chairwoman of the Mashpee Wampanoag Tribe and come from a line 
of Women Chiefs. I have a Master of Science in linguistics from 
MIT, I was named a McArthur Fellow for my work in linguistics, 
and I serve on the American Academy of Arts and Science 
Commission on Language Learning. Most importantly, I am a 
teacher of the Wampanoag language.
    Our people are direct descendants of first Indian Nation 
that helped the Pilgrims in 1620. My blood and bones come from 
the land you know as Mashpee. We were the first Indian Nation 
to adopt an alphabetic writing system in 1632, and the first 
Bible published in the New World was printed in Wampanoag 
language.
    Nevertheless, pressure from non-Indian settlement of our 
aboriginal lands eventually robbed us of our ability to speak 
our own language. Seven generations later, we have used these 
written tools left by our ancestors to heal this wound.
    In 1993, we established the Wopanaak Language Reclamation 
Project. Working with my colleagues at MIT, I worked to recover 
lost portions of our language and began teaching our language 
to other Wampanoag citizens.
    We are the first Tribe to reclaim a language with no living 
speakers in history. We have trained two credentialed Wampanoag 
linguists and we have over 15 certified language teachers. We 
are developing a dictionary that currently holds over 12,000 
entries and curriculum for language acquisition. We have 
immersion language camps, schools that teach in our language, 
and community language classes.
    My Nation could not have accomplished these things without 
Federal assistance. ANA and Esther Martinez funding made it 
possible to develop a core team of fluent speakers and 
certified teachers who have developed language programs and 
services to meet the needs of our Nation. Continued funding is 
crucial.
    The Federal Government also helped by setting aside a 
federally protected Reservation for us. Having a Reservation 
allowed us to open our own tribal school. Here, Wampanoag 
children attend a tribally-run preschool and kindergarten where 
they are taught in our language.
    It would be nearly impossible in an off-Reservation public 
school to exercise this level of cultural sovereignty. We pray 
that our lands remain in trust so that we may continue this 
vital work.
    The interconnectedness of our language and our land is more 
fundamentally explained by our word ``nutahkeem,'' which 
loosely translated means ``my land,'' but literally means ``my 
land that is not separate from my body.'' In our language, 
there is no other way to express ``my land.'' Another of our 
words, ``nupunuhsham,'' means two things: ``I have fallen 
down'' and ``I have lost my land rights,'' that my feet, part 
of my body, which is also my land, have also been removed from 
under me. Our land and our language are inextricably tied to 
one another and our ultimate survival as a people.
    Our language provides our children with tools to live a 
productive and satisfying life. There is a correlation between 
language immersion and positive outcomes in graduation rates 
and protective social factors against addiction, depression, 
and suicide.
    There are many ways that our trustee can help us improve 
and advance this vitally important work. In particular, I 
recommend several initiatives.
    One, provide continuation funding as an extension of ANA 
and Esther Martinez funding pools; two, provide continuous 
teacher fluency funding so that we can continue to grow our 
immersion teacher pool; three, provide Federal funding to 
enhance cooperative relationships between LEAs and TEAs to help 
bring expert Native speakers into public school systems serving 
Native children; four, encourage both SAMHSA and IHS to 
incorporate mother languages into their toolbox as evidence-
based treatment tools; five, leverage dollars from the ACF's 
Child Care Development Fund to create immersion child care 
centers; six, provide funding for on-Reservation immersion 
programs to foster immersion teacher certification and 
curriculum development; seven, very important, create a 
national online curriculum clearinghouse to organize by 
language family; and eight, finally, enact Federal legislation 
giving Tribes the right to develop tribal education materials 
for Tribe-State education plans.
    In sum, the story of America and how we became one great 
Nation is a story woven from many different peoples and many 
different languages. The Wampanoag language is an important 
thread in that history. For us, the preservation of our 
language is the preservation of ourselves, and we are now able 
to properly introduce ourselves to our ancestors once again 
when we leave this world.
    Thank you, Committee, and I welcome any questions.
    [The prepared statement of Ms. Baird follows:]

 Prepared Statement of Hon. Jessie Little Doe Baird, Vice Chairwoman, 
                        Mashpee Wampanoag Tribe
    Good Day.
    I am Jessie Little Doe Baird. I introduced myself in the language 
given to my People by the Creator. I am the Vice Chairwoman of the 
Mashpee Wampanoag Tribe, and I come from a line of Women Chiefs. I have 
a Masters in Science Degree in linguistics from the Massachusetts 
Institute of Technology, and in 2010 I was honored to be named as a 
McArthur Fellow, which came with a John D. and Catherine T. MacArthur 
Foundation fellowship in recognition of my efforts in reclaiming the 
Wampanoag language. \1\ I am a teacher of the Wampanoag language and 
since 2014, I have sat as an appointed Commissioner on the Commission 
on Language Learning, created by The American Academy of Arts and 
Sciences in response to a bipartisan request from Congress to study the 
nation's language education needs. \2\ Our people are direct 
descendants of the first Indian nation to reach out a hand to help the 
Pilgrims in 1620. My blood and bones come from the very land that you 
know as Mashpee. When I die, just like my ancestors, my body will 
return to the land, very literally returning home to join the bones of 
my Ancestors. This is the Mashpee way.
---------------------------------------------------------------------------
    \1\ ``Jessie Little Doe Baird is a linguist who is reviving a long-
silent language and restoring to her Native American community a vital 
sense of its cultural heritage . Through painstaking research, 
dedicated teaching, and contributions to other groups struggling with 
language preservation, Baird is reclaiming the rich linguistic 
traditions of indigenous peoples and preserving precious links to our 
nation's complex past.'' MacArthur Foundation website: https://
www.macfound.org/fellows/24/
    \2\ In 2014, a bipartisan group of U.S. Senators and 
Representatives requested that the American Academy of Arts and 
Sciences undertake a study of the nation's language education needs to 
answer two questions: (1) How does language learning influence economic 
growth, cultural diplomacy, the productivity of future generations, and 
the fulfillment of all Americans? (2) What actions should the nation 
take to ensure excellence in all languages as well as international 
education and research, including how we may more effectively use 
current resources to advance language attainment?-- In response, the 
Academy created the Commission on Language Learning. The Commission's 
final report, entitled America's Languages: Investing in Language 
Learning for the 21st Century, provides recommendations to ``improve 
access to as many languages as possible, for people of every age, 
ethnicity, and socioeconomic background.'' American Academy of Arts and 
Sciences website: https://www.amacad.org/content/Research/
researchproject.aspx?d=21896
---------------------------------------------------------------------------
    Chairman Hoeven and Vice Chairman Udall, and Honorable Members of 
the Committee, on behalf of the Mashpee Wampanoag Tribe I thank you for 
holding this hearing and for the focus you are bringing to the 
preservation of Native languages. We appreciate that you understand 
that our language is inextricably intertwined with our culture, our 
history, and our sovereignty. We know you understand that the story of 
the Mashpee Wampanoag is an integral part of the story of the United 
States, and that the preservation of our language is important not just 
to us, but to the preservation of the collective history of all 
Americans.
    The Wampanoag was the first Indian nation to adopt an alphabetic 
writing system in 1632. The first bible printed in the New World was 
printed in the Wampanoag language in 1663.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The largest corpus of Native Written documents in North America are 
written in Wampanoag. Yet after relentless pressure from non-Indian 
settlement of our aboriginal lands and the pressure that came with it 
to interact with the non-Indian community around us in English, 
including assimilation efforts such as the Carlisle Indian Boarding 
School, we were robbed of the ability to speak our own language. For 
six generations we could not introduce ourselves, or speak to our 
ancestors, in our own language.
    But today, seven generations later, we have used those written 
tools left by our Ancestors to heal this wound, as we are the first 
American Indians to have reclaimed a language with no living speakers. 
We started in 1993 when we created a long-term strategic plan that 
culminated in the establishment of the Wopanaak Language Reclamation 
Project. I initially worked with linguists at the Massachusetts 
Institute of Technology to begin the recovery of the language, learning 
from the Wampanoag bible and other historical Native Wampanoag written 
documents, and drawing on correspondence with other related Algonquian 
languages and linguistic principles to fill in the gaps. As I reclaimed 
my own language, I began to work with other Wampanoag citizens to teach 
them the language as well. After 24 years of planning and hard work, we 
have succeeded in recovering our language--we are the first to reclaim 
a language with no living speakers. In the process, we created the only 
inter-tribal cooperative project for the tribes of the Wampanoag. We 
have trained and produced two credentialed Wampanoag linguists, and we 
have over fifteen certified language teachers. We are developing a 
dictionary that currently includes over 12,000 entries, and a 
curriculum for second language acquisition of adult learners. We have a 
three-week summer youth program for ages 5 to 13, and schools that 
teach our children in Wampanoag. We have a family immersion language 
camp, and community language classes that are currently held in 
Mashpee, Aquinnah, Plymouth, and Boston.
    The Wampanoag Nation and Wopanaak Language Reclamation Project 
could not have accomplished these things without vital partnerships 
with the Federal Government. The Administration for Native American 
language funding and the Esther Martinez Native American Languages 
Protection Act funding have made possible our ability to develop a core 
team of fluent speakers and certified teachers who in turn have 
developed curriculum for a myriad of language programs and services to 
meet the needs of our Nation. Continued funding for these programs is 
absolutely crucial the preservation of first American languages that 
are at risk.
    I want to underscore that the federal government also played a 
crucial role in helping us preserve our language when in 2015 it set 
aside a federally-protected reservation on which we are able to engage 
in true self-determination. Having a reservation allows us to provide a 
school setting under tribal law that provides appropriate culturally-
based education for our children. Here, Wampanoag children are able to 
attend a tribally-run pre-school and kindergarten where our students 
are taught in the Wampanoag language and by means of curriculum and 
teacher certification as determined by the tribe rather than the State. 
This year we will be adding a first grade class. This level of language 
instruction would be nearly impossible in an off-reservation public 
school environment and we are praying that our lands remain in trust in 
order to continue this work.
    The interconnectedness of our language and our land is even more 
fundamentally explained by our word ``nutahkeem'', which loosely 
translated means `my land', but is better understood as ``my land that 
is not separate from my body''. In our language, there is no other way 
to express, `my land'. Another of our words--``nupunuhsham'' means both 
`I have fallen down', and, `I have lost my land rights', that my feet 
(part of my body/which is also my lands) have been removed from me. Our 
land and our language are inextricably tied to one another, and to our 
ultimate survival as a people.
    When we teach in our language, we honor all of our Mothers and 
Fathers who came before us. We also are the Mothers and Fathers who are 
making a way forward for our own children. We are providing them with 
the tools to live a productive and satisfying Wampanoag life. Federal 
programs are absolutely vital to the protection of Native American 
languages, the initiatives they fund are the seeds than can be grown to 
mightier vines with some additional efforts.
    We know there is a correlation between language immersion teaching 
and positive outcomes in graduation rates, higher education, and 
protective social factors against addiction, depression, and suicide. 
There are so many ways that the federal government, our trustee, can 
help us improve and advance the vitally important work of language 
protection. In particular, I would like to recommend several 
initiatives:

  <bullet> Provide continuation funding as an extension of ANA and 
        Esther Martinez funding pools. Those tribes who demonstrate 
        effective work to their program funding officers should be able 
        to continue the work. Especially for small tribes that lack 
        robust economic development opportunities, outside funding is 
        key to continuing the hard work of language staff. For example, 
        the current ANA language funding cycle is no longer than three 
        years. Without continuation funding, the work is likely to 
        halt.

  <bullet> Provide speaker pipeline funding for language programs. If 
        we are to continue to grow our investment in a speaker 
        population from K-12, we need fluent speaking teachers. I can 
        tell you from my own work, this happens when a Master and 
        Apprentice model is employed, where a fluent speaker spends a 
        minimum of 25 hours per week with an apprentice speaker in an 
        immersed language setting. This schedule yields a speaker that 
        is at least an intermediate high speaker on the ACTFL (American 
        Council on the Teaching of Foreign Languages) scale. These 
        speakers then become our certified instructors and are able to 
        deliver core subject curriculum in the target language. 
        Immersion schools can then reliably add grades with trained, 
        fluent speakers.

  <bullet> Fund cooperative relationships between Local Education 
        Authorities and Tribal Education Authorities where language is 
        concerned. The local school is one of the most effective tools 
        to be leveraged as a partner in Native language maintenance and 
        growth. Within a given local district, the expert speakers of 
        local languages could enter the school system as tribally 
        certified experts. This would ensure that youth are being 
        provided with the best possible language instructors. This is 
        exactly the case for my language where we have partnered with 
        the local Mashpee School District and our language project 
        staff provides tribally certified language instructors. 
        Students in the Mashpee High School may take Wopanaot8aok to 
        meet their world language requirement. Tribes need to be 
        supported financially in these partnerships.

  <bullet> Encourage both SAMHSA and the Indian Health Service to 
        incorporate Mother languages into their toolboxes as evidence-
        based treatment tools. We are currently facing a massive opioid 
        epidemic that is wreaking havoc on Native Community 
        populations, both at the youth and adult level, as well as 
        extremely high rates of suicide and alcoholism. Since we know 
        that traditional ceremony and language provide strong 
        protective factors against suicide, drug use, and alcoholism, 
        and that language is being incorporated in Tribal Action Plans 
        to address these issues across Indian Country, language must be 
        incorporated into our treatment methodology paradigm and 
        designated as an evidence-based tool in order to qualify for 
        funding under many prevention and treatment grant 
        opportunities.

  <bullet> Leverage a pool of resource dollars from the Administration 
        for Children and Families current Child Care Development Fund. 
        A portion of the current program budgets to tribes could create 
        immersion childcare nests with little additional effort on the 
        part of the government and ensure that a wider number of babies 
        have the advantage of heritage language as early as possible.

  <bullet> Encourage tribes to exercise the sovereignty provided by 
        their trust lands. Congress should provide funding to assist 
        Tribes in developing their own immersion teacher certification 
        processes and cover curriculum development staff in order to 
        provide on-reservation immersion schools.

  <bullet> Empower national American Indian Language experts. With your 
        support and leadership, we could easily act to leverage 
        national American Indian Language experts to create a national 
        online curriculum clearing house organized by language family. 
        This would be an invaluable resource of curriculum tools 
        available to language teachers for all Native American 
        Languages.

  <bullet> Provide federal legislation giving tribes the right to 
        develop tribal educational materials for tribe-state education 
        plans. While States have the latitude to create tribe-state 
        education plans, States have the ultimate authority over 
        whether they enter into these plans, the tribes they consult, 
        and what the plans looks like. Federal dollars that require the 
        Tribe to be the lead in crafting the tribal service portion of 
        these plans makes good sense and would leverage both state 
        education dollars that come from the federal budget as well as 
        local education resources.

    In conclusion, I want to thank you for the opportunity to testify 
today, and for your interest in the protection of Native languages. The 
story of America and how we became who we are today as one great Nation 
is a story woven from many different peoples and many different 
languages, all critical to our understanding of who we are. The study 
and preservation of our language is a critical thread, as important to 
the preservation and understanding of the fabric of American history as 
any other. And of course for us the preservation of our language 
ultimately is the key to preservation of ourselves. With our language, 
we are once again able to properly introduce ourselves to our Ancestors 
when we pass from this world into the next.

    The Chairman. Thank you, Vice Chairman Baird.
    Next we will hear from Ms. Rawlins. She is Director, 
Strategic Partnerships and Collaboration, Aha Punana Leo, 
Hawaii.
    The hurricane that was approaching Hawaii, have you heard 
what the status is?
    Ms. Rawlins. We were talking about that earlier with our 
Senator Schatz. We are watching, got up early this morning and 
started to kind of track the hurricane. I understand it was 
downgraded to a category 4 only because it is one mile below a 
category 5.
    The Chairman. When I saw, they were saying cat 5.
    Ms. Rawlins. Yes.
    The Chairman. We will hope and pray for the best there.
    Ms. Rawlins. Yes. Thank you.
    The Chairman. Welcome.

 STATEMENT OF NAMAKA RAWLINS, DIRECTOR, STRATEGIC PARTNERSHIPS 
               AND COLLABORATION, AHA PUNANA LEO

    Ms. Rawlins. [Greeting in Native language.] Greetings, 
Chairman Hoeven, Vice Chairman Udall. Aloha, Senator Schatz and 
members of this distinguished Committee. Aloha. Warm greetings.
    My name is Namaka Rawlins and I am a specialist for the Aha 
Punana Leo, and I will be sharing the efforts of our work from 
Hawaii.
    The three entities that I represent here are part of a 
larger picture of Hawaii, and even a larger picture nationally 
for schools that are teaching in our Native American languages, 
that are teaching the subjects of math and science and reading 
and such, history.
    The Native American language immersion medium schooling is 
the most effective method in language revitalization, and I 
want to say to all of you that I am so honored to be here to 
speak before this Committee. I also want to acknowledge the 
distinguished panel that I sit with this afternoon.I also want 
to acknowledge Senator McCain and his work in 1990 in 
establishing the Native American Languages Act that has been 
the piece of legislation that has helped us move our languages 
forward towards a living language, and I have to recognize that 
because it has been this body, this Senate Committee, very 
important Committee on Indian Affairs that has been helping us. 
I appreciate all of the opening remarks that the Senators 
provided from your States in supporting our work here, 
Senators. I really, really appreciate that.
    So, I have provided my written testimony and I just want to 
kind of highlight a few things because I think there is more 
that can be done, and it can just be support from this 
Committee, because what we are finding is that while the 
immersion method is the best practice for language 
revitalization, there is insufficient understanding of its 
merits among mainstream educators, those that control the 
environment for our children's education.
    So, one major misconception is that children attending 
immersion schools will not be able to speak English. This is 
not the case. As we have seen over the last many, many years, 
since 1999, all of our students at Nawahi graduate English 
proficient.
    The majority of our Native language immersion schools are 
with our students that are identified as at-risk. So, for 
example, the enrollment at Nawahi is 96 percent Native 
Hawaiian, and 70 percent of our students are eligible for free 
and reduced lunch. So, in Hawaii's mainstream schools, at-risk 
children are likely to drop out or, if they graduate, not 
continue to post-high.
    Native American language immersion medium benefits exceeds 
revitalization goals. Our parents are also learning, along with 
our children, and they were recognized by our State board of 
education as active participants in their children's education. 
It was due to the efforts of our parents that the preschool to 
graduate school, the P20 Hawaiian Medium Education Program 
exists today.
    There are 180,000 public school students. Twenty-six 
percent are Native Hawaiians, and yet only 9 percent of the 
teaching force are Native Hawaiians. However, at Nawahi, the 
student population is 96 percent Native Hawaiians and 97 
percent of the teaching force are Native Hawaiians. So, growing 
your own teachers is very vital in language revitalization and 
maintenance.
    The Native American Languages Act provides the framework to 
ensure and support the survival of Native American languages. 
It is the Congress that can help to assist us in supporting the 
efforts being done in communities, by allowing statutory 
flexibility to align and support best practices.
    I am here to answer any questions. Mahalo nui.
    [The prepared statement of Ms. Rawlins follows:]

Prepared Statement of Namaka Rawlins, Director, Strategic Partnerships 
                   and Collaboration, Aha Punana Leo
Greeting
    Chairman Hoeven, Vice Chairman Udall, Senator Schatz representing 
my own home state of Hawaii, and all other Senators on this 
distinguished Committee on Indian Affairs, warm aloha to each and every 
one of you.
    My name is Namaka Rawlins. I am one of twelve children raised on 
the Keaukaha Hawaiian Homestead, lands restricted for Native Hawaiians. 
I am the Outreach Specialist of the `Aha Punana Leo, Inc. and the 
Liaison of the state Hawaiian language college and its laboratory 
school. These entities work together and represent Hawai`i's only P-20 
vertical alignment of the Hawaiian language medium education system.
    P-20 refers to an educational pipeline from early childhood through 
to the doctorate all taught through the Native Hawaiian language. Our 
consortium is the oldest, largest and most developed integrated Native 
American language system. We are part of a larger effort within our 
state that serves over 3,000 students preschool to grade 12 totally 
through Hawaiian.
    I am also Vice President of the National Coalition of Native 
American Language Schools and Programs. Our National Coalition provides 
mutual support among immersion programs and schools operating in 17 
states, with over 1,000 students in languages other than Hawaiian. 
There is a strong grassroots movement in Native communities nationwide 
to create more schools and programs of this sort.
Focus of Testimony Is Academic and Social Outcomes
    Shortly after being elected Senator Schatz visited our program. He 
encouraged us to collect information on our outcomes beyond our 
successes in saving our language and culture. Here I will focus on the 
sorts of information that Senator Schatz has urged us to collect. I 
will provide an addendum later with more detailed information on our 
Hawaiian language and culture revitalization efforts and the National 
Coalition.
Definition: Native American Language Medium/Immersion
    I want to state that the three Hawaiian entities which I represent 
are but part of a larger picture in Hawai`i, and a still larger picture 
nationally of schools that teach through Native languages. That is my 
testimony will be on schools and programs that teach math, reading, 
history etc. through Native languages to both children who come to 
school knowing the language and those who enter knowing only English.
    This approach is often called ``Native American language immersion 
schooling'' or ``Native American language medium schooling''. Native 
American language medium/immersion is the method that linguists and 
other scientists have found to be the most effective in actually 
reversing the loss Native American languages as living first languages. 
Students who graduate from our Hawaiian language medium school are 
raising their own children speaking Hawaiian, something that had 
happened in our community since the early 1900s.
    I am honored to be here with you and to sit on a panel with such 
knowledgeable witnesses. This committee has been the entity that has 
stood up for our languages. I especially want to acknowledge the 
leadership of Senator McCain of Arizona who introduced the Native 
American Languages Act (NALA) in 1990, a landmark piece of legislation 
authored and approved in a bipartisan manner from this Committee.
    I mention that history, Senators, because this committee has been 
the driving force to help restore our languages in a larger nation 
where there is little understanding of distinctive needs of schooling 
through Native American languages. This committee and its bipartisan 
outreach is the one that has the most access to understanding the 
distinctiveness of our needs and assure integration into the larger 
body of federal law.
English Acquisition
    While Native American language medium/immersion education is best 
practice for language revitalization and maintenance, there is an 
insufficient understanding of its merits among educators and others 
influencing the learning environments of Native children. One major 
misunderstanding is that children in these schools will not be able to 
speak English. We have had students graduating with total Hawaiian 
medium education since 1999. All have been as proficient in spoken and 
written English as their peers graduating from total English medium 
high schools. Within our National Coalition, I have never heard of a 
student in a Native American medium/immersion school that has not been 
able to speak, read, write English upon reaching age 18 and moving to 
college or the workforce. Our methodology is similar to that used to 
teach English in Nordic countries such as Norway, Denmark, Sweden, 
Iceland, the Faroe Islands and Finland.
``At Risk'' Students Core of Our Enrollment
    The enrollment both in Hawai`i and in the National Coalition 
schools is heavily skewed to ``at risk students''. For example, in our 
P-12 laboratory school Nawahiokalani?opu?u, the enrollment is 97 
percent Native Hawaiian with 70 percent free and reduced lunch eligible 
status. Almost all students use non-standard Pidgin English or Hawaiian 
in their homes--that is they fit the federal definition of ``Limited 
English speakers''. In addition, our laboratory school is located in 
one of two districts in our state identified as having the most 
educational and social challenges. Most members schools in the National 
Coalition are located on reservations with large numbers of Native 
students who come from dire social and economic situations.
No High School Dropouts
    In the local English medium schools in Hawai`i, ``at risk'' 
students are those expected to drop out or if they graduate from high 
school do not pursue post high education. Senators, Native American 
language medium/immersion education has produced outstanding results 
relative to high school graduation and college attendance rates. Our 
Hawaiian language consortium's demonstration school Nawahiokalani`opu`u 
has had a rate of 100 percent high school graduation from its first 
class in 1999. Its college attendance rate directly from high school is 
over 80 percent.
    In our laboratory school, all students have the same curriculum 
regardless of their educational status. Our curriculum combines college 
preparatory courses taught through Hawaiian plus work on the land and 
sea that connects to our Native Hawaiian traditions. We value the 
student who decides to seek out a life career in traditional Hawaiian 
farming, hunting, and fishing or music just as much as the student who 
goes on to become a doctor or lawyer. All students are expected to 
serve their community through the Hawaiian perspective based on 
language and culture.
    The results I have described above regarding English proficiency, 
academic achievement and community commitment is from the data we have 
collected over these many years. Similar results are being realized 
among schools and programs teaching totally or primarily through a 
Native American language throughout our National Coalition schools.
Early Reading Advantages
    At the Punana Leo language nest preschools, we teach our 3 and 4 
year olds to read Native Hawaiian starting with chanted syllables. Our 
pre-K children can read single unfamiliar words, sentences and short 
paragraphs the year before entering kindergarten.
    Another factor to early reading is the Hakalama, the Hawaiian 
writing system. Like the writing system of other Native American 
languages, the Hawaiian writing system is highly systematic. One letter 
one sound. English spelling is highly irregular. Many sounds per 
letter; many letters per sounds. The early reading skills we can easily 
teach through Hawaiian or another Native American language cannot be 
easily taught in English until two years later in grade 1. Through our 
National Coalition we are sharing best practices regarding reading 
instruction through Native American languages.
    Members of the National Coalition are reporting the same results 
for early reading through their own languages.
    Early reading is a huge advantage. Once a child can read in one 
language it is easy to learn to read in another language. A student who 
is a good reader in a Native American language can easily transfer that 
reading skill to English and other languages. We have evidence for that 
in our laboratory school where our students study in addition to 
Hawaiian and English, Japanese, Latin and the most recent addition of 
Mandarin Chinese.
High Bilingualism and the Brain--Cognitive Advantage
    Scientist tell us that knowing two languages at a highly proficient 
level has a positive effect on the brain. That is students who are 
highly proficient in two languages have a cognitive advantage. This 
cognitive advantage affects the learning of mathematics, science, 
social science, third languages, and other academic subjects. 
Scientific research has also shown that they have a high level of 
``executive control'' in their thinking process, that is they can 
concentrate better.
    Senators, we know that maintaining and revitalizing traditional 
languages at a very high level of proficiency has positive academic and 
social effects. Also, maintaining and revitalizing our traditional 
languages contributes to distinct Native identities. However, that 
knowledge and awareness of best practices is not widespread among the 
mainstream educators who hold power over our children's schooling. Our 
challenge is overcoming administrative and other institutional 
barriers. These barriers prevent the high level of proficiency in the 
Native American language needed to produce the cognitive advantage as 
the base for further learning including English.
Flexibility Key To Unleashing Power of Parents
    One size fits all education is an obstacle to advancing and 
developing Native American language medium/immersion education. The key 
is flexibility that allows the parents and local language oriented 
community members to move the program forward. Parents taking on 
responsibility for its development is a huge aspect of a Native 
language medium/immersion educational effort. This is why Native 
American language medium/immersion education has resulted in major 
social change in communities. Every single parent and family member 
plays a crucial and important role.
    In Hawaiian medium education we have witnessed families who are 
positively impacted by our program. Parents work to learn the language 
and become teachers. It is not possible to import teachers from out-of-
state as we do for community schools taught in the medium of English. 
Our parents have to work together to fix and clean classrooms, operate 
fundraisers, and provide support for sports and cultural activities. 
Our parents have to figure out how to develop books and teaching 
materials on their own as they cannot be imported from elsewhere in 
order to support Hawaiian language learning.
    The non-profit where I work, the?Aha Punana Leo, was founded in 
1983, the same year that Senator Andrews of North Dakota was able to 
establish a permanent Senate Committee of Indian Affairs. We began with 
no money. Our organization surveyed the number of children aged 18 and 
under statewide with fluency in our language. There were less than 50-
37 to be exact. It was also illegal in Hawaii for our language to be 
used in school, a hold over from a 1896 law. We moved forward to 
establish language nest preschools and from there full preschool to 
high school programs and then a Hawaiian language college with its own 
teacher preparation program through Hawaiian. We started with parents 
laying cement, creating simple books, supporting teachers by bringing 
in different cultural plants and fish, by studying our languages and 
making the decision to go to college.
NALA Alignment Crucial To Moving Forward
    The Native American Languages (NALA) policy that your committee 
established in 1990 has been a key tool in the growth of schools and 
immersion language programs. NALA helped propel our movement to reclaim 
and revitalize our indigenous language. Yet, the reality is that most 
federal educational and other key legislation affecting our Native 
communities are not properly aligned with NALA.
    Senators, members of this important Committee, I ask that you 
continue your good work, your strong bipartisan leadership, on behalf 
of our Native American language revitalization and maintenance efforts. 
I urge that you use your unique strengths as a bipartisan group to move 
other committees to align their work and legislation to NALA, the 
Native American Languages Act. I urge that you inform them of best 
practices that have emerged from Native American language medium and 
immersion schools and that those best practices be referenced in 
legislation and policy as well.

    Attachment

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. Thank you.
    Next, we will turn to Dr. Christine Sims, Director of 
American Indian Language Policy Research and Teacher Training 
Center, Albuquerque, New Mexico.
    Dr. Sims.

         STATEMENT OF CHRISTINE SIMS, Ph.D., DIRECTOR, 
         AMERICAN INDIAN LANGUAGE POLICY RESEARCH AND 
                    TEACHER TRAINING CENTER

    Dr. Sims. Thank you. [Greeting in Native language.] 
Greetings from Acoma Pueblo. Thank you, Mr. Chairman and 
distinguished members of the Committee, for your invitation to 
come and speak to you about critical issues that affect not 
only our indigenous peoples of New Mexico, but throughout our 
Nation.
    The American Indian Language Policy Research and Teacher 
Training Center actually came out of support from this 
Committee I would say probably in 2003, when I came and 
testified for the first time before this Committee about the 
need for resource support for Tribes who were beginning to 
initiate some of the first language immersion programs in the 
Southwest.
    Our Center came into being in 2008 and it still continues 
as a resource to Tribes by providing them technical assistance 
in program planning, but also teacher training for Native 
language teachers.
    In my written testimony that I submitted, I included two 
areas that I think are really critical in terms of sustaining 
these efforts that began, as Namaka has mentioned, with the 
1992 Native American Languages Act.
    We have seen exponentially the growth of many of these 
programs; however, there still continues to be a shortage of 
funding resources, a shortage of technical resources, a 
shortage of training resources to be able to help sustain these 
efforts, so in my testimony I have included two key areas: the 
expansion of these language efforts into school settings was, 
again, something that has been very new for some of our Tribes, 
and how the impact of educational policy, especially at the 
Federal level and State level, have impacted some of these 
efforts.
    And the second area that I highlight in my testimony is the 
expansion of language revitalization efforts, especially among 
early childhood education. That is a growing focus that we see 
across our State, but also in many Tribes across the Nation.
    In the interest of time, I am just going to highlight a 
couple of things.
    In New Mexico, where we have both State and federally 
funded early childhood programs, for example, we have seen the 
emergence of efforts that have made to transform, if you will, 
some standard models of what we do in early childhood 
education.
    The Montessori Keres Children's Language Learning Center, 
KCLLC, is one such program in the Pueblo of Cochiti. This is an 
independent initiative in which Keres is being taught in a full 
immersion setting for young children ages 2, 3, and 4, and in a 
dual language program for ages 5 through 8. These are very 
different initiatives that we have not tried before, but they 
are very critical in terms of continuing to support efforts 
like these.
    Some of the educational policies that have impacted the 
work of Tribal Nations have come about, unfortunately, through 
policies like the No Child Left Behind Act, which was a real 
detriment to our languages in a couple of ways. One, it reduced 
instructional time, it placed unfair requirements for teacher 
credentialing. Many of these things undermined, actually, some 
of the efforts that were being made.
    I would caution us to think about continuing Federal 
policies in education, such as Common Core, that are still 
English-based kinds of standards. We need to consider how those 
also impact our efforts to teach language in our schools.
    Lastly, I would remind everybody here on this Committee how 
urgent it is because our elders and our fluent speakers are 
aging and, as those are our most critical resources, we need to 
replenish that supply of younger adults who are speakers, who 
have learned the language. I believe Ms. Hummingbird will speak 
about her experiences shortly.
    But we need this kind of people to take the places of those 
who are now passing on, because, in order to continue any of 
these efforts in language revitalization, we need that pipeline 
of resources to be able to teach.
    At the University of New Mexico, we try to do our best to 
do that, but we also need that kind of resource support so that 
these efforts will continue.
    I would be happy to answer more questions in any of these 
areas, but, again, I want to just thank you all for this 
opportunity to address you today. Thank you.
    [The prepared statement of Ms. Sims follows:]

Prepared Statement of Christine Sims, Ph.D., Director, American Indian 
          Language Policy Research and Teacher Training Center
Introduction
    Mr. Chairman and Distinguished members of the Committee, [Greeting 
in Native tongue.] In my native Keres-Acoma language, Greetings to all 
of you this afternoon. Thank you for the opportunity to appear before 
you today and present my remarks on an issue that is critical to all 
American Indian peoples, that is, the survival of America's Indigenous 
languages and cultures. My name is Christine Pasqual Sims. I am from 
the Pueblo of Acoma in New Mexico. I am an Associate Professor in the 
Department of Language, Literacy and Sociocultural Studies in the 
College of Education at the University of New Mexico (UNM) and I also 
direct the American Indian Language Policy Research and Teacher 
Training Center (AILPRTTC). My remarks today on ``Efforts to Maintain 
and Revitalize Native languages for Future Generations'' will address 
two key areas that I believe are critical to the sustainability and 
continued growth of language initiatives that have emerged over the 
last decade and a half. These are: (1) the expansion of language 
efforts into schools and the impact of educational policy and (2) the 
expansion of language revitalization efforts in early childhood 
education and the implications for continued support services for 
Native language initiatives. My testimony is based on my collaborative 
work with American Indian tribes, Native language teachers and 
practitioners, language program administrators, schools, and members of 
tribal communities. I understand that my oral remarks must be brief 
today, however, I have prepared my comments in more detail in my 
written testimony respectfully submitted for the record.
Part One: Background of Our Work
    The American Indian Language Policy Research and Teacher Training 
Center (AILPRTTC) is based in the College of Education at the 
University of New Mexico (UNM). The Center came into being in 2008 
following the passage of the Esther Martinez Language Preservation Act. 
I testified before this Committee in 2003 regarding the proposed 
amendments to the Native Languages Act of 1990/1992, and again in 2006, 
before the U.S. House of Representatives Field Hearing on the Recovery 
and Preservation of Native American Languages (Sims, 2003; 2006). In 
both of my testimonies I advocated and strongly recommended UNM as a 
demonstration site for a regional technical assistance and teacher-
training center to help support tribes in their efforts to establish 
community-based and school-based language initiatives. This was a 
direct outcome of cumulative work I had completed while a doctoral 
student at UC-Berkeley and my early work in Native bilingual education 
through a New Mexico-based non-profit training organization, the 
Linguistic Institute for Native Americans, which I co-founded in the 
early 1980s. My relationship over the years with various tribal 
language communities, listening to their goals and visions for 
restoring spoken languages, their challenges in implementing language 
initiatives and the need for support services to initiate and expand 
their language efforts, has continued to guide my present work at the 
Center.
    With initial support from the U.S. Department of Education I was 
able to see our Center become a reality and today the AILPRTTC is still 
involved in the work of providing Native language teacher training and 
technical assistance to tribes. UNM is the only Institution of Higher 
Education in New Mexico that provides these services on a year round 
basis. We work closely with tribes providing training for speakers of 
Native languages through workshops, university courses, an annual 
Native American Language Teachers' Institutes (NALTI), language 
symposia and community forums. We have also had the opportunity to 
mentor and support seven Indigenous graduate students pursuing Master's 
and Doctoral degrees with a focus on bilingual education and American 
Indian Languages and Education. As resources are available, we are able 
to hire these students as Graduate Assistants in our Center working 
with us on outreach and language teacher training activities, gathering 
participant evaluation data, helping prepare training materials for 
workshops and summer institutes, and learning the technical aspects of 
materials development equipment used in training teachers how to 
produce their own language teaching materials.
    While the majority of our institutional and tribal partners are 
located in New Mexico and the southwest, our annual summer institutes 
also attract participants from tribes and indigenous communities 
outside New Mexico expanding our outreach far beyond the state. We have 
had, for example, participants from Alaska, Arizona, North Carolina, 
Iowa, Oklahoma, and Ecuador. The Center continues to build and expand 
these efforts by bringing together the academic resources of the 
University's College of Education and veteran practitioners in the 
field of Native language teaching, tribal government leaders, and 
members of indigenous language communities. We consider the engagement 
of tribal communities as the critical resources and decision-makers in 
efforts to maintain their respective languages in the midst of rapidly 
expanding global influences. As well, the impact of national and local 
education policies that often place tremendous pressure on school-age 
generations to abandon their mother tongue and shift exclusively to 
English language use is a continuing challenge facing many tribes 
today.
    In summary, the mission of the AILPRTTC is to serve as a local, 
regional and national center of outreach, service, advocacy, and 
collaborative research, examining policy issues affecting the survival 
and maintenance of American Indian languages.
Part Two: Growth and Expansion of Language Efforts and Impact of 
        Federal Educational Policies
    Over the course of nearly two decades, efforts to teach Native 
languages have grown almost exponentially across this nation since the 
dawn of a new century. In New Mexico for example, the first summer 
immersion programs that began in the mid-1990s as community-based 
efforts involving fluent language speakers from the community gradually 
expanded into school settings by 2001 so that children could continue 
to receive year round instruction in the Native language. In 2003, I 
spoke before this Committee about some of these early efforts in my own 
Pueblo of Acoma as well as other tribes such as the Pueblo of Cochiti, 
both of whom were embarking on language immersion initiatives in their 
communities for the first time (Sims, 2003). In anticipation of these 
new developments, we researched the most prominent and successful 
Indigenous instructional models that existed at the time, namely the 
immersion programs developed by the Maori, Hawaiian, the Akwesasne of 
New York and the Karuk people of California. We learned about their 
immersion programs and how they implemented this approach as an 
effective way to teach language. We trained each other, sharing the 
experiences of other tribes through community forums, institutes and 
conferences, gradually developing an informal network of fluent 
speakers, elders, parents and community members committed to seeing 
their children learn their Native language.
    According to a 2018 report produced by the Language and Culture 
Bureau in the New Mexico Public Education Department most of the 
state's 7 major Native languages, including Tiwa, Tewa, Towa, Keres, 
Zuni, Navajo and Apache are now being taught in at least 15 different 
public school districts. Other tribes, such as the Dine Nation, have 
addressed language revitalization efforts by establishing Navajo 
language immersion schools in Arizona. These schools are in operation 
today, in towns and rural communities such as Ft. Defiance, Tuba City, 
Leupp, and Rough Rock, Arizona. More recently, in northwestern New 
Mexico, a Navajo immersion charter school, the Dream Dine Charter 
School and a Dual Language Program in the Central Consolidated School 
District are additional examples of alternative school-based language 
efforts. The New Mexico Public Education Department reports that 
approximately 5,800 children participate in Navajo language classes in 
various public schools (NMPED Language and Culture Bureau, 2018). 
Immersion schools in particular, have produced some of the more notable 
examples of the Navajo language rebounding among children who are 
becoming fluent once again in the language.
    These developments over the past 10-plus years have not been 
without their challenges. There has been a concomitant pattern of 
federal rules and policies that have often threatened the very goals 
that tribes have set regarding the education of their children, 
including language and culture programs in schools. Some of these past 
policies are well-known such as the 2001 No Child Left Behind Act 
(NCLB) which was so detrimental to Native language initiatives in 
schools on several fronts, including teacher credentialing 
requirements, standardized assessment requirements, prescribed 
curriculums and scripted instruction. Most notably, for Native language 
teachers and students, the heavy NCLB emphasis on English literacy, 
language arts, and mathematics meant a reduction in time and attention 
to Native language instruction. In New Mexico and Arizona, for example, 
we observed reductions in Native language instructional time, in some 
cases, to a mere 30 minutes two to three times a week in elementary 
schools. Native speakers were also eliminated as teachers of language 
in Arizona public schools due to the ``highly qualified'' requirements 
of NCLB.
    In response, there were valiant efforts to push back on these 
policies from all fronts, including tribal leaders, expert academics 
(Beaulieu, Sparks & Alonzo, 2005; McCarty, 2003; Wilson, 2012;), Native 
language educators, and other language advocates. Additionally, in 
states like New Mexico where 22 different tribal nations exist, each 
with their own Native language, proactive movement was made towards 
establishing tribal oversight for verifying the Native language 
proficiency of their respective community members and recommending them 
for certification as Native language teachers through Memoranda of 
Agreement (MOA) with the New Mexico State Department of Education. The 
New Mexico 520 Alternative Certificate for Native Speakers was created 
in 2002 followed by the passage of the 2003 Indian Education Act by the 
New Mexico state legislature. This Act specifically called for the 
development of strategies for ensuring the maintenance of Native 
languages in an effort to ensure equitable and culturally relevant 
learning for Native students in public schools. These represented major 
shifts in both policy and process where tribes exercised their 
sovereignty and self-determination concerning language and education 
issues. These MOAs are still in effect today with most of the 22 tribes 
of New Mexico having established their own individual agreements with 
the New Mexico Public Education Department.
    As NCLB was phased out, a new federal education policy centered 
around Common Core Standards, once more set the bar for the nation's 
public schools. What was no different from NCLB, however, was the fact 
that these standards were once more English-based sets of standards, 
primarily relying on standardized on-line PARCC assessments to measure 
the academic progress of students. Various states, including New 
Mexico, remain closely tied to these assessments which often show 
American Indian students scoring at the lowest levels on these tests. 
As a result, the emphasis is once again placed on schools and teachers 
to raise test scores in order to avoid being labeled as failing schools 
and ineffective instructors.
    A very recent ruling by the First Judicial Court of New Mexico, in 
the Yazzie/Martinez Case (Yazzie, et al. v. State of New Mexico, et 
al.), however, found the New Mexico Public Education Department (NMPED) 
and the Secretary of NMPED to be in violation of the rights of ``at 
risk'' students including Native American, English language learners, 
and other economically disadvantaged students. The Court ruled that 
they had failed to provide sufficient programs and services required by 
the state's constitution for these students' education. For Native 
American students specifically, their continued failure in reading, 
math, and science was determined to be a direct link to the failure of 
state education policies and a failure to implement the 2003 New Mexico 
Indian Education Act. State resources to local school districts were 
also shown to be insufficient, hindering their ability to provide 
programs encouraging the use of the cultural and linguistic backgrounds 
of the students. In particular, it was noted that ``culturally relevant 
instructional materials'' were also lacking (Chosa, C., Fairbanks, C., 
Pecos, R., & Yepa, J., 2018, p. 6). The implications of this case have 
been described as a ``watershed moment'' in the state's education 
history opening the potential for increased attention to Native 
language programs. Indeed, this was identified as one of the key 
priorities at a recent statewide Pueblo Indian Convocation held July, 
2018 at Santa Ana Pueblo with specific recommendations such as:

  <bullet> Increasing Native language teacher capacity;

  <bullet> Providing professional development for Native language 
        teachers that is closely aligned to local tribal goals for 
        language instruction;

  <bullet> Increasing the compensation of Native language teachers 
        equal to regular teachers rather than educational assistants;

  <bullet> Assessing language teaching and language development 
        utilizing appropriate and more authentic measures to document 
        these processes;

  <bullet> Ensuring that federal policies that are supportive of 
        language efforts (Head Start for example) are understood by 
        program directors, administrators and school Principals, and 
        implemented at the local level with appropriate input from 
        tribal communities, tribal leaders and parents.

Part Three: Growth and Expansion of Language Efforts In Early Childhood 
        Education
    The challenge of cultural and linguistic survival for many tribes 
today has become an increasingly urgent focus in developing early 
childhood programs that support the maintenance and revitalization of 
Native languages. The legacy and outcomes of more than two centuries of 
dominant education systems aimed at assimilation of American Indian 
children (Adams, 1988) has specifically been associated with the loss 
and erosion of native languages across all tribal groups in the United 
States (Krauss, 1998). The impact such losses can have on the self-
identity, self-confidence and academic success of today's Native youth 
are fundamental considerations for how Native children's development 
and learning are supported in their early years.
    American Indian early childhood programs, including federal and 
state funded Head Start programs serving children from birth through 
age 5, therefore, play a critical role in supporting Native children at 
their most vulnerable and critical stages of sociocultural, emotional, 
physical, cognitive and Native language development.
    The National Office for American Indian/Alaska Native Head Start 
Programs reports that nearly 37,000 or 45 percent of American Indian 
and Alaska Native children were served in Head Start programs in Region 
XI in 2015 (2015 FACES Report). The 2019 version of the Family and 
Child Services Survey (FACES) is currently being updated to include 
more descriptive information about children's exposure and 
participation in Native language and cultural learning. I have been 
involved in this latest effort as well as joining the National Advisory 
Council for American Indian/Alaska Native Head Start Programs. A 
positive sign in federal agencies such as Head Start is a growing 
recognition that local language revitalization efforts are important 
and critical in the development of children as well as strengthening 
family and community relationships through language. In New Mexico, we 
have observed the transition of one of these federally funded programs 
from an English-based program to a full Native language immersion 
program. In Jemez Pueblo, the Walatowa Head Start Program provides a 
Towa language learning environment for pre-school children. The Towa 
language is only spoken in the Pueblo of Jemez and is an unwritten 
language. Heretofore, this language has been a viable one, spoken 
across all generations of the Pueblo. Towa erosion however was 
increasingly evident, especially among preschool children and the 
concern among the community was the need for reinforcing and re-
strengthening Towa language use among the youngest generations. Thus, 
the decision was made to revamp the entire program. This transition has 
been taking place over the last five years engaging tribal elders, 
parents, and educational leaders in the community in the process. 
Parents play an important role in making choices about how the program 
can respond to the Native language development needs of their children 
while also becoming involved in reinforcing language use at home.
    In another Pueblo community, the Pueblo of Cochiti, another recent 
development focused on young children learning the Keres language has 
taken root in a Montessori school, established by an educator from this 
community. Ms. Trisha Moquino, a Native speaker of Keres, trained as a 
Montessori teacher envisioned a learning environment in which children 
would be exposed to fluent Keres teachers and begin to learn the 
language in an immersion setting. The school now provides a full Keres 
immersion environment for children ages 3-5 and a dual language program 
for children ages 6-8.
    Home-based care is also another language initiative being 
implemented in one Pueblo community. In this program our Center has 
provided guidance to caregivers who are fluent speakers in how to 
support Native language development for young children while they are 
in their care. In this Keres-speaking community, young female 
caregivers have increased their awareness of how critical their role is 
in using the Native language in everyday home environments. All now 
actively use their language with children and plan activities in the 
home setting that engage them in play and creative experiences. Thus 
children are given a true ``head start'' in hearing and using the 
language with fluent speakers as an everyday part of their daily 
experiences.
    In one community where a local Bureau of Indian Education school 
has transitioned to a tribal grant school, adults who are not fluent in 
their Native language are embarking on utilizing a Master-Apprentice 
model in order to learn language that they can in turn use with young 
children they will teach. Communities with fewer fluent adult speakers 
such as these often face critical challenges in how they will implement 
language instruction and this often necessitates different approaches 
to the problem.
    In all of these initiatives, our Center's involvement has been to 
support these efforts by providing training for fluent speakers in 
strategies for language immersion teaching, planning, and materials 
development. We have also guided adult language learners in forming 
teams as a means for improving and strengthening their Native language 
in order to teach young children. The outcomes of these particular 
initiatives are proving to be encouraging as parents and community 
members report a growing number of children learning and using these 
languages at school and in the community as well as adult and parent 
engagement in language and cultural learning. As these initiatives grow 
and expand, however, so too will new questions and challenges arise. 
For example, how will the gains that children are making in learning 
their Native language be documented, considering that some languages 
such as Keres and Towa are unwritten? How will children's Native 
language development continue to be supported as they mature and 
transition to Kindergarten and elementary schools? How are parents to 
be supported when they are not fluent in their own Native language?
    The implications for expanding language revitalization efforts in 
early childhood are especially significant when one considers that 
intergenerational transmission of Native languages has traditionally 
been the process for sustaining languages across multiple generations. 
When that process is broken, alternative choices to standard mainstream 
models of early childhood education have to be considered in order to 
stem further language erosion. In New Mexico, where there is a current 
push to pour more dollars into early childhood programs, much of the 
emphasis is on mainstream English-based models. In response to this 
growing public discourse, our Center has recently developed a position 
statement on what early childhood education policies and state funding 
streams need to consider where Native languages are endangered. Our 
position is that early childhood programs must first ensure that tribal 
voices are at the forefront of designing and implementing programs that 
will help them achieve their collective vision for young children, 
encompassing the child and his/her family as members of unique cultural 
and language communities, and providing them rich linguistic and 
culturally appropriate early learning experiences.
    Informed policy makers must also consider how public policies, 
funding resources, and programmatic decisions can impact the future 
survival of Native languages and cultures that are an integral and 
necessary foundation for the health and well-being of young Native 
children. In particular, such programs must be of high quality 
reflecting tribal goals for their children, as exemplified in their 
curriculums, appropriate instructional practices that support Native 
language and culture, collaborative family and community relationships, 
high staffing qualifications, and positive learning environments. We 
believe that these principles also extend to how program evaluations 
are conducted. They must be conducted through appropriate processes 
that are inclusive of tribal goals, family and children's strengths, 
needs, and learning experiences. In summary, we take the position that 
early childhood programs for American Indian children:

  <bullet> must implement Native language instructional programs and 
        provide learning environments that are consistent with tribal 
        goals for their children including their sociocultural, 
        emotional, physical, cognitive and linguistic development.

  <bullet> must collaborate with children's families and their 
        communities in order to foster children's development and 
        nurture families as advocates for their children.

  <bullet> must develop children's sense of belonging and developing 
        their ability to contribute to his/her community by utilizing 
        cultural and other resources that link their culture and 
        language learning experiences to home, family and community.

  <bullet> must develop Native children's sense of individual worth, 
        while helping them to thrive and reach their full potential 
        within the contexts of family and tribal community life.

    Finally, in order to ensure that all Native language programs are 
successful in their planning, implementation, and sustainability, there 
must be:

  <bullet> Funding resources allocated to sufficiently support the 
        sustainability and growth of local leadership and staffing, 
        provide appropriate facilities, physical environments, 
        equipment and materials, and effectively implement high quality 
        experiences for Native children's learning and language 
        development.

  <bullet> Funding resources that will sufficiently build the 
        professional development and growth of a tribal language 
        teaching workforce with the knowledge, sensitivity, and 
        competencies necessary for working with Native children, their 
        families and communities, as well as specialized knowledge and 
        competencies in the Native language and culture of the children 
        they serve.

  <bullet> Funding resources that will create pathways for members of 
        tribal communities who wish to pursue coursework leading to 
        specialized degree programs in early childhood, elementary or 
        secondary education at local tribal colleges or universities 
        that offer an emphasis on working in tribal communities and 
        their languages.

  <bullet> Funding resources that sufficiently support pathways and 
        mentorships for tribal community members who will work in 
        collaboration with elders and fluent speakers and holders of 
        cultural knowledge in order to sustain a viable culture and 
        language teaching workforce in Native communities.

  <bullet> Funding resources that will sufficiently support working 
        partnerships between tribes, tribal language programs and 
        universities in order to provide year round technical 
        assistance and training for Native speakers, tribal members, 
        and education administrators in their efforts to develop, and 
        maintain their native languages.

Part Four: Final Conclusions
    While my testimony has touched briefly on a number of issues 
related to current efforts to maintain Native languages for future 
generations, what I have presented today has hopefully provided a 
window into the complex nature of language revitalization work in our 
communities. The nature of this work is challenging, yet deeply 
rewarding, when one sees the outcomes of local tribal choices and 
decisions that promote the revitalization of Indigenous languages. 
Without these critical linguistic resources we stand to lose cultural 
knowledge, our collective histories, traditions and spiritual 
practices. Working in collaboration with tribal communities, we are 
always reminded that thoughtful consideration must always be 
acknowledged for the inherent wisdom and knowledge about language that 
Native speakers possess. Their perspectives about the issues and 
challenges they face in maintaining their languages as well as the 
solutions they generate and implement to address language needs in 
their communities is paramount in our work. We are often reminded by 
our elders that our languages have been gifted to us by our Creator and 
in this sense we often speak about these languages with a sense of 
sacredness. It is also with a sense that sustainability of languages 
requires long-term commitment to Native communities and a willingness 
to learn from them and be guided by their wisdom and knowledge. My hope 
is that this will also be a consideration among legislators and policy 
makers when deliberations are made concerning the education of Native 
children.
    Thank for giving me the opportunity to share my observations, 
thoughts and reflections with you today. I look forward to any 
questions that you may have for me as well.

    REFERENCES

    Adams, D.W. (1988). Fundamental considerations: The deep meaning of 
Native American schooling. 1880-1900. Harvard Educational Review 58 
(1), 1-28.

    Beaulieu, D., Sparks, L., & Alonzo, M. (2005). Preliminary report 
on No Child Left Behind in Indian Country, Washington, DC: National 
Indian Education Association.

    Chosa, C., Fairbanks, C., Pecos, R., & Yepa, J., (2018). Victory 
for New Mexico Schools: Court Rules in Yazzie/Martinez Case that Every 
Child Has the Right to A Sufficient Public Education Under New Mexico's 
Constitution. Native American Budget & Policy Institute. Albuquerque, 
NM: University of New Mexico.

    McCarty, T. (2003). Revitalising Indigenous Languages in 
Homogenising Times. In Comparative Education. Vol.39, No.2. Pp. 147-
163. Taylor & Francis Ltd.

    Krauss, M. (1998). The condition of Native North American 
Languages: The need for realistic assessment and action. International 
Journal of the Sociology of Language, 132, 9-21.

    Sims, C.P. (2006). Recovery and Preservation of Native American 
Languages. Testimony presented to the U.S. House of Representatives 
Committee on Education and the Workforce. U.S. House of Representatives 
Field Hearing at the All Indian Pueblo Cultural Center. Albuquerque, 
New Mexico, August 28,2006.

    Sims, C.P. (2003). Proposed Amendments to the Native Languages Act 
of 1990 and 1992. Oral Testimony presented to the U.S. Senate Committee 
on Indian Affairs recommending UNM as demonstration site for Native 
American Language Teacher Training. Senate Russell Building, 
Washington, D.C. May, 2003.

    Wilson, W.H. (2012). USDE Violations of NALA and the Testing 
Boycott at Nawahiokalani'opu'u School. In Journal of American Indian 
Education. Vol.51, Issue 3. Pp.30-45.

    The Chairman. Thank you, Dr. Sims.
    Now, Ms. Lauren Hummingbird, Graduate, Cherokee Nation 
Immersion School in Tahlequah, Oklahoma.
    Welcome.

     STATEMENT OF LAUREN E. HUMMINGBIRD, GRADUATE, TSALAGI 
               TSUNADELOQUASDI, CHEROKEE NATION 
                        IMMERSION SCHOOL

    Ms. Hummingbird. Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee, [greeting in Native language]. I am 
Lauren Hummingbird, a Cherokee Nation citizen and a graduate of 
the Cherokee Immersion School, Tsalagi Tsunadeloquasdi, and 
Sequoyah High School, located in Tahlequah, Oklahoma.
    Thank you for the opportunity to share my testimony about 
revitalizing Native American languages for future generations.
    Preserving the Cherokee language is preserving our Cherokee 
identity. The heritage and traditions of our Tribe are rooted 
in our language. Our language allows us to pass along 
traditional Cherokee knowledge and values to our children and 
our grandchildren.
    In 2003, a Cherokee Nation started the Cherokee Immersion 
School, Tsalagi Tsunadeloquasdi. At age 3, I was one of the 
first immersion students. I have many fond memories of the 
school which I consider less a school and more of a home.
    At the immersion school, my teachers became more than 
instructors; they were and remain like mother and father 
figures in my life. Most importantly, the elder speakers in the 
school became my extended grandparents, providing compassion, 
encouragement, and emotional support. Each of the teachers and 
staff became an important part of my life and helped shape who 
I am today. I was guided by their teachings and I recently 
graduated from high school at the top of my class.
    I believe that my success comes from my history and the 
support of my family and the knowledge of my Cherokee language 
and culture. I am proof that despite the historical ideals, 
bilingual children outperform their monolingual peers in 
school. The richness of the Cherokee language allowed my mind 
to focus and understand difficult concepts and graduate at the 
top of my high school class.
    [Speaking in Native language], which means it is hard for 
Native Americans to talk about just their language. That is 
because a Native's language is so much more than just their 
language. [Speaking in Native language], which means it is the 
foundation of their culture and it is the foundation of my 
culture.
    Native languages, including Cherokee, have faced many 
adversities over the years. Our ancestors were removed from our 
homelands in the Southeast United States on the Trail of Tears. 
Not only did we lose precious family members on the Trail; we 
also lost connections with plants, animals, culture, and 
language in that area.
    Our bond was with the land, and we lived together in that 
ecosystem. Our language is woven into the culture just as river 
cane is woven into a basket.
    Likewise, after removal from Indian territory, our 
ancestors were placed in boarding schools to be normalized. 
They were punished for practicing our traditions and speaking 
the language, and that pain has been passed down through 
generations and their language was suppressed. Today, the 
Cherokee Nation has 360,000 citizens, but only 1,200 speakers 
left, and their average age is 65.
    Language preservationists at the Cherokee Nation indicate 
that we lose 12 speakers each month, and history shows that, 
without intervention, the historic oppression of native 
languages means the loss of identity and extinction of a 
culture.
    I commend the leaders of the Cherokee Nation. After seeing 
the continued decline of Cherokee speakers, the Government took 
the initiative to develop the immersion school. The Cherokee 
Immersion School is the first and only school to be chartered 
by a Tribal Government in Oklahoma. This means that students 
follow the same learning objectives as other students in public 
school districts, with the curriculum being translated into 
Cherokee.
    In the last academic school year, there were 135 Cherokee 
students enrolled in preschool through the eighth grade. Today, 
the Cherokee Nation Government contributes more than $2.3 
million to the school's overall budget of $2.7 million. The 
Cherokee Nation has also developed and funded the Master-
Apprentice Program to provide language bridges between 
generations of speakers. Without the dedicated support of our 
Tribal Government and our businesses, the future of the 
Cherokee language would be in jeopardy.
    We have started with the working language preservation, but 
there is much more work to be done. Without additional support, 
we face a slow and tortuous loss of language, culture, and 
identity.
    [Speaking in Native language] again for the opportunity to 
share my testimony, my story, and my future. I am happy to 
answer any questions that you may have for me.
    [The prepared statement of Ms. Hummingbird follows:]

    Prepared Statement of Lauren E. Hummingbird, Graduate, Tsalagi 
           Tsunadeloquasdi, Cherokee Nation Immersion School
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee:
    Osiyo, my name is Lauren Hummingbird, and it is my honor to provide 
testimony for this oversight hearing entitled ``Examining Efforts to 
Maintain and Revitalize Native Languages for Future Generations''.
    It is also my honor to represent the first graduating class of 
Tsalagi Tsunadeloquasdi School, Cherokee speakers, and the Cherokee 
Nation, the largest federally-recognized tribal government in the 
United States with more than 360,000 tribal citizens and headquartered 
in Tahlequah, Oklahoma.
    Preserving the Cherokee language is preserving Cherokee identity, 
as the heritage and traditions of the tribe are rooted in our language. 
For generations, our language has allowed us to pass along traditional 
Cherokee knowledge and values to our children.
    The United Nations estimates that across the world more than half 
of the 6,000 globally spoken languages will disappear by the end of 
this century. I am proud to say that will not be the story of the 
Cherokee language. When languages are in jeopardy, there is more at 
stake than meets the eye. Our Native languages hold inherent cultural 
and social knowledge. That knowledge is embedded within our words, in 
the stories we tell, and the way we communicate with one another.
    My testimony will cover three points. First, a Native language is 
not just a language; it is the foundation of a culture. Second, the 
revitalization of Native American languages is happening, it is 
happening now because it must happen now. Third, the generational pain 
suffered by past federal policies ractices has brought us to this 
painful point. It is time that we, you and me, must act to support 
programs that preserve our Native languages.
Personal History and Story
    In the 2003-2004 school year, the Cherokee Nation started the 
Cherokee Immersion School, Tsalagi Tsunadeloquasdi. I entered the 
school as a 3-year-old in the inaugural class 15 years ago, and I 
graduated from Sequoyah High School \1\ in May of this year. As I 
advanced through the immersion school year after year, the school 
continued to add new enrollees each year. Last year, 135 students were 
enrolled in pre-school through the 8th grade. The Cherokee Immersion 
School was the first and only school chartered under the Oklahoma 
Charter Schools Act of 2012, and reauthorized in 2016. Students follow 
the same state learning objectives as public school districts. The 
materials and content are converted into the Cherokee language. In 5th 
and 6th grade, students split their time between Cherokee and English, 
and transition to all English curriculum in 7th and 8th grade, except 
for Cherokee language classes.
---------------------------------------------------------------------------
    \1\ Cherokee Nation operates Sequoyah High School, a Bureau of 
Indian Eduction funded boarding school located in Tahlequah, Oklahoma. 
With an enrollment of 360 students representing more than 24 tribes, it 
is regionally and state accredited for grades 7-12.
---------------------------------------------------------------------------
    In order to understand why it is important for Native American 
languages to be revitalized, it is important to know something about 
Native American people. Native Americans today are still coping with 
federal policies and decisions that negatively impacted our ancestors. 
I experience many difficult emotions when I envision our ancestors as 
young children. They were told they would be punished for practicing 
our language and beliefs. It is difficult for me to understand that 
time and those practices because I envision a world where Native people 
were hated and looked upon as a lesser people. I do not understand what 
it was like for our elders to be physically brutalized for simply 
speaking their language. The mental and emotional scars remain today. I 
do not think anyone can understand what it was like. The mental and 
physical abuse of the past caused my people to become scared of the 
world, and it nearly cost me my culture.
    Many of the Cherokee speakers became silent and quit speaking our 
language for fear of retribution. There are some courageous elders that 
continued to speak our language, and because of their courage, a small 
part of my language survived. I do not know where my people would be 
today if it were not for those who had the courage to practice our 
traditions and speak our language, no matter the punishment. I know 
many people who CAN speak our language, but refuse to do so due to the 
the trauma caused by a Native American boarding school experience. A 
language is not just a small part of our culture. . .it is everything 
to us.
    As a young Cherokee woman, knowing how to speak my language not 
only gives me the opportunity to keep my culture and language alive but 
it also shows the world that we are still here. We are not remnants of 
a past culture, but we are a thriving people. I started as a three-
year-old in the Cherokee Immersion School. The school helped teach me 
who I am and the ways of my people. The Cherokee Immersion School 
helped raise me. As students, we never felt like we were in school 
because school was a second home. The teachers were and continue to be 
mother figures and father figures to the students. Our elder mentors 
are like our grandparents.
    There are differences between a Native American language immersion 
school and a traditional English speaking public school. My experience 
is that immersion students did not learn anything in English and we did 
not have individually assigned textbooks. The immersion teachers had 
the additional responsibility of translating every textbook lesson into 
Cherokee. This happens well before classes begin. Public school 
teachers do not have this added responsibility. While public school 
students have libraries full of books to read for research or leisure, 
my Cherokee immersion class had no more than twenty children's books 
available in the Cherokee language. That was seven years ago, and 
things have greatly improved since then. Even though Immersion teachers 
have previously developed materials that they continue to use, we still 
do not have access to individual textbooks. There are more Cherokee 
children's books about our traditional stories, and some books are now 
being published in Cherokee by a few publishing companies.
    As a young student, I did not realize that I would grow up 
differently than other children. We did not just learn about the normal 
everyday school subjects. We were taught about the traditional foods of 
our people and ways of life. On field trips, we would visit one place 
multiple times, but we would always learn something new about our way 
of life or a new word. Those are memories and knowledge that I would 
not trade for a public English speaking school experience. I believe 
that I understand my identity and I am happier because my parents took 
the risk of enrolling me into a new program that had no promise of 
success or sustainability.
    As our education progressed, some parents became concerned that the 
immersion students would fall behind before entering into an English 
speaking high school. They believed that students would not understand 
the basic subjects of math, science, and geography. However, when my 
sixth grade class graduated in 2012 these parents witnessed that we 
were not behind. My classmates and I comprehended all of the required 
subjects. The only thing we did not know well was English, and we spoke 
what most call ``broken English''. However, with the assistance of a 
few summer classes we caught up with the traditional English-based 
public school students. We did struggle with the desire to learn 
English. We knew that our identity came from the Cherokee language and 
not the English langauge. We felt like we had to become someone 
different. Today, I find that I have to say something in Cherokee 
because I do not know how to properly convey the meaning and emotion in 
English.
    I graduated from the Cherokee Immersion School in 2012, and 
graduated from high school with many of my immersion classmates in May 
2018. We all graduated in the top of our class. Some classmates even 
completed numerous concurrent college credits. I am one of two 
immersion alumni that are still immersed in the language. I am 
currently a student in the Cherokee Nation's Language Master Apprentice 
Program for adult participants.
    Immersion programs have far reaching effects on communities. 
Studies connect language loss to higher levels of substance abuse and 
poor health habits, both of which are heightened in Native communities. 
I believe those who speak their language or learn their heritage can 
reverse this trend of poor health and decisionmaking. Research also 
show that bilingual children out perform their monolingual peers in 
school. On average, bilingual students show twice the progress in 
reading and math levels than that of their monolingual peers.
    There is such a visible gap between the elder generation of fluent 
speakers and the children that are attending the Immersion School. 
Eight years ago, no child was being taught their Native language on a 
daily basis. But today we have more than 130 students enrolled in the 
Immersion School. These are Cherokee children who know how to speak our 
language, not only to each other, but to the older generations as well. 
Our elders are such an important resource for immersion students. They 
know how our people lived and the skills we shared with the world. Our 
elders also teach about the pain and difficulties our ancestors faced 
during federal removal and forced assimilation practices. This new 
generation of Cherokee speakers is providing our elders hope and 
strength. The students learn from the elders that their ancestors 
overcame difficult times, survived and prospered. These lessons teach 
the students that they too are strong and can succeed in life.
    When I entered the Immersion School, I did not know that Native 
American languages were dying or that some were already gone. I did not 
know my people were punished because they were Native American and 
Native language speakers. And I did not know that we, as Cherokees, 
were forced from our homelands. I did not understand that my peoples' 
rights and land were taken over lust of land and money. That lust and 
greed for land and money came at the expense of Native people, the 
language and culture.
    It is hard for a Native American to talk about just their language. 
That is because a Native's language is so much more than just a 
language. It is the foundation of our culture. If I did not know my 
Cherokee language then I would not have such a great love for my people 
and our ways. I would not know my identity. I see people who do not 
know their Native language and they seem lost. I believe this is 
because they do not understand who they are without the knowledge of 
the language. I have been told there is a big hole in their heart 
because they know nothing about their culture.
    Language programs similar to the Cherokee Immersion School, which 
was created by the Cherokee Nation tribal government, are long overdue. 
There are several tribes that have only one fluent speaker left. That 
means their language is nearly dead already. Some tribes are attempting 
to create their own Immersion School system, but they will face many 
difficult challenges without adequate support. Immersion schools are 
not fully funded by the federal government, and it is not a common 
practice. Immersion schools require a lot of courage and commitment 
from the tribe, teachers, parents and students.
    In my home, although my parents are not Cherokee speakers, my 
maternal grandparents are fluent speakers, as well as their siblings. I 
enjoy speaking Cherokee with our elders. There are numerous occasions 
where I will sit with a group of elder speakers that do not expect me 
to understand their Cherokee spoken conversation. When they realize 
that I understand and answer them in the Cherokee language, it 
surprises them. Their facial expressions quickly turn from surprise to 
relief. I know our elders fear that our language will not survive, but 
immersion students like me provide hope for the future of our language.
    One may ask, ``Why should I care about the revitalization of the 
Native American languages that are left?'' My answer refers to today's 
most commonly known Native American language story. It is the story of 
the Navajo Code Talkers. As most are aware, the United States enlisted 
the help of Navajo speakers as ``code talkers'' during World War II to 
relay coded messages in Navajo. Without these Navajo speaking patriots, 
our history would be different today. Cherokee Nation also had code 
talkers that served the United States valiantly in WWI and helped our 
allies win.
    Native American languages typically go unnoticed in United States. 
Our Native languages add vibrancy to America's identity and culture. 
Without additional funding and commitments to preserve Native 
languages, our languages and identity will slowly die.
    It is difficult for me to express the pain in my heart when I 
imagine the slow disappearance of our langagues. Now is not the time 
for my generation to be complacent, and say it is simply ``okay'', 
because it is not ``okay''. The generational pain from federal policies 
that led to boarding schools and the Trail of Tears are still felt 
today. I feel it. Despite that pain, I want to learn more about my 
culture and who I am. I am steadfast in my beliefs, and I know I am not 
alone. No matter how difficult or time consuming or the resources 
needed to sustain language immersion programs we must preserve our 
languages.
Multigenerational Efforts to Preserve and Revitalize the Cherokee 
        Language
    The Cherokee Nation estimates there are only 1,200 fluent speakers, 
and the average age is 65. Our language experts estimate that we lose 
12 fluent Cherokee speakers each month. The Tribe developed the 
Immersion School, the Master-Apprentice Program and the 14th Generation 
Master Apprentice Program to address this growing decline of Cherokee 
speakers.
    The Master-Apprentice program is designed to immerse adults in the 
Cherokee language by requiring more than 4,000 contact hours with 
Master speakers. Similar to the immersion school, enrollees spend on 
average 40 per week studying and speaking only Cherokee. This program 
has graduated six adult fluent speakers since the effort began in 2014. 
The 14th Generation Master Apprentice Program is designed specifically 
for high school students who want to continue their langague education 
after school and during the summer. This program has about a dozen 
Sequoyah High School enrollees and interest is growing.
    These multigenerational programs help preserve and promote the use 
of the Cherokee language for generations to come and fill the gaps 
between Immersion School, high school, and home. The youth, who have 
been educated in the Immersion School, are among the most valuable 
Cherokee language assets going forward. The Cherokee Nation has made 
significant investments in these children, and we must keep exposing 
them to language learning opportunities. Without the aggressive 
commitment from our tribal government and our businesses, the future of 
the Cherokee language would be in jeopardy. I am proud to say that is 
not the case.
Conclusion
    I have provided personal testimony and stories as a young Cherokee 
language speaker and learner. I have also shared my personal 
perspective and concerns. I provided a brief view into the monumental 
work the Cherokee Nation has undertaken to keep our language 
flourishing.
    Creating new speakers, and in turn letting them pass along what 
they have learned, will keep Native languages flourishing for 
generations to come. Supporting cultural education and growing the 
language curriculum will help the children succeed on their lifelong 
journey and allow them to reach their God-given potential in school, in 
life and as Native speakers.
    I ask that you remember my stories and information as you consider 
future initiatives and funding. Thank you for again for this 
opportunity to testify. Wado.

    The Chairman. Thank you, Ms. Hummingbird.
    Okay, we will turn to questions, and I would like to begin 
with Commissioner Hovland.
    In your written testimony you discuss three main goals to 
strengthening language programs at the Administration for 
Native Americans. One goal you mentioned was to provide 
outreach to Tribes that have never received a grant. You talked 
also how the ANA is continually refining the application 
process.
    How do you go about doing that? How do you balance granting 
funds to the strongest applicants, while also reaching out to 
some of the Tribes that have never gotten a grant?
    Ms. Hovland. Thank you, Chairman Hoeven. That is an 
excellent question and a balance that can be difficult to find.
    I am in my seventh week, and I am learning a lot, and I 
have a lot to learn. As I spoke to some of you through my 
confirmation process, often what I heard was Tribes that didn't 
have the capacity or the funds to hire a grant writer often 
didn't receive grants; and that is one of my priorities, is to 
ensure that they are not overlooked, to make sure that our 
underserved Tribes and lower capacity Tribes have that 
opportunity to be not only successful at writing a grant and 
receiving one, but implementing it.
    Actually, ANA has some fantastic tools online and training 
offered to our Tribes at no cost, and I think part of it is 
just getting that information out, especially to the more rural 
communities coming from North Dakota.
    We are very experienced with rural communities, and getting 
information out there sometimes can be a challenge, so I think 
just making more awareness about it. But also, at ANA we really 
need to identify the Native communities that haven't ever 
received a grant, or haven't for a long time, or possibly don't 
have the capacity for a grant. We need to help them build that 
capacity.
    Starting with identification, visiting with what their 
barriers have been, while continuing to fund the grants based 
on the process, but seeing how we can try to capture funding 
for those underserved.
    The Chairman. How much will you be able to get out and 
actually get around to the different Tribes? Are you going to 
be able to do much of that, meet with them?
    Ms. Hovland. Personally, I would love to be able to do it, 
but, realistically, it is not possible.
    The Chairman. Pretty tough?
    Ms. Hovland. It is tough. We do have four regions in the 
United States, Alaska, and the Pacific Islands, and they are 
able to get out, have boots on the ground, but I want to get 
out there personally to as many as I can. I have been able to 
get to Hawaii, to New Mexico, and to Montana, and I will get 
out there as much as I can, but definitely want to get to those 
communities that haven't had a visit from the Commissioner in 
many years and just kind of hear, gather the thoughts and 
insights on how we can try to reach them.
    The Chairman. Ms. Hummingbird talked about how studying her 
Cherokee language really helped her in school with her other 
studies. Are you seeing that and is that something that you can 
promote to try to help these young people with their academics?
    Ms. Hovland. Absolutely. I think the mission of ANA, the 
testament of the positive outcomes is Ms. Hummingbird, and I am 
so glad she is here today.
    I am so proud of you. You did a fantastic job.
    Yes, I think the best testament to the difference ANA can 
make is witnesses like Ms. Hummingbird. Again, I have only been 
here for under two months. I had the honor of being invited 
into the Native communities in Hawaii and New Mexico, and the 
Keres program, all of them were amazing. Not only are the 
younger generations learning their language, but there is 
interaction with the elders and intergenerational activities; 
and it is building communities, and healthy, strong communities 
help with academics, help with the substance abuse and other 
issues that we face in our communities, so there are a lot of 
positives that come out of it.
    The Chairman. So, Ms. Hummingbird, your being here, your 
presentation was very impressive. Are you able to get other 
young people to take the language, learn the language, be 
diligent? How do you do that? How much do you use your Native 
language and so forth? How do you interact with others using 
your Native language? Can you just give a sense of that?
    Ms. Hummingbird. The best way I can put it is that I use it 
on a daily basis. It is not just something that I would use 
with my fellow classmates that I graduated with from the 
Immersion School; I have family members that know and are 
fluent in Cherokee, so I know that they would much rather speak 
their Native language than English. It makes them feel a lot 
more comfortable. My little brother is currently going through 
the Immersion School as well, and he started at six months, so 
I continue teaching him even when he is outside of school.
    People think that it is something that we wouldn't use on a 
daily basis, something that just doesn't ever get used, but, in 
reality, we use it on a daily basis. It is a very important 
part of our lives.
    The Chairman. I would think your elders would enjoy it, 
when they are able to visit with you in Cherokee.
    Ms. Hummingbird. Yes. I have had a few elders and 
interactions with them where they start having a conversation 
in Cherokee, and they kind of assume that we don't know what 
they are talking about.
    [Laughter.]
    Ms. Hummingbird. So, when we are sitting there, nodding 
yes, they kind of think, oh, they are just lost. No, we know 
what you are talking about. And when we answer them in 
Cherokee, it just surprises them. And it is not so much a 
surprise as it is relief that they know there is a generation 
coming up and learning our language.
    The Chairman. I would think so. Absolutely.
    Vice Chairman Udall.
    Senator Udall. Thank you so much, Senator Hoeven, for 
pursuing this hearing.
    Let me say to you, Lauren, what you have done, I think, and 
what the Cherokee Nation has done, is a really impressive move 
forward in terms of Native languages.
    You have talked a little bit here about how it has impacted 
your life and your community. Can you tell us how it has 
changed your educational and career goals now that you are able 
to be a fluent Cherokee speaker?
    Ms. Hummingbird. It affected my education because I am a 
bilingual person, so I can understand complex situations a lot 
easier than monolingual peers at school. But knowing my 
language and knowing the history and the culture of my people 
has created this desire within me to learn more, as much as I 
possibly can. In doing that it has made me want to teach 
children, adults in any way I can, even if it is just a word or 
two on the street, or if that means going back and getting a 
teaching degree and then going back to the Immersion School to 
teach or the Master-Apprentice Program to teach. I would do 
anything for my culture and my people, and I know that learning 
my language is one of the most important things to them.
    Senator Udall. Do you see one of the things that happens 
with young people your age, if they learn Cherokee fluently, 
they feel more motivated to succeed, to interact with the 
community, to make sure that you grow a stronger community?
    Ms. Hummingbird. It has definitely created this stronger 
person within them because learning their language has created 
such a pride within them; they know who they are. They know who 
they really are and who their ancestors were and how they 
lived, and they are so very proud of it.
    So, when they learn it and they go out into these 
communities, they are so much more comfortable and the 
communities accept them a lot easier, because sometimes they 
get a little scared if somebody doesn't know their culture very 
well. But when they come in, they learn Cherokee, they learn 
the ways of our people. They get a sense of pride, and you can 
see that when you walk up on them; you won't even know that 
they know their language, but they have that pride and then 
they tell you about I know my language and I know my culture.
    Senator Udall. That is great. I know that your parents who 
are here and behind you are very proud of you, but your little 
brother went to sleep during your testimony, so I don't want to 
wake him up.
    [Laughter.]
    Senator Udall. Dr. Sims, could I ask you a little bit 
about, in your testimony you describe the importance of 
establishing community-based and school-based language 
initiatives?
    Dr. Sims. Yes.
    Senator Udall. And you specifically highlight the 
importance of funding to support growth of local leadership, 
staffing, facilities, materials, mentorships, and a tribal 
language teaching workforce, among other things.
    Do you believe the Esther Martinez Program administered by 
the ANA is helping to create this infrastructure for language 
revitalization?
    Dr. Sims. Thank you, Mr. Vice Chairman, for the question. 
We have had quite a bit of support in terms of implementation 
from ANA, implementation of new programs. In some instances I 
think there could be more done to actually help build that 
teacher workforce that we need. I would say that if there was a 
way, in the ANA program planning that is done, that there is 
some mechanism or some way in which we make sure for every 
local program that is developed, there is attention paid to 
providing the kind of professional development and training 
that our community people need in order to implement these 
programs.
    We have done that on our own somewhat through the work of 
our Center at UNM, but you know the need is there when every 
summer, for example, in our summer institutes we continue to 
get Native speaking members of communities who come and who ask 
for help. What are the best strategies to use when I am doing 
an immersion program? So those are continuing needs that I 
think we could probably do better on and find more resources to 
build that teaching force capacity that we need.
    Senator Udall. Great. Thank you.
    I am going to come back to Ms. Hovland to ask about your 
suggestions you made in addition, but yield back, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And thank you, each of you, for your testimony here today, 
your leadership in so many areas.
    Ms. Hummingbird, I will repeat the praise that you have 
received from the Chairman and the Ranking Member. You have 
articulated not only a sense of purpose and place, but if there 
is anyone who would doubt that the benefit of these language 
immersion programs goes beyond just what happens in the 
classroom, you have been able to outline it in living and 
beautiful color, and I just so appreciate that.
    Ms. Hovland, did I hear you correctly that it is $12 
million in ANA grants overall? Is that the right number?
    Ms. Hovland. Yes, that is correct, for languages 
specifically.
    Senator Murkowski. I think about what it is that we try to 
advance through our appropriations process. To think that 
through these grants we are achieving outcomes like we are 
seeing Ms. Hummingbird articulate here, it is not just, again, 
about keeping a language alive; it is a culture, it is an 
identity, it is a purpose, a sense of self, and that, to me, is 
priceless. So, I think you know I am a fan of what we have seen 
with the ANA funds, and we are proud that, in Alaska, we are 
grant recipients of a couple of these and seeing them move 
forward.
    I appreciate what you said, Ms. Hovland, to the Chairman 
about the efforts to try to assist those smaller Tribes who are 
daunted by the prospect of these grant applications, who don't 
have paid grant writers; who just really don't even know where 
to start. So, it is a challenge to try to make sure that you 
are covering all your bases here, but I would just encourage 
you, if it is a way to streamline the grant process, whether it 
is training, whether it is some form of assistance to provide 
for this level of capacity, it is so important that we don't 
overlook some of these smaller Tribes.
    I thank you for coming to Alaska. I understand you are 
visiting Fairbanks here pretty soon for this consultation. I do 
hope that you will have an opportunity, when you are up there, 
to get out into rural Alaska, as well. It is a beautiful time 
of year to be out there, and if you need any recommendations as 
to where you might want to go on your trip, we are happy, happy 
to help with that.
    I am glad, though, that you are going up there with this 
consultation purpose. The U.S. Department of Ed got themselves 
in a little bit of trouble; they invited Alaska tribal leaders 
to a national tribal consultation in Kansas City, Missouri, but 
it was to discuss a very specific Alaska program, and it was 
complicated further by the timing, the advance notice that was 
given. Cost and conflicts with subsistence activities really 
limited the ability of many to travel to that conference.
    But it was also complicated by the fact that the Alaska 
Native organizations and the rural tribal consortiums, they 
also run federally-funded education programs, and Department of 
Ed had unwittingly excluded Alaska Native educational leaders 
from this tribal consultation. So, as you go up there to do 
your consultation, I just want you to keep some of those things 
in mind.
    In the minute that I have, I would ask for you to perhaps 
give me some background here in terms of how you plan on 
engaging in consultation with these rural tribal communities, 
as well as the Native corporations and the regional nonprofits 
to make sure that all the voices are being heard within your 
Administration.
    Ms. Hovland. Thank you, Senator Murkowski. I am looking 
forward to the trip and I will get in touch with you and your 
staff for suggestions, so thank you.
    Senator Murkowski. Great.
    Ms. Hovland. I am working on a strategy for outreach, and 
there are going to be different prongs for it. One will be 
where I am able to do outreach, but also consultation. As 
Commissioner, it is a dual role. I am also Deputy Assistant 
Secretary for the Administration for Children and Families, so 
I ensure that ACF is holding their consultation every year with 
our Tribes, for the recognized Tribes. So, that is one portion 
of it. I will be at those and I help facilitate the tribal 
consultation for that.
    But I also want to do, beyond that, as much meetings. I 
really strongly believe in getting to the communities and 
meeting with grassroot folks all the way up to leadership, and 
I want to do that as much as possible. Realistically, I won't 
be able to get everywhere, so I also want to have meetings 
where we can have like a consortium of Tribes come and visit, 
so I want to do that throughout the United States, Alaska, and 
our Pacific Islands.
    Whenever I am going up north, I will be sure to let you and 
your staff know, and I would love to have you come along and 
work together to try to address some of these issues.
    Senator Murkowski. Again, I appreciate that, and we are 
happy to help sketch out any part of a schedule that you are 
willing to work with, so I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Thank you to all of the testifiers.
    I will start with Ms. Rawlins. One of the things that 
really amazed me when I first visited was that the quality of 
the education is extraordinary, and I mean that in the very 
conventional sense. I think we all understand intuitively what 
Ms. Hummingbird talked about and what we all kind of 
understand, which is that language is necessary for culture to 
thrive, and language and communication is necessary for 
families to thrive.
    So we all understand intuitively the reason for Native 
language education, but I think what may have set what you do 
apart is that because of the obstacles that you encountered at 
the State Department of Education, the Federal Department of 
Education, and just about everywhere else, you had to prove in 
very kind of Western conventional terms that the outcomes were 
as good or even better. I am wondering if you can talk to that 
side of everyone's brain to talk about how positive the 
outcomes have been.
    Ms. Rawlins. Yes. Mahalo for that question. I want to start 
off by addressing that in the attitude that we took in the very 
beginning in working together with one another, in addressing 
the obstacles that came when we saw that the language was 
banned, so we had to change the law. So, working with families 
to work with our State legislature and with the Department of 
Education to allow us to move from the Aha Punana Leo language 
nest into the public school was one way of advancing that.
    The conventional way of looking at education, what we saw 
is, at our preschool, our children were reading already. So, 
from before leaving the language nest, before entering the 
kindergarten, compulsory education, our children were reading, 
so we were teaching them to read the way our kupuna taught us, 
through a syllabary, and having the children read, because our 
language is very regular, and taking it forward into 
conventional education.
    We started to build off of the reading research that takes 
a really good reader in the first language that then transfers 
to the second language and other languages, and we have seen 
this evidence at Nawahi, where our children are able to read in 
Hawaiian and English, because we see English as a world 
language; it is approached as a world language for our 
students. And then from there to Japanese. We introduce 
Japanese language at the elementary grade; Latin in the 
intermediate and now back down into grades 4 through grade 7, 
Latin, and this year we are now introducing Mandarin Chinese.
    Our students have gone into college, have graduated from 
college, and they report back to us. We had a student that 
continued into the Peace Corps after graduating from Stanford, 
attended the Peace Corps, enrolled in the Peace Corps, was 
assigned to Kyrgyzstan and was one of the students in his corps 
that learned Kyrgyz very easily. We have had other students 
that have graduated, gone on to college and received minors in 
French and Spanish.
    So, we see the approach that we take as English as a world 
language becomes the desire for our students to embrace 
languages. They see, at first, our reading really, really well 
in our first language, Hawaiian, taking that, transferred, and 
that is all researched, the bilingual research that talks about 
transfer of language skill, reading skills. So, we have seen 
that evidenced at our Nawahi school.
    Senator Schatz. Thank you. It just occurs to me that what 
started essentially as a family and community and cultural and 
tribal movement now has been accepted by those who are 
conducting rigorous analysis of what actually works in the 
classroom. I think this is a really interesting instance of us 
not having to fight over what we feel is right in our guts and 
sort of traditional Western analysis of whether kids are 
hitting their marks.
    What is really great about what you are doing is that all 
of the data shows that this is working in the non-traditional 
way and the traditional way. I think the State Department of 
Education, but also the Federal Department of Education needs 
to continue to provide that flexibility as we test against 
metrics, as we make sure kids can do their times tables and 
know basic science and basic American history; that we 
understand that this is actually one of the best approaches to 
do this, especially with this population.
    I just want to thank every single one of you.
    Thank you, Mr. Chairman.
    Ms. Rawlins. Thank you.
    The Chairman. Thank you, Senator.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. I want to thank the 
Chairman and Ranking Member for this hearing and for all of you 
for traveling here and then just talking about the importance 
and how we can work together to really maintain and revitalize 
languages, Native languages for future generations. So, thank 
you. This is an incredible discussion.
    Ms. Hummingbird, you are fantastic. It was so inspiring to 
hear you today, and I know your parents and family must be very 
proud. I know they are very proud of the other panel members; I 
can see it on their faces as well.
    I come from Nevada, and I had the chance to visit with the 
Pyramid Lake Paiute Tribe Museum in Nevada. The museum 
director, Billie Guerrero, spoke to me about the importance of 
language to the Tribe. She said that the language is the core 
of the Tribe's culture and identity, what you all have been 
saying. However, there are less than 30 tribal members who are 
fluent in the Tribe's language, and most of them are elders 
over the age of 60.
    One thing that the Tribe is doing to revitalize the 
language is having song nights. One of these nights the Tribe 
gets together and they sing traditional songs in their 
language; and not just songs, sometimes they are prayers. These 
have been incredible opportunities for the Tribe to share their 
songs, their language with a new generation.
    So, I am just curious, Dr. Sims, let me ask you, or if any 
other panel members have any thoughts on this, are there any 
other unconventional ways that we haven't talked about today 
for Tribes to engage their youth in learning and using their 
Native language that you have seen that has been successful?
    And maybe let me open it up to the panel, but I will start 
with Dr. Sims.
    Dr. Sims. Thank you for your question. I can think of a 
number of things that have taken place, and they come from New 
Mexico examples. I mentioned the Keres Children's Learning 
Center in Cochiti, which is the Montessori School. There is 
also another example that I draw from Jemez Pueblo in which it 
is standard, mainstream, type of Head Start program, federally 
funded. They have transitioned that into a complete total 
immersion Head Start program.
    While we might think of it as unconventional, actually, 
these are conventional ways in which children have always 
learned in these communities, which is to have those 
intergenerational linkages with elders and people in the 
community. So, in these two examples we see children learning 
by going back into the community. Some of these programs are 
right in the community, and there is no reason why those 
intergenerational opportunities for learning can't happen, 
because they are right there where grandmas and grandpas and 
aunties and uncles and other elders are right there as 
teachers.
    So, I would hope that we continue to promote that, because 
oftentimes our elders, our fluent speakers have not been part 
of education. The historical legacy is you keep them away from 
schools, and the idea was always that schools knew best how to 
educate. And what we are saying is, no, our children are best 
educated first by having those intergenerational linkages. And, 
like I said, we might think of that as unconventional, but for 
us it is conventional, and we need to promote that more.
    Senator Cortez Masto. Thank you.
    Anyone else?
    Ms. Rawlins. I will add a part of that. You are right about 
the conventional. It is a new day for us, and I will give an 
example. I also want to acknowledge, first, that I am also with 
the National Coalition of Native American Language Schools and 
Programs, which representative in 17 States of these schools 
that are using language in education.
    So, I will give an example of the Waadookodaading School in 
Wisconsin, whose children, the activities that the children are 
engaged in with elders as well is in the collecting of the 
maple sap, and that whole activity that is part of their 
culture in maple syrup collection--we don't have that in 
Hawaii--is a part of their curriculum.
    So, there are many instances, I am sure, that that is even 
happening at the Cherokee language schools, as well as Jessie's 
school here, is that the children are actively involved in 
cultural activities in bringing through language in the actual 
based, the place-based education as conventional for us in 
language revitalization.
    Senator Cortez Masto. Thank you. I appreciate that.
    I know my time is running out. I have one follow-up 
question, if that is all right, and this is to Commissioner 
Hovland.
    Thank you for the comments today. Congratulations. Excited 
to work with you.
    Ms. Hovland. Thank you.
    Senator Cortez Masto. Additionally, the Pyramid Lake 
Paiutes just hired a cultural coordinator, and her name is 
Heidi Barlese. Heidi is a tribal member that had moved away, to 
Reno, but is now back home working to preserve the knowledge 
and history of the tribal elders and sharing that with younger 
generations.
    She runs recreational camps in the summer where tribal 
elders come and teach the Tribe's children about their language 
and their history. She also visits with tribal elders to speak 
with them about their language and history so that she can 
record it and preserve that knowledge for future generations.
    Now, I know not all the Tribes have the resources to hire a 
cultural coordinator, and you spoke about the great work that 
the ANA is doing and some of the great opportunities that exist 
through grant funding, so I guess my question to you is, are 
there existing grants within the ANA that could help Tribes 
that hire cultural coordinators for the same purposes? I know 
you talked about the $12 million. Is that $12 million that is 
appropriated, would that be considered funding that could go to 
something like that, a coordinator to help Tribes do the same 
type of activities?
    Ms. Hovland. That is a good question, and I will answer it 
as best I can, being new to this position. The language grants 
are specifically to teach language. There are portions. The 
preservation and maintenance is the most flexible of the three, 
and there it can be used to develop curriculum, to establish 
repositories so that you can store materials.
    But it is specific to teaching language, which the culture 
goes hand-in-hand with, but there does need to be language 
teaching in it. We have a social and economic development 
program which can help build capacity for programs, but the 
funding really is meant to be for projects versus programs, so 
there is a definite beginning date and an end date.
    Senator Cortez Masto. Okay. If there is a way we can, maybe 
we will work together, figure out as we explore further 
opportunities that might help preserve the language as well.
    Ms. Hovland. Absolutely.
    Senator Cortez Masto. Thank you.
    Thank you, Mr. Chairman. I appreciate it.
    The Chairman. Vice Chairman, did you have some follow-up 
questions?
    Senator Udall. Yes. Thank you, Mr. Chairman.
    Ms. Hovland, this is on the issue of the Esther Martinez 
Act. You mentioned several successes in your testimony; the 
Cook Inlet Tribal Council and what they have done there, the 
Sitting Bull College, Lakota Immersion. And then you have heard 
on the panel here some very strong statements about the Esther 
Martinez Act and the good work that it is doing.
    What is your position on the reauthorization of the Esther 
Martinez Act?
    Ms. Hovland. Thank you, Senator Udall.
    Also, thank you for your comments, Dr. Sims. We definitely 
want to know areas that are working well in ANA and areas where 
we can improve upon, so we appreciate your comments on that.
    It was very important, the reauthorization of the Esther 
Martinez, and I have looked at the specific changes that have 
been proposed, and I would be happy to have a discussion with 
you, but, yes, we are excited to work with you and your staff 
on reauthorization of that.
    Senator Udall. So, on the whole, you are very predisposed 
to reauthorization?
    Ms. Hovland. Yes. Yes, absolutely.
    Senator Udall. Okay. Now, let me ask you about you stated 
in your testimony that you have been traveling across Indian 
Country to consult with Tribes, and thank you for coming to New 
Mexico, and see how you can work with them in your role as 
Commissioner. Recognizing that different Tribes have different 
needs when it comes to language preservation and 
revitalization, what are you doing to ensure that your grant 
programs are tailored to fit the needs of Indian Country?
    I recognize you are new, and if you want to supplement some 
of your answers when you get back, that would be great, too, if 
I get you in some areas that you are not that comfortable in.
    Ms. Hovland. Thank you, I appreciate that. As far as your 
question, the preservation and maintenance program really is 
the most flexible of the funding, and it really allows our 
Native communities to develop their language program around 
what they feel their priorities and their needs are.
    So, specific to language, that is the most flexible. The 
Social and Economic Development Program isn't specific to 
language, but there is so much flexibility in it, which is what 
I love about SEDs, that specific grant. Our Tribes and Native 
communities are able to identify their needs and their 
priorities and really build that program around it.
    I would be happy to follow up with you and your staff on 
some of the great things that are happening.
    Senator Udall. That would be great.
    You stated in your testimony that you are working on a new 
framework for evaluating grants for language preservation. How 
does the new framework differ from the previous framework and 
how do your changes impact the ability of languages at the 
beginning of the revitalization pathway to score highly enough 
to receive a grant?
    Ms. Hovland. I have to look at my written statement, but we 
are working on IT infrastructure. Is that the portion you are 
talking about, about gathering data from our grantees?
    Senator Udall. Yes.
    Ms. Hovland. So, ANA has had an older, antiquated IT 
infrastructure, which made it difficult to extract data that 
was required to report to Congress every year and also was 
beneficial for us to see the outcomes, so they started working 
on a new IT infrastructure which we hope to go live in the next 
few months, which will allow our staff, at site visits, to be 
able to enter data and comments onsite during the visits, and 
we are able to get that information and extract it immediately, 
which will be helpful for us in addressing the issues, as well 
as getting reports to Congress on our outcomes.
    Senator Udall. Thank you very much.
    Vice Chairman Baird, you and your Tribe have quite a 
remarkable story. The language of your people was lost for many 
years, and with no living speakers you were able to use 
centuries-old materials to revitalize the language. You 
mentioned in your testimony that your Tribe received an Esther 
Martinez grant to support your revitalization work.
    How did the Esther Martinez grant support your Tribe's work 
and what resources and programs were created by your Tribes 
because of this grant?
    Ms. Baird. Thank you for your question, Senator Udall. So, 
we are currently operating Mukayuhsak Weekuw, which means the 
Children's House. We are operating a preschool and kindergarten 
under the Esther Martinez language grant currently. Prior to 
receipt of Esther Martinez, we did not have the preschool or 
kindergarten.
    We started with the preschool and kindergarten. This year 
we are adding first grade. So, you could say that we took our 
ANA funding, we had prior ANA funding and we ran a Master-
Apprentice program where I spent a minimum of 25 hours per week 
in complete immersion with our speaking team, and our next 
project was to take those fluent speakers, after I made a pool 
of fluent speakers, we developed curriculum that would cover 
180 days of public school in the classroom, immersion 
curriculum.
    After we finished that piece of work, we then moved on to 
implementation, which is Esther Martinez. So, we have children 
coming in in preschool and kindergarten that are being taught 
using, again, Montessori methodology to deliver curriculum to 
children, and we already have preschool and kindergarten 
children that are going through reading readiness and 
kindergarten children that write their names.
    The curriculum that they are using is also CBE, or 
culturally-based education, where the lessons that they are 
learning and the STEM, science, technology, engineering, and 
math, components are mapped to traditional hunting, fishing, 
growing, family structure, math, and actually the children work 
on world geography and local geography as well.
    So, in a very real sense, Esther Martinez has given us a 
program where children are learning in the language and they 
hadn't at that age level from fluent adults for a couple 
hundred years, actually.
    Senator Udall. Thank you very much.
    Just one more question, Mr. Chairman.
    Dr. Sims, you mentioned in your testimony that Native 
students are not properly evaluated due to English-based 
testing and standards. You mentioned a set of recommendations 
to improve on this shortcoming and to ensure that Native 
students are evaluated fairly for future success.
    How do we ensure fair and equal standards for Native 
students that are learning and speaking from their Native 
language? With an increase in immersion schools in tribal 
communities, what can we do to make sure Native students are 
not left behind?
    Dr. Sims. Thank you for your question. I think this is a 
very critical one and it comes at a time when we are seeing 
kind of the emergence of more of these models of immersion that 
obviously are very successful in producing children who now 
speak these languages.
    I would also mention that what we have not done enough of 
is to also understand not only the linguistic benefits that 
come from these kinds of experiences, but the extra linguistic 
kinds of benefits that come from children learning in these 
languages. What I mean by that is as these children and these 
students are learning Native languages which have no 
commonality with English, they are two different kinds of 
communication systems.
    The cognitive benefits that come with young children, as 
young as 2, 3, learning these languages and becoming fluent, we 
don't know enough about the value of what they are learning in 
a different communicative system. This is why, when we use 
English-based tests for Native children, especially those 
learning their Native language, it doesn't do justice to them 
in terms of what they are acquiring in their own Native ways.
    That is not just about the ability to speak the language, 
but it is all the cognitive things that are developing in young 
brains, young children, when they are able to communicate, when 
they are able to express their ideas.
    Along with that, they are also learning what we call 
cultural literacy. It is not just the ability to read and 
write, but all the kinds of ways in which young children learn 
how to read from being able to communicate with elders, with 
parents, when they participate in different community events 
and become parts of those communities actively involved, they 
are learning the kind of literacy that we don't give enough 
credit to.
    So, one of the ways that we try to talk about doing 
assessment properly and doing it more authentically is to look 
at what the goals that language communities have set for their 
children in terms of learning these languages. What do they 
expect children to be able to use that language for? And, on 
that basis, are in fact children using that language in the 
ways that are appropriate to a particular culture?
    Are the children being able to use these languages in ways 
that are promoting not only their own individual growth, but 
also how it affects their academics? You have heard Namaka talk 
about how that principle of language transfer is an essential 
one and kids, when they are taught well, have that skill to be 
able to learn in any language.
    Those are some of the things that I think we don't give 
enough credit for, so, when we gather data, when we look at 
what children are doing, it cannot be just solely on English-
based kinds of assessments.
    Senator Udall. That, I think, is a tremendously important 
concept.
    Let me, finally, just thank all the panelists here. You all 
bring a perspective from all over the Country, from various 
Tribes and the successes we have had. I am particularly 
encouraged hearing a lot of these, especially when we are 
looking at the reauthorization of the Esther Martinez Act and 
making sure that we take your input.
    Several of the things I have heard over and over again is 
that the grant length for Esther Martinez should go to five 
years rather than three years and, also, the minimum class size 
should go from 10 to 5. Those are things that have been proven 
out through, I think, all of you talking about them and in your 
communities.
    Ms. Hovland, I think the more you travel, the more you are 
going to hear about these.
    So, thank you all very much. Really appreciate your 
dedication here to language revitalization.
    Dr. Sims. Thank you.
    Ms. Baird. Thank you, gentlemen.
    The Chairman. All right, thank you, Vice Chairman Udall.
    Again, thanks to all of our witnesses.
    The hearing record will be open for two weeks and, again, I 
just want to add my thanks to you as well.
    Commissioner Hovland, great to have you on board.
    Thanks so much. We are adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Allan Hayton, Language Revitalization Program 
                       Director, Doyon Foundation
    Sen. John Hoeven,
    We are writing to provide testimony and share about our language 
revitalization efforts as you prepare to enter into an oversight 
hearing on ``Examining Efforts to Maintain and Revitalize Native 
Languages for Future Generations'' this Wednesday, August 22, 2018. 
Doyon Foundation is fully committed to the healthy future of the 
ancestral languages of our region, and supports Indigenous language 
revitalization efforts all across the United States.
    The Doyon region in Alaska is the ancestral home to ten Indigenous 
Alaska Native languages. Those languages are Dihthaad Xt'een Iin 
aandeg' (Tanacross), Nee'aaneegn' (Upper Tanana), Deg Xinag, Dinak'i 
(Upper Kuskokwim), Benhti Kokhwt'ana Kenaga (Lower Tanana), Holikachuk, 
Denaakk'e (Koyukon), Han, Dinjii Zhuh K'yaa (Gwich'in), & Inupiaq. We 
have been working diligently to create opportunities for learners, as 
well as supporting the efforts of speakers and teachers of these 
languages to share and document their knowledge.
    Doyon Foundation is the recipient of two major language grants from 
the Administration for Native Americans , and U.S. Department of 
Education to create online language learning for nine languages. In 
addition to the opportunities created by these two grants, Doyon 
Foundation provides assistance to tribes and communities of our region 
in the form of small grants, workshops, training, and scholarship 
support for those involved in language revitalization efforts.
    We are also seeing an increase in political support. In 2014 Alaska 
Governor Sean Parnell signed House Bill 216 into law, recognizing 
Alaska's 20 Indigenous languages along with English as official 
languages of the State of Alaska. Half of these 20 Indigenous languages 
are within the region Doyon Foundation serves. We feel strongly that 
these languages are essential to the identity, well-being, and 
prosperity of the people of Alaska, and represent a vast wealth of 
knowledge, culture, history, and connection to the land.
    We hope to see continued support for our work and for the work of 
our Indigenous brothers and sisters nationwide breathing life back into 
our languages.
    Thank you for taking the time to learn more about our work.
                                 ______
                                 
 Prepared Statement of Amber Sterud Hayward, Director, Puyallup Tribal 
Language Program; Zalmai Zahir Ph.D. Candidate, Linguistics University 
               of Oregon, Lushootseed Language Consultant
Introduction
    Honorable Chairman Hoeven, Vice Chairman Udall and Members of the 
Committee, thank you for holding this important hearing on examining 
efforts to maintain and revitalize native languages for future 
generations. The Puyallup Tribe greatly appreciates the work of this 
Committee to empower Indian Nations and their citizens through the 
preservation and expansion of Native language. It has been said that 
Language is culture and culture is language. Thank you for the 
opportunity to provide this testimony on behalf of the Puyallup Tribe 
of Indians. We encourage Congress to continue to supplement Tribal 
resources dedicated to expanding the use of Native language. It is an 
element of self-identity and a foundation for future success. We are 
seeing results now and want to accelerate our language programs.
Lushootseed
    Lushootseed is the indigenous language of the Puyallup Tribe. It is 
a member of the Salishian language family, which is comprised of 23 
North American languages that extend from Canada to Oregon and from the 
Pacific Ocean east into Montana. Lushootseed is classified as a Coast 
Salish Language. It is spoken within the Puget Sound region of 
Washington, including all of its river tributaries, the east side of 
Kitsap Peninsula, Whidbey Island, and the Skagit Valley. Lushootseed is 
the native language of thirteen tribes. They are Upper Skagit, 
Swinomish, Tulalip, Snohomish, Sauk-Suiattle, Stillaguamish, 
Snoqualmie, Suquamish, Duwamish, Muckleshoot, Puyallup, Nisqually and 
Squaxin Island. These tribes make up a population of over twenty 
thousand.
Status of Lushootseed
    Four years ago, there were no known speakers that used Lushootseed 
on a regular basis within the Puyallup tribal community. There were 
those that had taken language classes and knew words and phrases, but 
no one was using the language for communication. In 2014, the Puyallup 
Tribal Language Program implemented a new approach that focused on 
language use. This shift in methodology has changed the landscape of 
the Lushootseed speaking community and has produced promising results. 
The number of speakers within the first year started at 3 and has 
roughly doubled each year. We can now say that there are strong 
indicators that Lushootseed is being revitalized. The Puyallup Tribal 
Language Program uses methods in line with the UNSECO frameworks for 
language vitality as a metric for language revitalization. \1\
---------------------------------------------------------------------------
    \1\ http://www.unesco.org/new/en/culture/themes/endangered-
languages/language-vitality/
---------------------------------------------------------------------------
    We want to address just two of these metrics: the absolute number 
of speakers, and intergenerational language transmission. For the 
absolute number of speakers, we define a speaker as someone who uses 
Lushootseed one hour per day or more for communicative purposes. As of 
2018, the Puyallup community has about 40 speakers. In terms of 
intergenerational language transmission, there are 6 children of these 
40 speakers (15 percent of speakers) being raised in homes where 
Lushootseed is a primary language. This does not include the 600 
children serviced in Lushootseed at Chief Leschi tribal school and 
Grandview Early Learning Center tribal daycare. In addition to the 
absolute number of speakers of 40, there are about 20 more speakers 
that average language use under one hour per day. Their use is 
increasing and indications are they will be speakers within a short 
time. The Puyallup Language Program is estimating about 60 new language 
students to begin instruction in the fall of 2018. This means that by 
the summer of 2019, we are projecting a language community of 100 
speakers, and if language use continues to grow at its current rate 
where the number of speakers is roughly doubling each year, we are 
estimating over 1,500 speakers by 2023 (Figure 1).
Language Revitalization Impact
    The impact language revitalization has on the Puyallup community 
has been invaluable. Teachers at the tribal school are beginning to 
note positive changes in students. Behavior changes are resulting in 
higher academic scores for the children where Lushootseed is used with 
English for classroom instruction. This is creating a change in 
language attitudes resulting in more educational events that involve 
community classes. These classes are proving to be very popular with 
high attendance. This includes the Lushootseed Language Institute, an 
annual two-week language institute that is cosponsored with the 
University of Washington Tacoma.
    The higher number of speakers is increasing the frequency and 
function of the language used within the community. Over the past four 
years, there has been a positive increase in attitude toward use of the 
Lushootseed language in the community, schools, tribal events and 
social media. In the summer of 2018, the Puyallup Tribe of Indians 
hosted Canoe Journey \2\ ``Power Paddle to Puyallup,'' where the 
Lushootseed language dominated. Thousands of people heard the Puyallup 
ancestral language upon entering our lands by canoe. This was the first 
time in decades that a high volume of language has been used and heard 
in our community. Council members, youth, community members and 
Language Program staff greeted over 100 canoes in the Lushootseed 
language, which in turn was reciprocated by incoming canoes in their 
ancestral languages.
---------------------------------------------------------------------------
    \2\ Canoe Journey: A Northwest Native gathering of canoes 
journeying from tribe to tribe and landing at a host tribe to celebrate 
a week of singing, dancing and gifting.
---------------------------------------------------------------------------
    On a personal note, the language revitalization efforts put forth 
by the Puyallup Tribe has impacted my personal life, and the life of my 
children. The model used in our office and throughout the community is 
the same model used in my home with my family. Over the past four 
years, Lushootseed language use has not stopped when work hours are 
over, but has carried through very intentionally into my home and into 
the lives of my children. The impact of this work had produced a 
language nest \3\ in our kitchen and bathrooms, hours of Lushootseed 
use and conversation in our home. Our revitalization efforts have 
impacted our extended family and friends that enter into our home, as 
they too have been exposed to the language over the past four years. 
Our extended family are now able to understand and minimally 
communicate with us in the Lushootseed language as well as in Salish, 
my mother's tribal language. Because our home has been established as a 
language home, my children are learning the value of multilingualism by 
learning words and phrases in other tribal and non-tribal languages. We 
have incorporated tribal languages into our home from the Salish, 
Navajo, Crow, Blackfeet, Tlingit, Lakota, and Yakima tribes; non-native 
languages including Spanish and German. My children understand the 
importance of multilingualism and greeting people we meet in their 
ancestral languages. My children get to benefit from a well-rounded, 
traditional Indian education through the language. My family gets to 
experience our culture through Lushootseed eyes--our songs, dances, 
canoeing, pulling cedar, bone games, etc. The policies that are being 
adopted in Washington D.C. directly impact the work that we do in our 
community, in my home and in my children's schools and daycares.
---------------------------------------------------------------------------
    \3\ Language nest: a physical location that does not allow the use 
of English in its parameters.
---------------------------------------------------------------------------
Conclusion
    For these reasons, we are asking that Congress take special 
consideration for indigenous language policy. National policies have a 
direct effect upon language attitudes across all levels, and language 
attitudes have a strong effect on language vitality (see UNESCO 
frameworks). In addition, we ask Congress to continue to support the 
revitalization and maintenance of Native languages and expansion of 
language immersion programs. We appreciate Congress appropriating $2 
million dollars in FY 2018 within the BIA's Education Program 
Enhancements for capacity building grants for BIA- and Tribally-
operated schools to expand language immersion programs. Congress should 
make such grants recurring so that we may cultivate generations of 
Native language speakers. Language revitalization efforts across the 
United States rely on Federal appropriations to build foundational 
work, expand programs and sustain them. In addition, federal funding 
used in educational programs are a vital part of language 
revitalization. These programs require the development of a plethora of 
language curriculum, materials, and personnel that can use them. By 
funding such programs, Congress is part of an invaluable process that 
will shape Native minds and lives within Tribal communities for 
generations to come.
                                 ______
                                 
 Prepared Statement of Siri G. Tuttle. Ph.D., Director, Alaska Native 
            Language Center, University of Alaska Fairbanks
    The Alaska Native Language Center was established by state 
legislation in 1972 as a center for research and documentation of the 
twenty Native languages of Alaska. It is internationally known and 
recognized as the major center in the United States for the study of 
Eskimo and Northern Athabascan languages. In this letter, I would like 
to emphasize the importance of language study--language learning and 
research--to the support of the indigenous languages of North America.
    Language documentation, research and publication on language 
teaching are all vital to the support of communities that are working 
to preserve, revitalize and reclaim their languages. Even for languages 
spoken by millions, written language materials are crucial to education 
in both first- and second-language contexts. For minority languages, 
these materials can make the difference between possible reclamation 
(as in the case of Wampanoag, see Ms. Baird's letter) and loss through 
interrupted transmission.
    Normal intergenerational transmission of these languages was 
intentionally disrupted through government-funded education, in a 
program that did not end the use of the languages, but did cause deep 
harm to indigenous communities and families that continues to surface 
today. Both before and during the period of this intentional 
disruption, speakers of indigenous languages chose to record their 
knowledge, often in partnership with non-indigenous linguists. Their 
body of work stands today as a remarkable testament to the power, 
diversity and beauty of human language. They are the creators of 
dictionaries, teaching materials and recorded narratives.
    At ANLC, we see every day the need to ask further questions, not 
just about word meanings and grammatical constructions, but about the 
linguistic context required to turn an English speaking indigenous 
person into a culturally competent speaker of their grandmother's 
language. As always, collaboration between people with different 
viewpoints can often provide insight: members of speech communities 
help academic linguists understand cultural context, while academics 
can help speakers and learners to communicate the riches of their 
heritage to a wider audience. The support of the National Science 
Foundation and National Endowment for the Humanities has been crucial 
to documentation and sharing of the Alaska Native Languages.
    The study of diverse languages deepens our understanding of what it 
means to be human as well as what it means to speak a human language. 
For those who are not members of indigenous language communities, the 
continuing use and study of indigenous languages is a gift to inquiry. 
When people ask me why they should study a new language, I ask them: 
``Why don't you want to know more about the world and the people in 
it?'' The complex, elegant and poetic indigenous languages of North 
America should be among the many world languages available to American 
students as they prepare for lives in this new century. They cannot be 
accessed without continued study, continued learning in the communities 
of their origin, and continued care for historical recording and other 
documentation. All of this work is part of what is termed 
revitalization. Every part of it is needed.
    It is incumbent on the United States Government to redress the harm 
done to indigenous Americans through the suppression of indigenous 
language and culture. Part of that redress must include support for the 
use, study and teaching of Native American languages. In particular, it 
must include support for the professional development of indigenous 
Americans as language teachers and language scientists.
                                 ______
                                 
              Prepared Statement of the Cancuba Collective
    Halito! (Hello!)
    I am writing on behalf on Cancuba Collective, which is an arts 
collective out of Southern Louisiana that seeks to platform indigenous 
artists and traditional ways. We have been involved in the Houma people 
and language revitalization over the past year, and I'd like to share 
one member's story.
    They are a Houma native who does not live in Louisiana, but has 
been involved in the community the best that they are able. They went 
down this past year to help work on a few native issues in the area, 
and along the way got involved in the Houma Language Project. In 
promoting it to the local powwow in the spring of 2018, they found that 
since the strong colonization of the French, the native language was 
most certainly sleeping. Many tribal members didn't even know there was 
a native language that was the predecessor to the cajun French that 
many older folks speak. Their mother has since also gotten involved, 
and they are using it as a way to bring themselves closer, as well as 
to the greater tribal community. In talking to tribal elders, they were 
excited about a younger person being involved in wanting to revitalize 
the old ways, both in language and in arts and physical historical ways 
like weaving and carving, and offered all they help that they could, 
but funding things is already a problem for the tribe. Many young 
people are involved in purely survival in the current state of the 
world. especially in Louisiana, and so they are moving away or just not 
involved in the tribal going ons. We deserve to have our language and 
ways come out of slumber. We deserve to be able to speak to our 
ancestors in our native tongue. Thank you.
                                 ______
                                 
 Prepared Statement of Desa Dawson, ACTFL Past President; Director of 
    World Language Education, Oklahoma State Department of Education
    Below is information from Oklahoma about our Native American 
Language programs and our attempt to encourage the growth of programs 
in the state to support our Tribes efforts to revitalize their 
languages.
    Oklahoma has 39 Federally-recognized Tribes that are sovereign 
nations within its borders. The Tribes are all at various states of 
language revitalization. All of the languages are on the endangered 
list, and some have only a few speakers left. Monolingual speakers are 
all but gone. In 2013 the Oklahoma State Department of Education worked 
with representatives of the Tribes to develop an alternative pathway 
for certification. A few Tribes did not participate due to a limited 
number or complete lack of speakers of the language or the 
unwillingness to have non-Tribal members learning the language; 
however, the State of Oklahoma felt like this was needed because most 
Indian students attend public schools since there are no reservations 
in our state. We very much value working with the Tribes in matters 
relating to education and wanted to find alternative pathways to 
certification in order to support tribal efforts as well as award 
students World Language credit for taking Native American Languages in 
school.
    In 2017-18, thirteen Native American languages were being taught in 
the state as World Language high school graduation courses. A total of 
31 schools offered programs taught by duly certified teachers. 
Additional schools still offered language classes for elective credit. 
There were also some after-school programs as well as community 
programs which are not reflected in the numbers below.
Standard Certification
    Cherokee Nation is the only Tribe to have developed a college 
preparatory track for standard certification and has the only immersion 
program for Native American Languages in the entire state.

             Alternatively Certified Instructors since 2013
------------------------------------------------------------------------
                           TRIBE                               Number
------------------------------------------------------------------------
Cheyenne-Arapaho                                                       3
Choctaw                                                               10
Chickasaw                                                              1
Comanche                                                               1
Creek                                                                  2
Osage                                                                  2
Pawnee                                                                 1
Potawatomi                                                             1
Sac and Fox                                                            2
Seminole                                                               3
------------------------------------------------------------------------
    Total                                                             26
------------------------------------------------------------------------

Other languages utilizing adjunct instructors:
    Kiowa, Otoe (World Language Credit)


                Total NAL Students from 1991 to present:
------------------------------------------------------------------------
                           Years                               Number
------------------------------------------------------------------------
                  1991-1992                                           22
                  1992-1993                                           19
                  1993-1994                                          273
                  1994-1995                                          312
                  1995-1996                                          879
                  1996-1997                                          955
                  1997-1998                                          472
                  1998-1099                                          313
                  1999-2000                                        1,115
                  2000-2001                                          508
                  2001-2002                                          439
                  2002-2003                                          659
                  2003-2004                                          807
                  2004-2005                                          720
                  2005-2006                                          790
                  2006-2007                                        1,007
                  2007-2008                                        1,130
                  2008-2009                                        1,136
                  2009-2010                                        1,073
                  2010-2011                                        1,053
                  2011-2012                                        1,355
                  2012-2013                                        1,174
                  2013-2014                                          929
                  2014-2015                                          950
                  2015-2016                                        1,249
                  2016-2017                                          992
                  2017-2018                                          964
------------------------------------------------------------------------

    I hope this information is helpful. If you would like additional 
information, please feel free to contact me.
    Warmest regards,
                                 ______
                                 
Prepared Statement of Monica Macaulay, President/Kristine Hildebrandt, 
             Vice President, Endangered Language Fund (ELF)
    Dear Committee Members:
    We submit this statement on behalf of the Endangered Language Fund 
(ELF). ELF is a 501(c)3 founded in 1996 with the goal of supporting 
endangered language preservation and documentation projects. Our main 
mechanism for supporting work on endangered languages has been funding 
grants to individuals, tribes, and museums. One of our grant programs 
funds languages world-wide (including in the U.S.) and the other is 
restricted to a subset of tribes in the U.S. We have funded a wide 
range of projects in this country, from the development of indigenous 
radio programs in South Dakota, to recording the last firstlanguage 
speakers of Ponca in Oklahoma, to the establishment of orthographies 
and literacy materials to be used by endangered language teaching 
programs throughout the country.
    We recognize the inseparable link between language and cultural 
identity. Towards this recognition, our funding organization has had 
many positive impacts, but it can only effect so much change on its 
own, given the small size of our grants. We also recognize the critical 
role that the federal government has played, and must continue to play, 
in providing resources and empowering tribes to protect and to 
revitalize their native languages. In this statement, we echo comments 
made in the testimonies by the panelists at the hearing on Wednesday, 
August 22, 2018.
    We strongly endorse the recommendations of the panelists, 
including: funding education programs, particularly those that include 
immersion and intergenerational participation; empowering tribal 
communities to train and make use of native language experts; and, 
promoting/creating legislation at the federal level to develop 
curriculum materials on-site, which brings into the fold lower-capacity 
tribes that have not yet had the chance to receive support for language 
promotion.
    We are grateful for the opportunity to make this statement to you 
on behalf of our organization.
                                 ______
                                 
Prepared Statement of Dr. Neyooxet Greymorning, Professor, Departments 
   of Anthropology and Native American Studies, University of Montana
    To members of the Senate Hearing on Revitalization of U.S. 
Languages,
    By way of introduction, Nenee'eesi'inoo Neyooxet Greymorning and my 
involvement with language revitalization runs back some 25 years, when 
in 1993, I established the first language immersion preschool on the 
Wind River reservation, and also convinced Disney studios to release 
their copyright on the Bambi movie so it could be translated into 
Arapaho.and distributed on the reservation. I further convinced Disney 
studios to not use their talent but to use Arapaho children and adults 
for the speaking parts; which was an historical first. By this point 
I'm sure you have heard the standard testimonies of how deeply 
connected our languages are to our cultures and identities as the 
Native Peoples of America so I will spare you that. What I will instead 
state is that we as a people did not ask for our languages to be in the 
state that they currently are in, which is on the brink of 
disappearing. We were pushed to this point by concerted efforts of the 
US government. A statistic you may not be aware of is in the Northwest 
four state region of the United States (Washington, Oregon, Idaho and 
Montana), from the late 1880s to the late 1930s, a fifty year time 
span, the United States government spent 250 million dollars, funneled 
through boarding schools, in an effort to ``Kill the Indian. `` (see 
comment on Richard Pratt at http://carlisleindian.dickinson.edu/teach/
kill-indian-and-save-man-capt-richard-h-pratt-education-native-
americans, and cultural genocide at https://en.wikipedia.org/wiki/
Cultural_genocide). These were clear acts of ethnocide (see 
``Understanding Cultural and Language Ethnocide. at https://
www.culturalsurvival.org/news/understanding-culture-and-language-
ethnocide-native-perspective). To put ethnocide in perspective, it is 
like a cobalt bomb, the idea of which was to destroy human life with 
minimal damage to the infrastructure of cities; buildings, roadways, 
bridges etc.. Ethnocide similarly leaves the physical structure of 
Native people's bodies intact, while, as Captain Richard Henry Pratt 
put it, killing that which is Indian; in this case the culture and 
language of Native American peoples. Another piece that may be new 
information stems from the following. Having returned from Australia on 
the 10th of August and Vancouver Island on the 18th of August, where I 
ran intensive Native language teacher workshops in ASLA (Accelerated 
Second Language Acquisition) see http://www.umt.edu/nsilc/, the 
governments in these two countries have understood the impact they have 
had upon Aboriginal languages and have established significant funding 
and resources to try to stabilize and revitalize, or rejuvenate as I 
prefer to call it, Aboriginal and First Nations languages and cultures. 
Other countries are also following suit with such efforts, and by so 
doing may become acknowledged leaders in this area of Human Rights. In 
a final closing note, if the US had succeeded in killing all Indian 
languages by the 1940s then there would not have been any Code talkers 
to effectively use several different Indian languages that changed the 
course of the war to the United States' advantage. There is a debt owed 
Native languages, for the contribution and aid in winning a war, that 
has yet to be paid. The question left is, will the United States follow 
the lead of other countries who have established legislation and 
funding to safeguard Native languages and cultures, or idly stand by 
and continue to watch efforts that the government put in motion 130 
years ago through boarding schools designed to decimate Native 
languages and cultures?
                                 ______
                                 
  Prepared Statement of Ivy Doak, Ph.D., Denton, TX; Former Executive 
  Secretary, Society for the Study of the Indigenous Languages of the 
                          Americas (2008-2017)
    To the Members of the US Senate Committee on Indian Affairs:
    Language maintenance and revitalization are essential to the tribes 
whose languages remain in use by first language (L1) speakers or are 
well-documented enough to be restored to common use. The languages 
provide a point of shared identity and pride, enabling youth to move 
beyond the crippling effects of subjugation that befell their elders.
    The Coeur d'Alene (Salish) tribe invited Jesuit missionaries to 
their homeland following a vision, perhaps affected by practical 
insight, by Circling Raven, a direct ancestor of the current tribal 
chairman, Ernest Stensgar. The missionaries arrived in 1865. By 1926, 
when linguist Gladys Reichard arrived on the reservation, she worked 
with one of the few remaining monolingual speakers of the language 
(Dorothy Nicodemus) and two bilingual speakers (Tom Miyal and Julia 
Antelope) to document its unique sounds and syntactic structures. In 
sixty-one years, use of the language had dwindled significantly.
    Today, eighty years since Reichard (1938) published her description 
of the language, users of the Coeur d'Alene language have managed to 
keep it in the public mind and are working to promote its continued use 
in all aspects of daily life. While early efforts by the tribe were 
independent of government assistance, governmental support has enhanced 
their efforts in language preservation and its reintroduction to use by 
tribal members. Independent efforts by tribal members and their allies 
to preserve the language resulted in a dictionary and lesson books and 
tapes (Nicodemus 1975a, 1975b). An enterprising school teacher, Reva 
Hess, introduced the language as an elective in the local high school 
curriculum; many enrollees began learning the language from elders 
brought into the classroom for the students to interview personally. 
Tribal members exposed to the language at home and by these and other 
early efforts at language maintenance outside the home were inspired to 
continue their study. Support from the Administration for Native 
Americans has allowed tribal members to collect and archive an enormous 
corpus of words, sentences, and stories by interviewing bilingual 
elders. One of Hess's high school students, Audra Vincent, a 
granddaughter of an L1 speaker, now runs the tribe's Language Program, 
and has been involved in at least two research projects funded by the 
National Science Foundation that have resulted in an online catalog of 
historical language data (see Bischoff et al., 2009). Pride of 
ownership in the language has inspired tribal members to revitalize 
other areas of tribal history, from food collection and preparation to 
canoe building and racing.
    Native languages like Coeur d'Alene that have been maintained or 
revitalized with assistance from governmental funding through the 
Administration for Native Americans, the National Science Foundation, 
and the National Endowment for the Humanities provide a meaningful 
identity to the peoples who share the knowledge of those languages. For 
those who study languages and the human mind, maintained and 
revitalized native languages provide an incredible wealth of data on 
language structure, use, and change relevant to all people.
    References
    Bischoff, Shannon, Ivy Doak, Audra Vincent, Amy Fountain, and John 
Ivens. 2009. Coeur d'Alene Online Language Resource Center. http://
lasrv01.ipfw.edu/COLRC/reichard.php

    Nicodemus, Lawrence. 1975a. Snchitsu'umshtsn: The Coeur d'Alene 
language. Spokane: University Press. In two volumes: I The grammar and 
Coeur d'Alene-English dictionary; II English-Coeur d'Alene dictionary.

    Nicodemus, Lawrence. 1975b. Snchitsu'umshtsn: The Coeur d'Alene 
language. A modern course. Coeur d'Alene Tribe.

    Reichard, Gladys. 1938. Coeur d'Alene. In Handbook of American 
Indian Languages 3, ed. Franz Boas. New York: J. J. Augustin.
                                 ______
                                 
    Prepared Statement of John D. Barbry, Director of Development & 
   Programing, Education Program, Language & Culture Revitalization 
               Program, Tunica-Biloxi Tribe of Louisiana
    Heni (greetings) Senators:
    The Tunica-Biloxi Tribe has no fluent speakers and is working to 
expand their Tunica language education efforts into a sustainable 
program that will develop more speakers and instructors for survival of 
the language. Like in so many American Indian communities, the effects 
of expansionism and assimilation have resulted in the dormancy of the 
Tunica language. Although there are no fluent Tunica speakers, there 
are currently 50 speakers with proficiency ranging from mostly beginner 
to two at intermediate level. The two intermediate speakers, who serve 
as instructors, learned Tunica as a second language with reinforcement 
of oral traditions passed down through their family. While they have a 
higher level of proficiency, they rely heavily on documented linguistic 
studies of the Tunica language. More support and sustained work is 
needed to grow the base of speakers.
    For more than a century, the Tunica-Biloxi Tribe of Louisiana has 
witnessed its traditional language and culture slip deeper into distant 
slumber. Tunica language revitalization is the crucial link to 
preserving Tunica-Biloxi culture. Dr. Wesley Leonard describes the 
Miami Tribe's language reclamation efforts as a way to achieve a level 
of ``cultural fluency,'' in which ``proficiency in the language may 
ensue but in which proficiency is not the immediate target.'' In the 
same manner, continued use of the Tunica language would be a natural 
way to preserve cultural knowledge and a way of expressing it through 
the language.
    Project success relies on programming that promotes Tunica language 
proficiency and usage through ongoing weekly language classes, cultural 
life-ways workshops, language camps, and outreach events. More 
development of linguistic texts, manuals, curricula, and pedagogical 
materials is needed to support and sustain language training. 
Development and maintenance of a language web site, along with online 
games and mobile apps will help reinforce learning and retain 
participants.
    In her 1978 essay, linguist Mary Haas observed that the''Tunica, as 
their numbers dwindled, found it increasingly difficult to keep up the 
use of their language. Instead of adapting it to the needs of modern 
times (by borrowing if necessary), they simply adopted French. The 
Tunica people needed to speak French and English to handle their 
business in the local non-Indian community of post-18th century 
Louisiana.'' Haas noted that Sesostrie Youchigant, her Tunica informant 
from 1933-39, ``had the additional burden of attempting to recall a 
language he had not spoken for twenty years.'' Prior to his mother's 
death in 1915, he preferred to speak French to her although she always 
spoke Tunica to him.''
    The decline in the Tunica language coincided with the decrease in 
tribal population from the late 19th into the early 20th century. Haas 
stated that the decline in the language started two to three 
generations before her work with Youchigant in 1933. Noted 
anthropologist, John R. Swanton estimated a population of 50 Tunica in 
the Marksville community around 1908 that still spoke Tunica fluently. 
Beginning in the 1920's individuals and families began to leave the 
Marksville area in search of work. Half, possibly more, of the village 
left since the total village population in 1933 and 1938 was estimated 
at around 30.
    Tunica history and culture cannot be accurately reflected if the 
language is no longer spoken. Durk Gorter, writing on linguistic 
diversity, stated ``when a language dies so does a medium through which 
a culture is transmitted.'' Commenting on loss of a language by a group 
of people, French linguist Claude Hagege says, ``What we lose is 
essentially an enormous cultural heritage, the way of expressing the 
relationship with nature, with the world, between themselves in the 
framework of their families, their kin people. It's also the way they 
express their humor, their love, their life.'' Youchigant, the last 
known fluent speaker of the Tunica language, passed away in 1948 and 
took with him what few Tunica-Biloxi recall of their ancestors' 
intonations. Fortunately, Haas recorded Youchigant on wax cylinders 
which are archived in the Survey of California and Other Indian 
Languages at University of California, Berkeley.
    The Ethnologue, an organization that compiles a global database of 
languages, categorizes the Tunica language at 9 (dormant) on EGIDS or 
its ``Language Cloud'' scale. This rating denotes a dying language 
where generally the only fluent users are older than child-bearing age, 
so it is too late to restore natural integration transmission through 
the home. The Ethnologue suggests that a mechanism outside the home 
would need to be developed. Ethnologue editor Paul Lewis argues that if 
people begin to think of their language as useless, they see their 
identity as such as well, which leads to social disruption, depression, 
suicide, and drug use. And as parents no longer transmit language to 
their children, the connection between children and grandparents is 
broken and traditional values are lost. In February 2017, Ethnologue 
changed the designation of the Tunica language from dormant to 
``Reawakening.''
    Today, the Tunica-Biloxi community has shown negative social trends 
among its youth (age 6-17) population in the service area with 
disproportionately high truancy and dropout rates. The Tribal 
unemployment rate exceeds 7.2 percent which is higher than the state 
rate of 6.3 percent according to the U. S. Department of Labor 
Statistics. In years 2012-13 the graduation rate was 67 percent in 
Rapides Parish and 68.5 percent in Avoyelles Parish where the Tunica-
Biloxi reservation is located. As a result, the dropout rate for 
Tunica-Biloxi students exceeds 33 percent. The Avoyelles Parish 
absentee rate was 8.9 percent or 22.5 percent higher than the state 
average at 6.9 percent. Truancy in Avoyelles is 37.5 percent or 35.7 
percent higher than the state. In addition, over 12 percent of Tunica-
Biloxi students face disciplinary actions such as in-school and out-of-
school suspensions. The 2013 American Indian Population and Labor Force 
Report stated that 24.7 percent of family incomes in Louisiana are 
below the poverty level.
    In 2010, Tunica-Biloxi Councilmember Brenda Lintinger approached 
Dr. Judith Maxwell of the Tulane University linguistics department for 
help with the Tunica language project. Dr. Maxwell assembled a team of 
linguists including Raina Heaton, Mary Kate Kelly, Patricia Anderson, 
and Craig Alcantara. Tunica language instructors, Donna Pierite and 
Elisabeth Mora, have participated actively in the project work group 
contributing knowledge of their family's oral tradition in language and 
cultural heritage.
    Working with documents left by non-Tunica researchers, the 
collaboration has produced an orthographic system, Tunica language 
classes and lessons, children's books (with Tunica narration on audio 
CDs), Tunica songs and stories, a textbook with accompanying workbook, 
and an annual Tunica language summer camp. Tulane researchers gathered 
Tunica materials from extensive work done by John R. Swanton, Albert S. 
Gatschet and Mary Haas between 1886 and 1953. The group mostly works 
with materials from Haas, who worked with Youchigant from 1933-39 and 
with very thorough documentation published a grammar in 1941 followed 
by a book of Tunica stories (Tunica Texts) in 1950 and a Tunica-English 
dictionary in 1953, as well as Gatschet and Swanton. With these and 
other basic materials, the Tulane team reconstructed the phonological 
and syntactic structure of the language and is in the process of 
preparing introductory language materials. The group is updating the 
Haas' Tunica grammar, Haas' Tunica Dictionary, and other source 
materials making more accessible in the development of curricula 
content for training. In an initial project, Tulane transliterated and 
reconfigured texts from Haas' published narratives related by Sesostrie 
Youchigant, the last known fluent speaker of Tunica. The first volume 
of stories adapted for children was illustrated by a tribal artist and 
published in May 2011. This work has laid a foundation for classes, 
workshops and summer language camps since 2012. The most recent 
language camp, held in June 2015, hosted 43 tribal children.
    The Language & Culture Revitalization Program (LCRP) was created by 
the Tunica-Biloxi Council in 2014 to establish a structural support for 
language and culture education, as well as a noticeable presence of the 
language on the reservation and throughout the extended community. LCRP 
currently has four full-time staff members: two Language & Cultural 
Lifeways Instructors, a Program Assistant and a Director of Development 
& Programing. LCRP coordinates programs at the Tunica-Biloxi Cultural & 
Educational Resource Center (CERC), a 40,000 square-foot building that 
houses a museum exhibit hall, conservation and restoration laboratory, 
gift shop, library, auditorium, classrooms, distance learning center, 
meeting rooms and tribal government offices on the reservation. 
Programs include weekly language classes, live and recorded WebEx 
sessions, summer language camps, early literacy story time events, and 
cultural workshops.
    The ongoing work of LCRP is producing an enduring repository of 
training materials that will be more accessible and available to tribal 
members. These materials will support training through classes, 
workshops, cultural events, or informal learning groups. Although 
quantity and quality of coordinated training offerings are impacted by 
funding levels, the tribal government, tribal members, and cultural 
traditionalists in the community will continue to support language 
preservation. As Tunica language learners progress in becoming 
proficient and fluent in their native tongue, new generations of Tunica 
teachers will be born. As the language is re-awakened, it will again be 
a more visible and audible part of Tunica-Biloxi cultural identity.
    Hita (take care)
                                 ______
                                 
             Prepared Statement of Lisa Maria Dewitt-Narino
    Honorable Chairman Hoeven,
    I have been learning the Tlingit Language off and on in my life, 
but only recently felt that my fear in sharing what I know is not 
enough to stay dormant in promoting indigenous languages. The call to 
revitalize our mother tongues of Alaska is a mission that needs any and 
all support.
    There are many told and untold calamitous stories of how our 
indigenous languages came to the brink of extinction. Each language has 
their own story, their own hurt, their own silence, and more 
importantly their own power. Ketchikan is a familiar ear to all three 
of these languages Ling!t, Xaad K!l, and Sm'algyax. Ketchikan continues 
to make efforts in restoring our language use--such as Ketchikan High 
School offering Xaad K!l classes, brown bag lunch sessions for our 
adults, evening classes for families, distance classes, use of language 
in dance groups, etc. What we are doing is great and sparks hope for 
indigenous language use, but it is not enough.
    Please remember, Alaska's indigenous languages is much more than a 
practical tool-each one has a home land, has a culture, has a people, 
and has history. Our culture and our language depend on one another. It 
gives us a strong connection to our ancestors and their way of thinking 
and looking at the world. Tlingit for example, you hear `gunalcheesh', 
most know this to mean `thank you'. However, in Tlingit the breakdown 
of that word can mean, ``Without you it would not be possible''.
                                 ______
                                 
  Prepared Statement of Hon. Russell Begaye, President, Navajo Nation
    Dear Chairman Hoeven and Vice Chairman Udall,
    Thank you for the opportunity to share the Navajo Nation's support 
for the reauthorization of the Esther Martinez Native American 
Languages Preservation Act (S. 254) sponsored by Vice Chairman Udall. 
As President of the Navajo Nation, I represent over 350,00 enrolled 
members. of which nearly 180.000 of our citizens live within the 
boundaries of the Nation. With such a large number of enrolled members, 
our children's education is a priority to promote lifelong learning. to 
ensure they are successful and that we retain our Navajo culture and 
language.
    Navajo culture and language preservation is a top priority for the 
Navajo Nation because Dine Bizaad (Navajo language) retains our 
heritage legacy and individuality as Native people. As you are aware. 
our language has also played a vital historical role for the United 
States during World War Il when the Navajo Code Talkers were utilized 
to communicate with an unbreakable wartime code helping the Allied 
Forces to win the war.
    Today, nearly 68 percent of our Navajo citizens speak Dine Bizaad 
(Navajo language), which has drastically decreased from 80 percent in 
1980. Language preservation funding like Ester Martinez has provided 
resources for programs across Indian Country to help our youth learn 
their Native languages to preserve our rich traditions and unique 
ClLiture. On Navajo Nation. the Window Rock Unified School District in 
northeastern Arizona and the Central Consolidated School District in 
northwestern New Mexico. operate exemplary Navajo language emersion 
schools: Tseehootsooi Dine Bi'olta' and Eva B. Stokely Elementary.
    These language emersion public schools and programs provide 
cultural environments that give Navajo students the opportunity to 
compete in Navajo spelling bees. science fairs. pow wow dancing, 
singing, weaving, and traditional teachings. With Navajo language and 
culture as the backbone of the learning environment, results show that 
these students are scoring above their non-immersion peers on 
standardized tests.
    For these reasons. we strongly advocate that the Esther Martinez 
Native American Languages Preservation Act be reauthorized at the 
proposed $13 million levels for each fiscal years 2019 through 2023 to 
continue to provide funding for Native language preservation and 
immersion programs for the benefit of our children's educational 
development and success.
    Thank you for your time and consideration.
                                 ______
                                 
Prepared Statement of Margaret Speas, Professor Emerita of Linguistics, 
                  University of Massachusetts, Amherst
    When I began working with Navajo language scholars and activists in 
the mid 1980s, the extent of language attrition was just beginning to 
be measured, but it was clear that very few children were learning the 
Navajo language at home. This fact, which was part of the cumulative 
damage done to Navajo families by years of educational policy intended 
to wipe out their language, led me to be quite pessimistic about the 
likelihood of maintaining and revitalizing the language. However, due 
to the efforts of committed Navajo educators, families and scholars, 
impressive progress has been made, and in particular we can see what 
sorts of programs do the most to benefit Native American communities.
    Research done since the passage of the Native American Languages 
Act of 1990 converges on two important conclusions:

        1. Being bilingual gives a child a distinct cognitive advantage 
        over monolingual children, in nearly every area of cognition 
        for which studies have been conducted.

         While in Europe, India and China, over half of the population 
        knows more than one language, 75 percent of Americans are 
        monolingual. Bilingual children have been found to score better 
        on tests of cognitive skills such as attention, task switching 
        and complexity processing.

        2. Native American children who are educated in Native Language 
        immersion schools perform better on standardized tests 
        (including English language arts tests) and have significantly 
        higher graduation rates than Native American children who 
        attend English-only schools.

    http://www.res.org.uk/details/mediabrief/10503980/BILINGUAL-
CHILDREN-DO-BETTER-IN-TESTS-US-evidence-that-speaking-two-languages-
in.html

    Marian, V. and A. Shook. 2012. 'The Cognitive Benefits of Being 
Bilingual'. Cerebrum. Sept/Oct. 2012.

    Blom, E. T. Boerma, E. Bosma, L. Comips and E. Everaert. 2017. 
'Cognitive Advantages of Bilingual Children in Different 
Sociolinguistic Contexts.' Frontiers in Psychology. 8:552.

    https://www.npr.org/sections/ed/2016/11/29/497943749/6-potential-
brain-benefits-of-bilingual-education

    Pearson, B. Z. 2008. Raising a Bilingual Child. New York: Random 
House.

    Bialystok, E. 2007. 'Cognitive Effects of Bilingualism: How 
Linguistic Experience Leads to Cognitive Change.' The International 
Journal of Bilingual Education and Bilingualism Vol. 10, No. 3.

    Klug, Kelsey. 2012. 'Native American Language Act: Twenty years 
later, has it made a difference?' Cultural Survival
                                 ______
                                 
 Prepared Statement of the American Council on the Teaching of Foreign 
                           Languages (ACTFL)
I. Introduction
    Chairman Hoeven, Ranking Member Udall, and Members of the 
Committee,
    The American Council on the Teaching of Foreign Languages (ACTFL) 
is pleased to provide testimony regarding the critical importance of 
revitalizing the use of Native American languages for instruction and 
promoting other means for increasing the number of speakers and users 
of these languages.
    Over the years, ACTFL has committed to this effort by completing a 
number of projects in Indian Country in support of the rejuvenation of 
Native American languages through workshops and curriculum projects. 
The emphasis of these initiatives has been on building capacity among 
instructors, administrators, and tribal education agencies around:

  <bullet> Using and understanding ACTFL Proficiency Levels (Novice, 
        Intermediate, Advanced);

  <bullet> Facilitating instructors' self-assessment of their own level 
        of proficiency in Interpersonal, Interpretive, and 
        Presentational Communication;

  <bullet> Designing language learning experiences to guide learners to 
        higher levels of proficiency;

  <bullet> Implementing effective strategies and immersion techniques 
        for language learning; and

  <bullet> Integrating growth in the language into the existing 
        culture-focused topics and content of language curricula, 
        including assisting in finding ways to measure proficiency 
        levels in the languages.

    To this last point, we have conducted Oral Proficiency Workshops 
for two Mohawk Tribes (Canada and New York), the Cherokee Nation, the 
Squamish Nation, and the Seneca Tribe. This past spring, we also worked 
in a gratis capacity with the Eastern Shawnee Tribe of Oklahoma as part 
of their language preservation efforts to help them write a grant 
establishing an online language course and language teacher training 
program.
    Since 2013, ACTFL has provided professional development and 
technical assistance to:

  <bullet> Alaska Native Heritage Center (Anchorage): 2013 workshop on 
        developing and assessing language performance

  <bullet> The Aleut Foundation: 2014 consultation with Saint Paul 
        Island language programs on developing proficiency with 
        effective instructional strategies

  <bullet> Eastern Shawnee: 2016 workshops on developing language 
        proficiency to higher levels in learners and instructors

  <bullet> Myamia Language Project (Miami University of Ohio): 2016 
        workshops on proficiency, unit design, and curriculum planning

  <bullet> Native Hawaiian Programs (independent schools in Honolulu): 
        2017--18 assistance on curriculum planning and unit design for 
        programs teaching Hawaiian language

  <bullet> The Six Nations School (Six Nations of the Grand River First 
        Nation reserve in Ontario, Canada): several workshops, book 
        studies, consultation, and review on curriculum/units

II. Recent National Actions To Support Language Education and U.S. 
        Capacity
    Two important developments in the past 18 months have helped to 
build awareness and capacity for language learning in the United 
States, including the learning and preservation of Native American 
languages.
    In December of 2014, a bipartisan group comprising members from 
both chambers of Congress, Senate and House of Representatives, wrote a 
letter to the American Academy of Arts and Sciences (AAAS) requesting 
that a study be conducted to answer the following questions:

  <bullet> How does language learning influence economic growth, 
        cultural diplomacy, the productivity of future generations and 
        the fulfillment of all Americans?

  <bullet> What actions should the nation take to ensure excellence in 
        all languages as well as international education and research, 
        including how we may more effectively use current resources to 
        advance language learning?

    AAAS formed a language commission made up of representatives from 
the AAAS membership as well as stakeholders representing national 
security, scholarly research, business, and the language education 
field. This Commission on Language Learning met during 2015--16 to 
gather data, collect testimony, and discuss opportunities for improving 
the U.S. capacity in non-English languages.
    The resulting study, entitled America's Languages: Investing in 
Language Education for the 21st Century, sets forth a national strategy 
to improve access to as many languages as possible for individuals from 
every region, ethnicity, and socioeconomic background. By placing value 
on language education as a persistent national need, similar to 
education in math or English, the report makes the case that a useful 
level of proficiency should be within every student's reach.
    As part of this study, the Commission was also tasked with 
identifying factors that can led specifically to the revitalization and 
development of Native American languages. According to America's 
Languages, ``Native American languages are distinct in political status 
and history, and are the object of school- and community-based 
reclamation and retention efforts aligned with the Native American 
Languages Act (NALA) of 1990.'' \1\
---------------------------------------------------------------------------
    \1\ American Academy of Arts & Sciences, Commission on Language 
Learning, "America's Languages: Investing in Language Education for the 
21st Century," 2017, https://www.amacad.org/multimedia/pdfs/
publications/researchpapersmonographs/language/Commission-on-Language-
Learning_Americas-Languages.pdf.
---------------------------------------------------------------------------
    The report also indicates that over the past 20 years, researchers 
have:

         ``discovered that instruction in indigenous languages yields a 
        variety of benefits for Native American children. It has been 
        linked to improvements in academic achievement, retention 
        rates, and school attendance; local and national achievement 
        test scores; well-being, self-esteem, and self-efficacy; and 
        resiliency to addiction and the prevention of risky 
        behaviors.'' \2\
---------------------------------------------------------------------------
    \2\ Ibid.

    The report proposes five key recommendations for improving the 
state of U.S. language education as well as features examples of model 
language programs and profiles of people who have advanced their 
careers because of their communicative abilities in more than one 
language.
    The five recommendations in America's Languages include:

        1.  Increasing the number of language teachers at all levels of 
        education so that every child in every state has the 
        opportunity to learn a language in addition to English.

         Currently, 43 U.S. states plus the District of Columbia face 
        language teacher shortages. \3\ This is a critical issue for 
        the future of our field and has prompted ACTFL to begin 
        developing a program that encourages high school students to 
        consider entering the language teaching profession. In this 
        category, we also face the challenge created by individual 
        states employing different methods of teacher credentialing; in 
        turn, we plan to work with states to increase the number among 
        them offering reciprocity in teacher certificates. We also plan 
        to encourage maximizing the use of technology to deliver 
        language programs-not as a replacement for teachers but as a 
        means for enhancing student opportunities by implementing 
        hybrid programs.
---------------------------------------------------------------------------
    \3\ U.S. Department of Education, ``Teacher Shortage Areas, 
Nationwide Listing, 1990-1991 through 2017-2018,'' May 2017, https://
www2.ed.gov/about/offices/list/ope/pol/
teacheshortageareasreport2017.pdf.

        2.  Supplementing language instruction across the education 
        system through public-private partnerships among schools, 
        government, philanthropies, business, and local community 
---------------------------------------------------------------------------
        members.

         When Congress made the initial request, it was not with the 
        intent that the report make large financial demands of the 
        government, therefore this recommendation was made to encourage 
        innovative use of community resources to leverage support for 
        language programs in our schools and universities. We need to 
        involve business leaders to invest in creating a multilingual 
        citizenry and those efforts begin in local communities.

        3.  Supporting heritage languages already spoken in the United 
        States and helping to ensure that these languages persist from 
        one generation to the next.

         We know from U.S. Census Bureau data that heritage speakers 
        who come to the United States generally lose their native 
        language abilities almost completely by the third generation. 
        Our country needs to view these heritage languages as an asset 
        to building our nation's language capacity and to offer courses 
        for these students to continue to build their native language 
        competence. An important element of this recommendation is also 
        to build awareness among our heritage speakers that being fully 
        proficient in two languages is an asset to their career 
        advancement.

        4.  Providing targeted support and programming for Native 
        American languages as defined in the Native American Languages 
        Act.

         As mentioned above, while there has been legislation and some 
        funding to provide for the reclamation of Native American 
        languages, the persistent danger of losing these languages 
        remains. This report calls for supporting the use of Native 
        American languages as the medium for instruction as seen in 
        programs such as dual language immersion. It also calls for 
        expanding the study of these languages beyond the tribal school 
        areas and into other schools as well.

        5.  Promoting opportunities for students to learn languages in 
        other countries by experiencing other cultures and immersing 
        themselves in multilingual environments.

         A very small percentage of U.S. students participate in study 
        abroad programs. In addition to increasing awareness, we need 
        to significantly improve the opportunities for international 
        experiences offered to students. Too frequently student loan 
        recipients are prohibited from studying abroad because they are 
        required to pursue employment during the summer and other 
        academic breaks. We need to remove the barriers that students 
        encounter in pursuing study abroad opportunities as well as 
        international internships, where they can increase their job 
        skills and their language skills simultaneously.

    Immediately on the heels of the release of America's Languages, 
ACTFL launched a national campaign, Lead with Languages, to build 
public awareness--particularly among parents and students, as well as 
among heritage speakers and their families--about the important 
benefits of learning another language. \4\
---------------------------------------------------------------------------
    \4\ ACTFL, Lead with Languages, LeadWithLanguages.org, (accessed 
August 22, 2018).
---------------------------------------------------------------------------
    With approximately 20 percent of U.S. K-12 students and 7.5 percent 
of university students enrolled in language courses, we have a long way 
to go. We are hoping that this campaign, along with the implementation 
of the recommendations of the AAAS report, will promote a movement in 
the United States to create a new generation of young people proficient 
in languages beyond just English.
III. Conclusion
    Our national capacity for languages in addition to English is 
important to the economic and diplomatic future of our country, as the 
AAAS report points out, but we also know how important it is for our 
students: Gaining the cognitive, academic, and social benefits of 
learning another language sets them on a path to personal and 
professional growth and success.
    ACTFL is proud to support efforts to revitalize, maintain, and 
develop Native American languages.
                                 ______
                                 
          Prepared Statement of the Haliwa-Saponi Indian Tribe
Introduction
    On behalf of the youth of the Haliwa-Saponi Indian Tribe, I 
respectfully submit the following written testimony in response to the 
Senate Committee on Indian Affairs Oversight Hearing titled ``Examining 
Efforts to Maintain and Revitalize Native Languages for Future 
Generations.'' The Haliwa-Saponi Indian Tribe is located in Hollister, 
North Carolina, and has over 4,000 enrolled citizens. One of the 
ancestral languages of the Haliwa-Saponi is Tutelo-Saponi, which we are 
currently working to awaken from its dormancy within our tribal 
community.
Current State
    Revitalizing Native languages should be one of the highest 
priorities we have in this country. In countless Native communities 
across the country, languages are in danger of being lost forever due 
to lack of youth involvement or interest, lack of programs, or lack of 
funding for programs and initiatives that will promote, document, and 
preserve Native languages.
    Under the work of Haliwa-Saponi scholar and Historic Legacy Project 
Coordinator, Dr. Marvin Richardson, Tribal Youth Services Coordinator 
Sharon Harris Berrun, and several other community members, the Haliwa-
Saponi community has seen the Tutelo-Saponi language come into use more 
and more over the years. As a result of the increased use of our 
language, there has been an enhanced sense of self-worth and pride in 
our community among those that are embracing language revitalization. 
There has been a renewed interest in other citizens of our tribal 
community as well. This has been a tremendous opportunity to strengthen 
community ties and has deepened our collective connection to who we are 
as Indigenous people.
Recommendations
    Tribal and community leaders of the Haliwa-Saponi Indian Tribe 
recognize that youth language learning is key to ensuring the 
continuation of our Native tongue. Consistently finding new and 
creative ways to engage and keep our youth involved is one tactic that 
will help preserve not just our language, but countless other languages 
that are subject to being lost. It is also critical that more resources 
be allocated to increase capacity and support around Native language 
preservation and teaching. The following list outlines brief 
recommendations for supporting tribes' language revitalization and 
preservation efforts.

        1.  Invest in diverse tribal programs and services that teach, 
        or at minimum incorporate Native languages throughout their 
        curricula.

        2.  Support initiatives that make it possible for Native 
        students to fulfill their public schools' language requirements 
        by studying their own indigenous languages, either in school or 
        in the community. School systems should work hand-in-hand with 
        tribes to establish and maintain mutually acceptable standards 
        of indigenous language proficiency.

        3.  Increase local tribal capacity for language preservation by 
        investing in scholars from the community who wish to learn and 
        teach Indigenous languages. This includes, but is not limited 
        to allocating funding for language teachers and researchers, as 
        well as the establishment of apprenticeships to ensure 
        intergenerational transference of language and cultural 
        knowledge.

        4.  Support the increase of broadband access in rural or remote 
        tribal communities so that language learning can be digitized, 
        made more accessible, and shared virtually to expand reach.

    Below are testimonies from Haliwa-Saponi youth who have taken 
initiative and demonstrated commitment to learning the language by 
taking advantage of one of more community programs that offer Tutelo 
language instruction.

    ``Learning my language means very much to me. It means carrying on 
the flame instead of letting it die out. I want to learn the language 
so that I can teach my children and hopefully, they will teach their 
children. I recognize the importance of continuing traditions, and I 
want to make sure that I do my part in ensuring that that happens.''--
Cheyenne Daniel

    ``Learning my language means everything to me, the language is what 
makes a tribe or nation stand out in society. It is so easy in this day 
and time to not care about it, because you don't hear a lot of people 
speaking it [in the Hollister community]. But, I believe that is going 
to change as time goes on because people like myself are realizing 
every day that the language is just as important as the dances, songs, 
and history of our people. As a result of this language revival that is 
happening in Native communities, you have people bringing the language 
back by incorporating it into our schools, different kinds of music, 
plays, and everyday situations. I hope it continues because now is the 
time, more than ever for us to re embrace our language and let the 
world know that we are still here and we will not be defeated.''--Jamie 
Silver

    ``I am so excited to be learning our language. It brings so much 
joy to my heart to see that our language is not dead, but being 
reawakened. If we do not do everything we can to continue learning, it 
will not be possible for the next generations to truly know who they 
are and exactly where they come from. I appreciate all of the hard work 
that is being put into revitalizing our language and I cannot express 
how grateful I am.'' Zianne Richardson, elected Haliwa-Saponi Tribal 
Princess 2018-2019.

Conclusion
    Thank you for your time and we hope that you all will consider the 
aforementioned recommendations and recognize the power that you all 
have in influencing the preservation and progression of Native 
languages across the United States and its territories. The Haliwa-
Saponi Indian Tribe looks forward to working with you to sustain these 
efforts.
                                 ______
                                 
             Prepared Statement of Nancy Barnes, Juneau, AK
    Nancy Barnes d' waayu, laxsheeg dpdegu. Tsimshian ada Alutiiq nu. 
Juneau dil wil dzogu. Wilaayu sm'algyax.
    My name is Nancy Barnes, I am of the Eagle moiety. I am Tsimshian 
and Alutiiq and a sm'algyax learner--the language of the Tsimshian. 
There are very few sm'algyax language learners today. When the Russians 
and Americans came to Alaska, my ancestors were whipped for speaking 
their indigenous languages. The next generation--my mother and father's 
generation--were not taught their languages because our grandparents 
did not want them to go through what they had to endure.
    I live in Juneau, Alaska. I am an active member of the Juneau 
Sm'algyax Learners Group, along with my 19 year old niece I have 
raised.
    We are indeed at a critical point for our Alaska indigenous 
languages, and all indigenous languages in the United States of 
America.
    We started a Tsimshian talking circle in Juneau in 2003. A group of 
us would gather at my home, using a talking dictionary and other 
materials by sm'algyax teacher Donna May Roberts and her late husband 
Tony Roberts. Donna May came to Juneau in 2002 and taught a week long 
TPR class--the total physical response method. This was the beginning 
of our language learning journey. That week-long session was the 
catalyst for many of us to go on this amazing journey. Not only do we 
learn our language, we also sing our Tsimshian songs.
    Donna May told us a story which her grandmother told her. She said:

        My grandmother said there is a word in sm'algyax called 
        magwa'ala. It means deep winter--the time when food is scarce 
        and it is difficult to get anything to survive. She cautioned 
        us that our languages are in a state of magwa'ala now. No 
        matter how much we prepare for this type of winter, it may not 
        be enough to survive. At the end, she came close to us and in a 
        whisper said, ``I challenge you. Our language is in a state of 
        magwa'ala now. What will you do?''

    We were so taken with her words, and sense of urgency.
    Today, a group of us practice language every Saturday. Sm'algyax 
teacher Terri Burr with 92 year old elder John Reece has been teaching 
us via google hangout.
    There are only six fluent speakers in Sm'algyax in Alaska. However, 
there are amazing efforts by the Haayk Foundation and others in 
Metlakatla; David A. Boxley, Terri Burr in Ketchikan, Marcella Asicksik 
in Anchorage, and Dr. Mique'l Dangeli and others in British Columbia.
    I respectfully urge our elected officials to work together with our 
indigenous organizations to initiate and strengthen, as appropriate, 
legislative and policy measures that prioritize the survival and 
continued use of Alaska Native languages. If any members of the 
Committee on Indian Affairs (or their staff) would like to watch our 
Saturday language learning gatherings, we'd be happy to arrange it via 
google hangout. Please feel free to email or call me if I can provide 
further information.
    T'oyaxsut Nuusum.
    Thank you.
                                 ______
                                 
     Prepared Statement of the National Council for Languages and 
                         International Studies
    The National Council for Languages and International Studies 
(NCLIS) is honored to submit this testimony for the written record to 
the United States Senate Committee on Indian Affairs, for the Oversight 
Hearing on ``Examining Efforts to Maintain and Revitalize Native 
Languages for Future Generations.'' Comprising more than 125 
professional associations, research institutes, and companies in 
languages, NCLIS provides this testimony in order to highlight the 
fundamental relationship between biliteracy and bilingualism at the 
individual level, on the one hand, and the cultural, linguistic, and 
human capital gained by communities when that biliteracy and 
bilingualism is fostered and encouraged. In the context of our Native 
American, Alaska Native, and Hawai'ian Languages, the Native American 
Languages Act of 1990 (P.L. 101-107), the Esther Martinez Native 
American Languages Preservation Act of 2006 (P.L. 109-384), and  6133 
of the Every Student Succeeds Act of 2015 (P.L. 114-95) represent 
initial and long overdue steps to reverse the deliberate erasure of the 
linguistic identity of more than 5.2 million Native Americans, Alaska 
Natives, and Hawai'ians.
    The Commission on Language Learning of the American Academy of Arts 
and Sciences, in responding to a bicameral and bipartisan request from 
the Congress, commissioned several white papers detailing the impact of 
languages on the national interest as of 2015. Of these, ``Language and 
Productivity for All Americans'' summarizes more than 25 years of 
research on the impact of bilingualism and biliteracy for the 
individual. Drawing on research in cognitive sciences, neuroscience, 
psychology, labor economics, education, and other fields, the authors 
make clear that the bilingual individual in America enjoys lifelong 
cognitive, educational, and employment benefits, regardless of the 
language.
    For the community, developing this at the individual level requires 
resources beyond simple willpower and persistence. While communities 
across the country, from Hilo to Bethel, Alaska to Santa Clarita, New 
Mexico, to Mashpee, Massachusetts, and many more, have taken the fate 
of their languages into their own hands, the resources available 
relative to task of revitalization are meager. Moreover, the Every 
Student Succeeds Act reinforces artificial barriers to the transmission 
and growth of Native American, Alaska Native, and Hawai'ian Languages, 
in particular with respect to requirements for standardized testing and 
teacher qualification, which are inappropriate for these languages.
    The Congress should reauthorize the Esther Martinez Act, and should 
fund it fully; additional investments need to occur in Title VI of ESSA 
and in the Native American Languages Act. Finally, Congress must 
address the inherent conflict between Title I of ESSA and the Native 
American Languages Act, to allow standardized assessments in the 
languages of Native American, Alaska Native, and Hawai'ian schools.
    Sources:
    Kroll, J., and Dussiais, P. 2015. ``Language and Productivity for 
All Americans.'' Cambridge, MA: American Academy of Arts and Sciences, 
https://www.amacad.org/multimedia/pdfs/KrollDussias_April%205.pdf, last 
accessed.
                                 ______
                                 
  Prepared Statement of Dr. Jolene Bowman, President, National Indian 
                      Education Association (NIEA)
    Dear Chairman Hoeven:
    On behalf of the National Indian Education Association (NIEA), I 
respectfully submit the following written comments in response to the 
Senate Committee on Indian Affairs' oversight hearing titled 
``Examining Efforts to Maintain and Revitalize Native Languages for 
Future Generations.'' NIEA is the nation's largest and most inclusive 
organization advocating for comprehensive culture-based educational 
opportunities for American Indians, Alaska Natives, and Native 
Hawaiians.
Federal Trust Responsibility
    Congress has a federal trust responsibility for the education of 
Native students. Established through treaties, federal law, and U.S. 
Supreme Court decisions, the federal government's trust responsibility 
to tribes includes the obligation to provide parity in access and equal 
resources to all American Indian and Alaska Native students, regardless 
of where they attend school. Resources and funding to preserve and 
revitalize Native languages are a critical part of the federal trust 
responsibility, an obligation shared between the Congress and the 
Administration for federally-recognized tribes.
Native Languages And Culture-Based Education
    Native languages are at the heart of Native identity, interwoven 
into ceremony, tradition, and history of tribes and Native communities. 
When Native languages are integrated into and celebrated in the 
classroom, Native students are more likely to be engaged and succeed. 
Language preservation and revitalization programs are critical to 
ensuring that Native students have equitable access to culturally 
relevant educational opportunities.
    According to the United Nations Educational, Scientific, and 
Cultural Organization, 74 Native languages are on track to disappear 
within the next decade, and only 20 Native languages will be spoken by 
2050 without immediate action. Tribes and Native communities are 
innovating to develop unique schools that pass Native languages to 
future generations through a rigorous academic program. However, 
resources and funding for such programs remain a challenge for many 
communities. Congress should strengthen and expand resources to support 
Native language revitalization, maintenance, and preservation to ensure 
equity in education for Native students.
Recommendations
    Native languages and culturally responsive education are critical 
to student achievement and success in Native communities. NIEA submits 
the following recommendations to strengthen and expand federal 
resources and funding that support the preservation and revitalization 
of Native languages across the country.

  <bullet> Reauthorize the Esther Martinez Native American Language 
        Preservation Act--Passed in the Senate as S. 254, the Esther 
        Martinez Native American Preservation Act reauthorizes 2006 
        legislation that funds language immersion and restoration 
        programs for American Indian, Alaska Native, and Native 
        Hawaiian students. Funding provided under this Act has 
        supported the development of tribal curricula, language 
        assessments, and immersion programs to support and revive 
        Native languages in schools across the country. Though this 
        legislation passed the Senate on November 29, 2017, a House 
        companion bill has remained in the House Committee on Education 
        and the Workforce since February with little movement. NIEA 
        recommends that congressional leaders work to pass this 
        critical legislation before the November 6 elections.

  <bullet> Support Assessments in the Native Language of Instruction--
        Assessments are critical to understanding students' learning, 
        growth and achievement. However, state and federal agencies 
        have struggled to construct testing mechanisms that 
        appropriately assess students in the Native language of 
        instruction due to the number of unique Native languages and 
        lack of technical expertise in state and federal agencies and 
        outside of tribal communities. Tribes must have the flexibility 
        to assess student learning and growth and ensure that Native 
        students have access to excellent education opportunities. 
        Consistent with the federal trust responsibility, deference on 
        Native language assessments should be provided to tribes that 
        operate Native immersion schools across the country.

  <bullet> Expand Pathways for Native Language Teacher Recruitment and 
        Retention, including Native Teacher Preparation Programs--
        Despite tribal innovation and development, schools and 
        immersion programs continue to face an ongoing shortage of 
        culturally responsive educators that are fluent in Native 
        languages. Federal support to address teacher shortages in 
        Native communities through legislation such as the Native 
        Educator Support and Training Act (S. 458) is critical to 
        ensuring that Native students have access to highly-qualified 
        teachers. However, immersion schools and programs require 
        educators with specialized knowledge and fluency in Native 
        languages. Some tribal communities have addressed shortages by 
        creating teacher training and professional development programs 
        that recruit fluent language speakers or train educators to 
        speak Native languages. In order to revitalize Native 
        languages, tribes must be able to certify teachers to ensure 
        that Native students in immersion schools have access to 
        equitable opportunities.

  <bullet> Replicate and Expand Native Language Schools--Schools that 
        teach students through the medium of language immersion are 
        critical to revitalizing Native languages for future 
        generations. Through language immersion, Native students build 
        academic and cognitive skills for future success in a positive 
        learning environment where they can thrive. Due to limited 
        funding and resources, some tribes and Native communities lack 
        the resources to replicate and expand successful models for 
        language immersion and revitalization. Tribes and Native 
        communities must have access to the tools necessary to exercise 
        sovereignty in education through high-quality Native language 
        schools and programs.

  <bullet> Increase Appropriations for Native Language Preservation and 
        Revitalization--Tribes must have access to the resources and 
        funding necessary to exercise tribal sovereignty to support 
        Native language immersion schools and provide Native students 
        access to excellent culture-based education options. Federal 
        grants through the Administration for Native Americans (ANA) 
        and the Department of Education (Department), provide financial 
        support for tribes to support Native students through language 
        immersion. NIEA recommends that Congress increase 
        appropriations for Native language preservation programs at ANA 
        to $14 million and National Activities, including Native 
        language programs, at the Department to $10 million in FY 2019.

Conclusion
    Schools and programs that teach Native languages have the potential 
to ensure that Native students thrive. Tribes and tribal organizations 
must have access to the tools and resources to build and strengthen 
programs that revitalize Native languages for generations to come. NIEA 
looks forward to working with you to ensure equity in education for the 
only students that the Federal Government has a direct responsibility 
to educate--Native students.
    Thank you for considering these comments for the record.
                                 ______
                                 
   Prepared Statement of Norvin Richards, Massachusetts Institute of 
          Technology Department of Linguistics and Philosophy
    To whom it may concern:
    I have been involved in projects intended to help with maintenance 
and revival of indigenous languages of this country since 1999, when I 
began working with the Wampanoag people of eastern Massachusetts on 
their language revival program (a program which was started, and is 
still headed, by Jessie Littledoe Baird, who is scheduled to speak to 
you today). My department now has a Master's program intended 
specifically for members of indigenous communities who seek linguistic 
training that will be useful for them in working to ensure the survival 
of their languages.
    This kind of work represents our best hope, I think, of rescuing 
the languages of this country from a currently ongoing wave of mass 
linguistic extinction. Most of the world's languages are endangered; at 
least half of them are expected to die in this century. All of the 
indigenous languages of this country are among the endangered majority; 
very few of them, for example, are being learned by children in the 
home.
    Members of the communities affected by language endangerment can 
explain to you more eloquently than I can what the survival of their 
language means to them, and I hope you will have a chance today to hear 
them do so. One refrain I often hear, as I work with these communities, 
is that by making it possible for young people to study their ancestral 
languages in schools, we allow them to see their languages and 
cultures, not as outdated relics to be discussed briefly in the early 
chapters of history books, but as living traditions in which they can 
participate themselves, maintaining their vitality into the foreseeable 
future. For young Native Americans, who must grapple with the many 
social and political problems that their communities face, that's a 
very powerful message, sometimes a life-saving one.
                                 ______
                                 
  Prepared Statement of Paul V. Kroskrity, Professor of Anthropology; 
           Professor and Chair, American Indian Studies, UCLA
    I write to you as someone with a career long interest in the study, 
documentation and revitalization of Native American Languages. This 
academic year (2018-2019) will be my 40th year at UCLA where I have 
continuously researched, advised, and worked with students and Native 
American communities on issues of language documentation and 
revitalization. The actual beginning of my research with Native 
American Languages goes back another six years to when I was a graduate 
student in Anthropology at Indiana University and doing dissertation 
research on Tewa, as spoken on First Mesa of the Hopi Reservation, NE 
Arizona (aka Arizona Tewa, aka Village of Tewa). I am still working 
with that community 46 years later and developing a practical 
dictionary with them that will both preserve linguistic knowledge of 
the culture and the immediate environment but also provide a basis for 
Tewa language instruction. It is a fascinating community with great 
pride in its language. Like many Pueblo groups, the ancestors of the 
Tewa were living along the Rio Grande River at the time of Spanish 
invasion and colonization. They resisted Spanish oppression and 
participated in two Pueblo Revolts in 1680 and 1696. After the second 
Revolt, they left the area and moved, at the invitation of Hopis, to 
their lands in what is today Northern Arizona. Unlike nearly 100 other 
groups who also left their homelands in the wake of these revolts, the 
Tewa are the only one of these groups that continued to speak their 
heritage language--even under conditions that normally produce 
linguistic assimilation. My 1993 book, Language, History, and Identity, 
tells their story and helps us to understand how intertwined language 
and cultural identity are for this group and for just about all Native 
American groups. While the Village of Tewa has endured contact with 
Spanish and Hopi, contact with English has greatly undermined its use 
in Tewa homes where televisions broadcast only in English. No one in 
this community wants to remove English, they merely want to make sure 
that Tewa continues to have a place in community affairs, village and 
family life, and in connections to the pride of maintaining their 
heritage language.
    As a scholar and mentor to many students of language 
revitalization, I know that the statements about the importance of 
Native American languages that were included in the original Native 
American Languages Act of 1990. Maintaining languages is very important 
for cultural continuity, the mental health and well-being of Indian 
youth, and for enabling Native American students to develop a positive 
cultural identity. Researchers have proven this time and time again. 
Maintaining these heritage languages does not compete with English. All 
Tewa youth know they need English proficiency to navigate their social 
worlds. But only the Tewa language allows them to also fully 
participate in their own culture, too.
    In addition to long-term work with the Tewa over decades and also 
in addition to advising some 20 additional tribes about documentation 
and revitalization, I have also worked for a very long time with the 
Western Mono communities of North Fork and Auberry in Central 
California. This work has resulted in a practical dictionary of that 
language which my UCLA team along with more than 12 Mono people. The 
tribe now posts an on-line version of that dictionary for tribal 
members to use [http://northforkrancheria-nsn.gov/home/
showdocument?id=29]. In another collaborative project, I worked with 
elder Rosalie Bethel to produce a CD-ROM (Taitaduhaan: Western Mono 
Ways of Speaking) that contains story-telling performances and a prayer 
which displays how one of the last highly fluent speakers uses her 
language to convey culturally important narratives. Many Western Mono 
use these materials in adult-ed courses and in grammar school lesson 
plans designed to introduce aspects of the language but many more 
materials are needed. As my Mono co-author Rosalie Bethel would say, 
``We need the language to know who we are.''
    I hope you are aware that most Native American languages are not 
prospering. Partially in response to U.S. policies that were needlessly 
oppressive and provided little room for possible bilingual adaptations, 
language shift to English is more the rule than the exception. Like 
small languages throughout the world, experts like myself will 
justifiably predict that without additional sustained support more than 
50 percent of the existing languages will cease to be spoken at all. 
This would compound a disaster into a catastrophe since only half of 
the Native American Languages that were spoken in the 19th C. are alive 
today. These numbers help me make a case for the gravity of the current 
situation.
    But more important is the human cost of not maintaining, 
documenting, revitalizing. Native groups associate their language with 
healing, religion, spirituality, morality, proper world view, and 
cultural identity. Given the historical abuse of US policy, it would be 
more than fitting to provide as much funding and support as possible. 
Failure to do so will surely have an impact on future generations. For 
those of you who are not speakers of a threatened language, I ask you 
what would the world be like if no one spoke your language anymore. 
Also for those of you who make comparison to the linguistic situation 
of immigrant groups who lose their heritage languages to a national 
language, please remember that there is no other place that Native 
Americans can go to, like contemporary European, African, or Asian 
countries, where they can find a place where their language is still 
spoken. Native American languages are from here-they preexisted the 
U.S. and our policies should do much more than symbolically honor them 
and their continuing importance not just to their own communities but 
to us all. We are indeed all richer for these languages to be known and 
used.
                                 ______
                                 
   Prepared Statement of Paula Sam, Enrolled Member, Northern Paiute 
            (Gidutikad Band) of the Fort Bidwell Reservation
    My name is Paula Sam. I am submitting this testimony as an enrolled 
member of the Northern Paiute (Gidutikad Band) of the Fort Bidwell 
Reservation in Northern California.
    I grew up in Fort Bidwell as a child, as my mother was enrolled 
here. My father was also Paiute, enrolled with the Agai Panina Ticutta 
Paiute of Summit Lake Nevada.
    I grew up with the Northern Paiute language as a child, as my 
parents always spoke the language daily. So, I grew up understanding 
the Paiute Language. Although of different bands, the dialect was 
similar.
    When I turned 18 years old, I was sent away to Los Angeles on the 
relocation program. I left the reservation at that time and worked at 
various jobs since 1968 through 2011. I finally retired from my job 
after 25 years with Southern California Edison Utility Company, located 
in California.
    The drive to visit my mom was a long one, approximately 13 hours. 
So I did not get to see her too often.
    My major problem is that I still understand the Paiute language I 
grew up with, but I am unable to speak the language. At this time, I am 
68 years old. We have only two elders from our reservation that 
actually speak our Paiute language, one who is 83 years old and the 
other is 85 plus years. After they are no longer here, the language 
will probably be forgotten.
    This is my reason for writing this letter to encourage the Senate 
Committee on Indian Affairs to stress how important it is to preserve 
tribal languages. Please present this information and let them know of 
this huge dilemma.
    For me it was survival for me to leave the reservation at that 
time, I paid that cost as I lost a lot of culture, language, and 
history when making the decision to leave the reservation.
    Thank you for your attention on this important matter of 
revitalizing tribal languages.
                                 ______
                                 
   Prepared Statement of Raina Heaton, Ph.D,, Linguistics, Assistant 
   Professor of Native American Studies; Assistant Curator of Native 
   American Languages, Sam Noble Oklahoma Museum of Natural History, 
                         University of Oklahoma
    I am Dr. Raina Heaton, an Assistant Professor of Native American 
Studies at the University of Oklahoma, and the curator of the Native 
American Languages collection at the Sam Noble Oklahoma Museum of 
Natural History. I am a professional linguist who works with Native 
American communities to document, describe, and revitalize their 
languages.
    I am submitting testimony in support of providing funding and other 
resources to help strengthen Native American languages. Recent data 
from the Catalogue of Endangered Languages demonstrates that ALL of the 
indigenous languages of North America are endangered (i.e. none of them 
are ``safe''), and the proportion of critically and severely endangered 
languages in North America (102/207, or 49.3 percent) greatly exceeds 
the ratio world-wide (806/3411, or 23.6 percent). Mainly due to Indian 
removal policies, Oklahoma has the greatest concentration of indigenous 
languages still being spoken anywhere in the United States. Many of 
these languages have only a handful of speakers left, which led 
Oklahoma to be designated a ``hotspot'' for language endangerment on a 
global scale:https://www.swarthmore.edu/SocSci/langhotspots/hotspots/
SOK/index.html.
    Tribes are doing everything they can to record and pass on the 
knowledge of these elders before it is too late, but language 
revitalization is a long road (e.g. Maori language revitalization, 
often touted as a successful model, started ca. 1982 and continues to 
this day), and it takes continuous funding and support to build 
successful programs. While ANA grants and other such programs provide 
vital support for language revitalization, this type of short-term 
funding leaves tribes that are unable to self-fund these programs after 
they are started without anywhere to turn. Evidence shows that 
effective language revitalization programs can be quite costly: 
Cherokee Nation for example not only runs immersion schools, but also 
had to create teacher training certification programs to support those 
schools. Okura (2017) surveyed different language nests and found that 
on average they require at least $10,000 annually to run, and that is 
for a fairly small number of students per nest. The First Peoples' 
Cultural Council provides grants for Master-Apprentice pairs which are 
approximately $15,000 for every 300 hours of instruction. While this 
information is heartening in that $10,000 a year is not a huge amount 
of money, it is the security in having those funds available year after 
year that is necessary, and the lack of which is a leading cause of 
programs having to shut down.
    Support can also take the form of forums where language 
revitalization practitioners can get together and share strategies. 
Institutes and conferences do exist and are incredibly beneficial, but 
it would also be beneficial to make available small recurrent grants 
for local conferences and training (e.g. the Dhegiha language group 
that meets annually). This is something I have heard requested many 
times here in Oklahoma.
    Finally, as an archiving professional at a public institution, one 
of the main services we provide to tribes is digitization and 
preservation of their materials. It is abundantly clear that there are 
more recordings and materials that need to be digitized and preserved 
than we are able to handle (or that we are allowed to use state funds 
to process, if the tribes do not want to make those recordings publicly 
available), and most tribes do not have archives capable of this 
either. Please continue to support those tribal archive grants that 
exist, and consider strategic initiatives to digitize the materials in 
people's basements and attics before it is too late. Consider that 
tying preservation to access (e.g. as in the NEH Humanities Collections 
and Reference Resources solicitation) in this particular context of 
Native people who have had their intellectual property rights abused 
may well cause the disappearance of the resources we are trying to 
protect.
                                 ______
                                 
     Joint Prepared Statement of Douglas H. Whalen, Chair/Board of 
    Directors, Endangered Language Fund; Margaret P. Moss, Incoming 
   Director, First Nations House of Learning, University of British 
Columbia; and Daryl Baldwin, Director, Myaamia Center, Miami University 
                                 (Ohio)
    Dear Senators,
    We strongly support the maintenance and revitalization of Native 
languages in the United States. We would like to point out that such 
efforts have direct health benefits, as detailed in our published 
article (Whalen, D. H., Moss, M. P., & Baldwin, D. (2016). Healing 
through language: Positive physical health effects of indigenous 
language use [version 1; referees: awaiting peer review]. 
F1000Research, 5(852). doi:10.12688/f1000research.8656.1). The benefits 
are wide-ranging, including reduction in diabetes, suicide, and 
smoking, as well as improvements in general well-being and educational 
outcomes. Such improvements are essential for Native Americans, who 
have some of the worst health outcomes in the country, and language 
programs are an efficient way of improving those outcomes.
    Please support the maintenance and revitalization of Native 
languages by continuing current efforts and providing for increased 
support in the future.
                                 ______
                                 
  Prepared Statement of Terri Burr, Ahl'lidaaw Language Facilitator, 
                     Tsimshian Education Department
    I am Tsimshian from Alaska and work for Ketchikan Indian Community 
as a Tsimshian Language Facilitator. I have been learning and teaching 
our Shm'algyack language for nine years. Because our people suffer from 
historic trauma, it is extremely difficult to restore language use. Our 
people require time to manage feelings and values after two hundred 
years of interference from Anglo influence. The few fluent speaking 
Elders who are left are not professionally trained instructors. Our 
population is left to rediscover ways of learning that respect who we 
are as Native Americans. There is great value in all Native American 
languages. We are making measurable progress. This work has to be 
conducted carefully. It will take time to do it right. Please continue 
to support all revitalizations efforts nationwide. Do what you can to 
remove any competitive models in funding. In these final efforts, we 
should not have to compete against one another. All tribes need each 
other and need to be working together, not competing against each other 
for federal funding. Please ensure funding goes only to IRS's and not 
``for-profit'' businesses.
    Sha aam dza waan
    (May Everyone Speak well of your Name),
                                 ______
                                 
Prepared Statement of Sandra Kowalski, Director of Indigenous Programs, 
 Office of Rural, Community and Native Education, University of Alaska 
                               Fairbanks
    Chairman Hoeven, Vice Chairman Udall, and Honorable Members of the 
Committee thank you for the opportunity to provide written testimony 
following the hearing on ``Examining Efforts to Maintain and Revitalize 
Native Languages for Future Generations'' held on August 22, 2018. As I 
am certain you have been learning from recent testimony, there is a 
great deal of positive synergy in the work of revitalizing Indigenous 
languages. Recent developments in Alaska have been pivotal, and I would 
like to share those with you.
    I am the Director of Indigenous Programs at the Office of Rural, 
Community and Native Education at the University of Alaska Fairbanks. I 
am Inupiaq, and I learned my language in the 1980s through the Alaska 
Native Language Program at the University of Alaska Fairbanks. I became 
a teacher, and later a school administrator in Kotzebue and Fairbanks.
    My most important work during my career was language revitalization 
work done through my tribe, the Native Village of Kotzebue. I am one of 
a group of community members that started Nikaitchuat Ilisagviat, an 
Inupiaq language immersion school for preschool through early 
elementary in Qikiqtagruk (Kotzebue) in 1998. Next week, I travel to my 
home community to help celebrate the twentieth year for Nikaitchuat 
I?isagviat. People from across Alaska are expected to attend, including 
Lieutenant Governor Byron Mallott, as my home community celebrates 
twenty years of effort and commitment to our young children and 
community.
    Before I share about recent efforts, it is important to understand 
the vast challenges Alaska Native language revitalization efforts face. 
There are twenty distinct and formally recognized Alaska Native 
languages that are in various states of decline. Decades of colonialism 
and recent globalization have created chasms between older first 
language speakers and younger generations. Western societal pressures 
resulting from this colonialism and globalization continue to 
contribute to the low success rates of Alaska Native students in the K-
12 and university settings.
    Despite these challenges, however, Alaska is witnessing a 
renaissance. Alaskan Native individuals whose first language is English 
have, through immersion programs, master-apprentice partnerships, and 
some working individually, become proficient in their own Alaska Native 
language. These second language speakers' stories have inspired 
interest and demand for opportunities for other Alaska Natives to learn 
to speak their own language at home and throughout the community.
    There have also been several significant and broadly impacting 
milestones that support this resurgence. In January 2018, the Alaska 
Native Language Preservation & Advisory Council (ANLPAC) presented its 
biennial report to the Governor of Alaska, the Alaska State 
Legislature, and the people of Alaska. Key themes in this 2018 Report 
included self-determination of Alaska Native peoples shaping the future 
survival of their own languages and cultural justice in reclaiming 
their traditional and cultural forms of practice--themes that resonate 
with Alaskans throughout the state.
    The report also called for state-level, elected officials to 
declare a linguistic emergency for Alaska's Native languages. 
Indigenous languages in Alaska are predicted to become extinct or 
dormant by the end of this century without aggressive intervention.
    In March 2018, the Alaska Legislature passed a resolution based on 
recommendations from the 2018 ANLPAC Biennial Report. The resolution 
urged the Governor of Alaska to issue an administrative order 
recognizing a linguistic emergency. It also called for the legislature, 
state agencies and Alaska Native groups to work actively to ensure the 
survival and use of all twenty of Alaska's Indigenous languages.
    In response to the ANLPAC recommendations, the surge in public 
interest, and to support key efforts already underway throughout 
Alaska, the Office of Rural Community and Native Education at the 
University of Alaska Fairbanks hosted the Alaska Native Language 
Revitalization Institute (ANLRI) in May 2018. Approximately 150 
language learners and instructors, elders and first-language speakers 
attended. In hosting this institute, UAF partnered with faculty from Ha 
Haka `Ula O Ke'elikolani College of Hawaiian Language. Language 
revitalization experts William Pila Wilson, Keiki Kawai'ae'a, and Larry 
Kimura presented and collaborated with ten Indigenous language teams 
including Yup'ik, Inupiaq, Tlingit, Haida, Gwich'in, Dena'ina, Ahtna, 
Sugpiaq/Alutiiq, Deg Xinag, and Denaakk'e.
    Language teams at the ANLRI developed strategies and initiatives to 
further their own language's revitalization efforts, from dictionary 
development and documentation to planning for immersion schools for 
youth learning and master-apprenticeships to support adult learning. 
One realization of ANLRI participants was the need for an Indigenous 
teacher education and preparation program for Alaska Natives who return 
to teach everything from Kindergarten to AP Chemistry. A pathway is 
needed so that our Alaska Native communities have, for example, a 
biology teacher who speaks Yup'ik as she teaches about the local 
ecosystem and is able to ground scientific concepts in the local 
context. When communities own both the language and the education, 
Alaskan communities will thrive.
    The UAF Office of Rural, Community and Native Education oversees 
the College of Rural and Community Development which provides academic 
and vocational education across nearly two-thirds of the state of 
Alaska, including 160 Alaska Native and rural communities. The College 
of Rural and Community Development is a network of rural campuses and 
learning centers that are the critical link between the University of 
Alaska Fairbanks and the communities that UAF serves, providing place-
based education that prepares graduates to fill jobs within home 
communities. To this end, the UAF Office of Rural, Community and Native 
Education supports the development of teacher preparation pathways 
grounded in Indigenous language, knowledge, and values.
    UAF will begin to develop a teacher preparation program that 
provides teachers who are fluent in their own Alaska Native language 
and teach culturally relevant concepts, working with Alaska Native 
language and culture teaching experts, and partnering with the Ha Haka 
`Ula O Ke'elikolani College of Hawaiian Language. Additionally, in 
collaboration with the UAF School of Education, the UAF Alaska Native 
Language Program, and the Rural Alaska Honors Institute (a program 
within the College of Rural and Community Development) is developing a 
summer college preparation and learning opportunity for high school 
students interested in attending UAF to learn their Alaska Native 
language through while preparing to become a teacher.
    Any effort to have an impact across all twenty Alaskan Native 
languages must include an effort to support Alaska's diversity in 
Native languages and their unique needs. Support to build a 
comprehensive language revitalization center that pulls together elders 
and experts in the field, community language advocates, learners, and 
teachers would bolster and maintain the work being done across the 
state. As we learned this past May during the Alaska Native Language 
Revitalization Institute, partnerships such as the one we have with the 
Ha Haka `Ula O Ke'elikolani College of Hawaiian Language are key to 
this work. Partnerships for work across all tribes and communities 
would provide resources and leverage for language revitalization.
                                 ______
                                 
             Prepared Statement of William H. Wilson, Ph.D.
My Background
    My name is Dr. William H. Wilson. My Ph.D. is in Linguistics. I am 
the founding full professor of what is now the Hawai'i State Hawaiian 
Language College, Ka Haka `Ula O Ke`elikolani College of Hawaiian 
Language (KHUOK) located within the University of Hawai`i at Hilo (UH 
Hilo) on the most rural of the Hawaiian Islands, Hawai`i. Although we 
began over forty years ago with a small set of Hawaiian language 
classes in the Foreign Languages Department of UH Hilo, we have grown 
to become the sole college in the United States operated and 
administered primarily through a Native American language. Our array of 
undergraduate and graduate courses in and through Hawaiian is the most 
developed program in a Native American language in the United States. 
Besides undergraduate certificates and the baccalaureate degree taught 
through Hawaiian, we have a graduate level teaching certificate taught 
through Hawaiian, two masters, and the doctorate taught through 
Hawaiian. In addition we have outreach degree opportunities taught 
through English for speakers of other indigenous languages, including 
the doctorate.
    I am also a founding board member of the non-profit `Aha Punana 
Leo, Inc., the oldest Native American language nest organization in the 
United States. The `Aha Punana Leo has been the key factor in the 
revitalization of Hawaiian among children and the movement of Hawaiian 
language medium education into public and charter school education 
through to grade 12 and indeed the growth of university Hawaiian 
language classes to point of developing a full college operated and 
administered primarily through Hawaiian. The `Aha Punana Leo operates 
twelve language nests in the state of Hawai`i, provides distance 
education in Hawaiian and provides facilities for follow-up charter/
public school Hawaiian language medium sites. Our small group of 
founders began the organization in 1983.
    Closely associated with the above two responsibilities is my 
position as a founder of the preschool to grade 12 (P-12) total 
Hawaiian language medium demonstration laboratory school of KHUOK, 
called Ke Kula `O Nawahiokalani`opu`u (Nawahi). Nawahi is the largest 
Native American language medium/immersion school in the United States 
with 531 students enrolled and over 70 in Punana Leo early education 
programing colocated with them. Nawahi is recognized in Hawai`i state 
law as the laboratory school of KHUOK and demonstrates operation using 
different models of administration including charter, off-campus stream 
of a standard public school, satellite campuses in small communities, 
and public-private school partnering.
    In recent years I have become the Linguist advisor for the 
Coalition of Native American Language Schools (the Coalition), a mutual 
help-oriented confederation of schools and programs taught through a 
variety of Native American languages in seventeen states. The National 
Coalition is loosely organized with the basic requirement for 
participation the establishment of a program or school taught 
primarily, that is over 50 percent, and preferably totally, through a 
Native American language. The Coalition grew out of the large number of 
visitors to the Consortium of the `Aha Punana Leo, Nawahi, and KHUOK 
all located close together in Hilo.
    My wife, Dr. Kauanoe Kamana, and myself, both second language 
speakers of Hawaiian, raised our own two children speaking only 
Hawaiian in the home at a time when only elders born before 1920 spoke 
Hawaiian in our community. When our children were born in the early 
1980s, no other children in our community were being raised totally 
through Hawaiian. Our children became the core of the first tiny group 
of students in the Punana Leo O Hilo and then what eventually became 
Nawahi. Both graduated from Nawahi and enrolled in an English medium 
university program--one in Loyola Marymount University in Los Angeles 
and the other at the University of Hawai`i at Hilo. Both graduated and 
went on to successful careers and continue to use Hawaiian as the 
language of family communication with us and each other as well as with 
other Hawaiian speakers. They are part of a considerable number of 
Hawaiian speaking graduates moving the language forward.
    Although holding a degree in linguistics, I see myself as primarily 
a language teacher and language revitalization program developer. I 
have taught at all levels of Hawaiian language medium education, 
including the preschool, elementary, intermediate, high school, 
undergraduate, masters, teacher education, and doctoral levels. I have 
taught graduate students from American Indian, Alaska Native and 
Pacific Islander communities as well as Native Hawaiians.
Main Points Of This Testimony
    Given below are some key points relative to the benefits and needs 
of Native American language medium education. In the ESSA Act, Sec. 
6005 ``Report on Native American Language Medium Education'' Congress 
required that the US Department of Education prepare a detailed report 
on Native American language medium education. The report was to be 
completed within 18 months of passage of the Act and then sent to 
Congress. The deadline for this report is long overdue as ESSA was 
signed on December 10, 2015. I would be happy to contribute more 
detailed information to such a report and urge the Senate Indian 
Affairs Committee to assure that ESSA Sec. 6005 is carried out.
Positive Academic Outcomes
    Education delivered through the medium of indigenous languages as 
provided for under NALA produces academic outcomes superior to that of 
mainstream English medium education for Native students. Those positive 
academic outcomes are best seen in the high school graduation and 
college going rates of students who have attended schooling primarily 
through a Native American language. Reports of this sort of success can 
be found throughout the Native communities where this model of 
schooling has been established long enough to have students reach the 
age of high school graduation.
    The most positive results are being produced when the Native 
American language is used the most. Optimal programming and 
demonstrated best practice has all instruction through the indigenous 
language with English taught as a course. Ideally such best practice 
continues through to the end of high school. At present, however, 
Hawai`i is the sole state where Native American language medium 
education continues through high school with Nawahi being an example of 
a full preschool to grade 12 site. The highest grades reached elsewhere 
have been in intermediate school in a few states such as Alaska, 
Wisconsin and Oklahoma. Most programs are still confined to elementary 
school Support is needed nationally to assist in expansion into 
intermediate school and high school.
    The full preschool to grade 12 model used at Nawahi is based on the 
most successful models used for very small European languages such as 
Sami and Faroese. Using this model Nawahi has never had a drop out 
since its first class which graduated in 1999. Nawahi has had a college 
going rate immediately out of high school of 85 percent for a student 
body at over 95 percent Native Hawaiian ancestry and approximately 70 
percent eligible for free and reduced lunch. Crucially important for 
language revitalization, a full preschool to grade 12 program produces 
the highest levels of Native American language proficiency.
Positive English Outcomes
    International research has shown immersion to provide students with 
English outcomes equal to, or better than, those of peers in English 
medium schools upon high school graduation. Furthermore, speakers of 
small languages in a community learn the largest language used in the 
community through interaction with the larger community. With 
globalization and the spread of English through mass media, the 
Internet and travel, even education through small national languages 
such as Danish and Finish with English taught as a course produces 
English language results by high school graduation that allow 
enrollment in American universities on par with American students 
graduating from English medium high schools.
    Nawahi has demonstrated now for two decades that positive English 
results are produced when a Native American language is used as the 
sole language of education and indeed school operations through to 
grade 12. The home languages of Nawahi students include Hawaiian for 
approximately 33 percent and Hawai`i Creole English for the majority of 
the remaining students, but all Nawahi students have access to the 
media through standard English on a level much higher than that 
available to high performing English learners in Denmark and Finland. 
Similar and even higher access to standard English is typical of 
contemporary Native American communities.
    At Nawahi English is taught on a European model where it is first 
taught as a course in grade 5 and remains solely a course through to 
grade 12. By high school students use their skills in English to 
research papers for other subjects using that information to write 
papers in Hawaiian on social science, science, etc. Fears of mainstream 
educators that Nawahi students would not learn oral and written English 
have been proven unfounded. Indeed, a former Nawahi student works at 
Oxford University in England.
Effect Of High Multilingualism On Brain Development
    In recent years the positive effect of high bilingualism and 
biliteracy on cognitive development has become more widely known. It is 
extremely difficult to produce the level of bilingualism necessary to 
gain that cognitive advantage through standard second language 
programing in an English medium school. However, high use of the 
indigenous language as the medium of education as in the Native 
American language medium model used at Nawahi assures such high levels 
of bilingualism and the resulting cognitive advantages. Those cognitive 
advantages affect academic outcomes in a wide variety of academic 
fields and also make learning additional languages easier for students 
enrolled in schools taught primarily through a native American 
language. At Nawahi all lower elementary school students also study 
Latin, a language important in developing international scientific 
vocabulary, and all upper elementary and intermediate school students 
study Chinese, an important language for business in a globalized 
world.
    Placing the Native American language is the position of being the 
primary language of the school also affirms Native sovereignty and 
cultural continuation in the Native homeland accordance with NALA.
Social And Community Outcomes
    Native American language and cultural revitalization as produced in 
Native American language medium education is having highly beneficial 
impacts on what have been some of the most difficult problems in Native 
communities. Reductions in suicide rates, drug and alcohol dependencies 
and youth delinquency are occurring in Native communities in 
conjunction with the development of Native American language medium 
schools and programs. The reason for this is that theses schools 
demonstrate through their very use of Native American languages, values 
and cultural practices as primary in their operations that Native 
identity, are not only important, but can be the foundation upon which 
positive young lives can be built for the future. This lived message 
contrasts with historical practices where Native peoples, languages, 
values, and cultures where forcibly denigrated in boarding schools and 
other repressive actions.
    That Native American languages, cultures and values are inferior 
continues as an implicit message in mainstream education taught through 
a non-Native American language English, with teacher qualifications, 
materials and assessments that all emerge from a non-Native American 
context. Typically in such mainstream English medium education the 
majority of administrators and teachers are imported from elsewhere and 
not only lack a deep understanding of the traditional language and 
culture of the community, but even lack understanding of daily 
contemporary Native life in the community.
    By way of contrast, the most successful Native American language 
medium education programs are initiated, developed and largely lead by 
local Native community language revitalization non-profit organizations 
working in conjunction with local BIE, public, charter or private 
schools. Teachers are from the local community or affiliated 
communities with a related language and culture. This sort of structure 
used in Native American language medium education turns the historic 
mainstream messaging of Native identity as inferior upside down and 
demonstrates the value of Native American identity for contemporary 
life.
Developing Teachers For Native American Language Schooling
    Teachers are the most important resource for any school or program. 
For Native American language medium education this means teachers fully 
proficient and literate in the Native American language medium of 
education. Proficiency in the language of instruction is more important 
than a teaching certificate or a degree in a particular content area. 
Illustrative of this is the successes of home schooling, where a 
considerable number of mainstream community parents who have had a 
minimal background in different academic fields and no teaching 
certificate have prepared their children academically for enrolling in 
college. Those homeschooling parents, however, are quite proficient in 
spoken and written English used to homeschool their children with 
materials written in English.
    Sec. 104 (2) of NALA allows for exceptions to teacher certification 
requirements in cases of teachers who teach in Native American 
languages, as in Native American language medium education. However, 
this provision has not been widely applied for Native American language 
medium schools. The lack of teachers has hindered the establishment and 
growth of Native American language medium schools. Attention is needed 
at the federal Department of Education to Sec. 104 (2) to support 
Native American language medium education expansion to serve more 
Native American students.
    It is not uncommon for foreign language immersion programs in the 
United States to import from foreign countries teachers highly 
proficient and literate in the foreign language of instruction. This is 
not an option for Native American language medium schools. A number of 
Native American language schools began with teachers who were 
individuals born and raised in the school's Native American language 
during an earlier period when that language was widely spoken in the 
community. However, such individuals are no longer available in most 
communities and will become increasingly rare as time progresses. In 
order to assure teachers for Native American language medium schools 
there is a severe need for programs that produce high levels of 
proficiency among young adults aged 18 through 30.
    Such programs need to be taught through the language and explicitly 
point out areas of linguistic structural differences between English 
and the target Native American language. They also need to include the 
minimum number of hours recommended by the U.S. Foreign Service 
Institute to reach S-3 General Proficiency in a language significantly 
distinct from English. That minimum number of 1,100 hours and more for 
Native American languages with more challenging structures is more than 
the standard number of hours in a foreign language required for a 
foreign language B.A. The only way to reach that number of hours in a 
university or college setting is to use the target language as the 
medium of instruction not only for teaching the language and culture, 
but also for other subjects--that is extending the Native American 
Language Medium education into tertiary education. The number of hours 
needed to reach such proficiency can be reduced if a high school Native 
American medium education program provides matriculation into such a 
college level program. The only place where both of these options are 
occurring is at the Hawai`i state Hawaiian language college, KHUOK, in 
Hilo. KHUOK has been working with a number of colleges interested in 
replicating its model.
    While tribal colleges and universities are potential sites to 
replicate the KHUOK model, there are other possible models for reaching 
the recommended S-3 General Proficiency to become a Native American 
language medium teacher. The adult Mohawk immersion program developed 
by Brian Maracle and his team is producing exemplary results using a 
two year program that focuses solely on developing Mohawk language 
proficiency. The program is very carefully designed using insights from 
the linguistic analysis of Mohawk and is producing young adults who can 
teach in Mohawk language medium schools and also raise their own 
children as first language Mohawk speakers.
    Another model being developed is the training of adult teachers 
along with the development of a Native American language medium school. 
That is young adults aspiring to become teachers and staff work with 
elders in the classroom in operating classes using the language in that 
environment while being given formal lessons in the linguistic 
structure of the language by experts within the organization operating 
the school. This model requires on-site expertise in both the 
linguistic structure of the language and actual high proficiency in the 
language. Typically those teaching the after hours classes are 
extraordinary young adults who pursued the language both through formal 
linguistic analysis and extensive time with the remaining fluent elder 
speakers. Such individuals need to be cultivated for the various 
languages for which Native American language medium programs are being 
developed. KHUOK provides some of the individuals with that sort of 
potential with training through its Ph.D. program in language 
revitalization.
    Federal support for innovative methods of developing highly 
proficient speakers of Native American languages to serve as teachers 
is a crucial need that should be addressed.
Assessment
    Assessment is a major issue for Native American language medium 
schools. Planned programs have been blocked from initiation by 
administrators fearful of the effect of such programs on state academic 
assessments through English. Programs have been moved away from best 
practices toward mainstream models and dominant use of English through 
the same fears. Because programs have to start in the early elementary 
years, the assessments required in the early elementary years are the 
ones currently having the greatest detrimental affect on the 
development of high quality Native American language medium schools and 
programs.
    It is inequitable to assess students and teachers in Native 
American language medium schools through the same assessments used in 
mainstream English medium schools. I urge that Congress pass provisions 
that exempt individual grades of Native American Language Schools and 
Programs from federal requirements for state and other assessments when 
those grades are taught at 75 percent or higher through one or more 
Native American languages and when such programs follow a model that 
has a history of producing high school graduation and college 
enrollment rates equal to or higher than the state average for Native 
Americans as defined in ESSA.
    NALA itself makes provisions for the use of Native American 
languages for all purposes (e.g., assessments) in publically supported 
education by Native American language speaking students (NALA Sec. 
105). After passage of NALA in 1990, the Elementary and Secondary 
Education Act incorporated NALA compliant provisions including 
provisions relating to assessment, with the current continuation of 
those provisions including ESSA Sec. 3124 (3) and Sec. 3127 in addition 
to standard civil rights provisions with ESSA. These provisions have 
never been fully carried out relative to schools taught through Native 
American languages.
    A stance that mainstream student and teacher assessments are 
inappropriate for schools taught through Native American languages and 
cultures in accordance with NALA is a not a rejection of assessments 
that predict the sorts of positive academic and social outcomes 
described earlier above. Since the early 2000s a number of members of 
the National Coalition of Native American Language Schools and Programs 
have been administrating internal ``Curriculum Based Assessments'' 
(CBM) relative to mathematics and reading achievement using their own 
specific languages and dialects of those languages. Some have also 
administrated assessments of English reading development within the 
context of such best practices. Those assessments were developed as 
part of a project with Dr. William Demmert (Tlingit), a founder of the 
National Indian Education Association, and the Northwest Educational 
Laboratory to assure the validity and reliability of those CBM 
assessments. Nawahi is one such member of the Coalition that has nearly 
two decades of CBM assessment results that can be aligned with its 
exemplary high school graduation and college attendance rates.
    Parents of students at Nawahi have a history of boycotting state 
assessments that are not designed for the unique situation of total 
Native American language medium education. Attached is an article on 
those boycotts. Those boycotts resulted in public listing of Nawahi as 
one of the lowest performing schools in the state in spite of its much 
higher rate of high school graduation and college attendance that that 
of the overall state average. Most recently the state of Hawaii has 
created a Hawaiian language assessment up to grade 4 through Hawaiian 
based on the Common Core as used for the English medium schools in the 
state. This has been a very costly enterprise and one for which there 
remain several additional issues pertinent to Native American language 
medium programs as a whole.
    Among distinctive barriers to producing a Native American language 
version of an state English medium assessment are: 1) the existence of 
different dialects of the Native American language used in different 
schools; 2) lack of a means to differentiate scoring and supports based 
on whether the Native American language is used in the home or not 
(parallel to the issue of EL students in English medium schools); 3) 
alignment with English medium assessments to assure fair scoring when 
the very nature of the language requires the measurement of different 
skills; 4) a requirement for parallel use of computers for assessment 
when Native American language medium schools and programs have little 
opportunity to use computers in teaching due to minimal amounts of 
computerized instructional materials in those languages and dialects; 
5) lack of an equivalent volume of teaching resources in the Native 
American language making any comparison between student groups in 
mainstream English medium and Native American language medium education 
unequal in terms of educational support, and 6) lack of in-service 
training of teachers in Native American language medium education 
strategies equivalent to what is made available by districts and states 
to English medium teachers, again an area where inequality of support 
makes comparisons inappropriate.
    A final factor relative to producing Native American language 
medium versions of state assessments is cost. To make an equivalent 
assessment to an English assessment in a single dialect of a single 
Native American language is prohibitively expensive. The state of 
Hawaii spent several million dollars on a Hawaiian set of grade 1 to 
grade 4 Common Core equivalent assessments as a priority over producing 
teaching materials through Hawaiian and providing support in the 
development of teachers. This was done under circumstances where the 
state department of education feared loss of federal funds due to 
parent refusals to participate in the mainstream assessment. Its choice 
to develop assessments in a single dialect of Hawaiian and require that 
same assessment regardless of dialect and even for English speaking 
children who had only recently entered the program has created 
additional problems. The state of Hawai`i still has to deal with issues 
relative to the higher grades and earlier issues describe relative to 
determining equivalencies between English and Hawaiian medium 
assessments.
    The CBM assessments used in some schools of the National Coalition 
of Native American Language Schools and Programs are consistent with 
NALA and the ESSA and are better aligned with the distinctive goals and 
outcomes of Native American language medium education. Requiring 
something along the nature of internally developed economical CBM 
assessments as best practice while otherwise exempting Native American 
language medium programs from state testing would be a practical 
solution to overcoming the assessment barrier.
Cooperation Across Languages And Political Boundaries
    The National Coalition of Native American Language Schools and 
Programs represents an effort on a national basis to provide mutual 
assistance. There are other more localized efforts between schools 
using different dialects of the same language on different reservations 
and sometimes in different states with those efforts often folding into 
the National Coalition. On a biannual basis KHUOK and Nawahi hold a 
field study conference that brings members of the Coalition, Native 
American educators and tribal leaders, interested linguists and 
indigenous peoples from outside the United States. The National 
Coalition has held meetings after this conference and then maintains 
support through electronic means and a facebook page.
    The University of Alaska, Fairbanks (UAF) and KHUOK have worked 
closely together now for a number of years to serve the growth of 
Native American language revitalization. Alaska and Hawai`i are also 
the only states that have recognized their languages as official, with 
Alaska's 20 distinctive languages as official especially impressive. 
The Native Alaska Language Center at UAF established in 1972 has the 
most developed reference resources, e.g., dictionaries, grammars, 
texts, for the indigenous languages of any state. UAF has unique 
experience in serving highly isolated rural communities of Native 
Americans, while KHUOK has distinctive experience in full development 
of Native American language medium education and curriculum materials 
to a high level. At present Alaska is the state with the most languages 
represented in immersion programs, while Hawai`i has the largest number 
of students enrolled in Native American language medium/immersion.
    Other tertiary and adult proficiency efforts that have worked 
especially closely with KHUOK include Dine College on Navajo, Cherokee 
Nation of Oklahoma, Mohawk adult immersion and Wadookodaading Ojibwe 
Language Immersion School of Wisconsin and the Lakota Language 
Initiative of Thunder Valley and Red Cloud School of Pine Ridge South 
Dakota.
    Support for increased cooperation among programs is needed. Most 
Native American language medium schools are on isolated reservations 
with little access to information on best practices. They also need 
access to bringing in national experts to talk to their administrators 
and school boards regarding these programs and the federal laws that 
exist in support of them.
    Attached to this testimony are a number of articles that can 
provide further information on points made above. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
                                 ______
                                 
   Prepared Statement of Tim Thornes, Ph.D., Associate Professor of 
       Linguistics, Department of English, Boise State University
    Dear Committee,
    I am submitting this brief testimony to serve as part of the 
pending oversight hearing on ``Examining Efforts to Maintain and 
Revitalize Native Languages for Future Generations.'' I am certain that 
by now you have received ample testimony regarding the value of these 
languages to the heritage language communities, the individuals of 
those communities, and to the world at large, as well as a range of 
stories of success as a reward for the tremendous commitments and 
sacrifices of time and money dedicated to the cause.
    I would like to suggest, briefly, that whether or not every effort 
bears fruit, the effort itself may, for many communities and 
individuals, be fruit enough to satisfy the hunger many feel in the 
face of a decline in fluent elder speakers and connection to heritage. 
That is to say, there is an often uncounted value in the hope that 
accompanies the efforts applied toward being an instrument in the 
preservation of one's heritage language.
    As a linguist with nearly a quarter century of experience working 
with Native communities on such efforts, I have witnessed the joy 
shared by people engaged in the process of language revival. When I at 
first began this work, I did not question the expectations I had for 
what success in language revitalization meant--a new generation of 
fluent speakers eventually using the language with their own children 
at home and in a whole range of contexts in their communities. I admit 
that, back then, I sometimes felt discouraged and cynical about the 
lack of what I'd assumed everyone considered ``true'' progress toward 
those goals.
    Eventually, however, I began to see that perhaps the greatest value 
was in the effort itself and how the process provided for and supported 
the well-being of elder speakers and young learners alike, through 
joint participation in something all valued highly. In one community we 
formed a group that included community members of all ages. The group 
developed a very process/effort-based mission ``to hear and speak the 
language for future generations so that the youth never forget where 
they come from.'' The mission didn't privilege one skill level over 
another--one served the mission even by hearing the language, whether 
one spoke it or not. Soon enough, however, efforts to use the language 
began to sprout--to bear fruit.
    I hope that by my testimony, the committee, in its examination of 
efforts to maintain and revitalize Native languages for future 
generations, considers the value of the efforts themselves in helping 
to strengthen Native families and communities by supporting the 
identities and the health of Native youth for the future of all.
    Thank you.
                                 ______
                                 
Prepared Statement of Timothy Montler, Distinguished Research Professor 
 of linguistics, Department of Technical Communication, University of 
                              North Texas
    Dear members of the U.S. Senate Committee on Indian Affairs:
    I have been working with various Native American tribes and 
languages since 1977. I have authored or co-authored several large 
dictionaries and grammars of various Native American languages. I have 
recorded and translated hundreds of hours of native tales, history, 
legends, and songs.
    Since 1992, I have worked closely with the Klallam tribes of 
Washington state. Working with members of the tribes--both native 
speaking elders and young language teachers, we have developed a 
writing system for the language, a complete grammar and dictionary--
published by the University of Washington Press, a collection of 
traditional stories and oral history, videos, and a large amount of 
other language teaching and learning materials. Some of the material 
can be seen at http://klallam.montler.net.
    The Klallam community has been very enthusiastic about the 
revitalization of their language. The revitalization of the language 
has meant the revitalization of hope and excitement in a personal/
ethnic identity that has for generations suffered humiliation and 
prejudice.
    Since 1999 the Klallam language has been taught in the Port 
Angeles, Washington high school. The language is taught at three levels 
by a tribal member who has both state and tribal teaching certificates. 
It is now accepted by Washington universities as fulfilling the 
`'foreign'' language requirement.
    Since the institution of the high school Klallam language courses, 
standardized test scores for Native American students at Port Angeles 
High have increased dramatically. According to the school 
superintendent, they have increased faster than those of the general 
student population. As revitalization of the language has progressed, 
pride and feelings of self-worth have increased, crime-rates, suicide 
rates have decreased while college entrance rates have increased. Jamie 
Valadez, the Port Angles High Klallam language teacher has already 
testified to congress on this (https://youtu.be/xuzcrWISwjQ?t=4454). 
Language revitalization is valuable, not just for the tribes and tribal 
members, it is good for society at large.
    I could speak at great length about the inherent beauty and 
complexity of Klallam and the other Native American languages I have 
studied. Indeed, I do so in my undergraduate and graduate classes. Our 
understanding of these languages contributes to our unraveling the 
mysteries of the nature of human language itself.
    The work on the Klallam language has been supported by grants from 
the National Science Foundation, the National Endowment for the 
Humanities, and from the Administration for Native Americans. These 
funds all come from the wise generosity of the American people. These 
efforts preserve a precious and endangered part of our common American 
heritage.
    When I first visited the Klallam community in 1978, there were over 
100 native speakers. The last speaker of Klallam as a first language 
passed away in 2013. The urgency of the preservation and revitalization 
of Native American languages is critical.
                                 ______
                                 
Prepared Statement of Tyler A. Whitaker, Linguist, Tunica-Biloxi Tribe 
    of Louisiana, Language & Culture Revitalization Program (LCRP), 
         Cultural & Educational Resources Center (CERC) Library
    Dear Committee on Indian Affairs,
    I have been working with the Tunica-Biloxi tribe on their Language 
and Culture revitalization project for four years. I volunteered every 
summer while I was in graduate school, and now I work for the tribe 
full-time.
    We work tirelessly to enrich our students' lives. We have created 
books, games, after-school language lessons, and an annual summer camp 
dedicating to teaching Tunica language.
    Our efforts extend beyond language. We cultivate a sense of pride 
and community. We inspire an appreciation of culture and history, and 
encourage them to succeed. We show the world that the Tunica-Biloxi 
culture is alive and thriving.
    Instruction does not end in the classroom. We empower our students 
to do their own research-to communicate with their elders and learn 
about their history and contribute to their community. Our students 
taken the language to communicate at home, at school, and in sports and 
after-school activities. Students have used what they learn to win 
achievements, scholarships, apply to colleges, and pass along to their 
own children.
    Number of speakers and level of fluency are not the only measures 
of success. Our program provides students with a space for enrichment 
and empowerment. It is something children and parents rely on. We will 
continue to spread our work to reach as many community members as 
possible. I hope many other communities will have the same opportunity 
as well.
    Tikahch! Thank you.
                                 ______
                                 
          Prepared Statement of Todd Gettleman, Kealakekua, HI
    To whom it may concern,
    I am writing to express my support for Native language 
revitalization efforts. I worked Yocha Dehe Wintun Nation for 20 years 
with, where we successfully implemented a Patwin language 
revitalization program and have been able to produce conversationally 
fluent Patwin speakers by high school. I am currently working on a 
language revitalization project with the Konkow Maidu Cultural 
Preservation Association. I am honored to be able to work on these 
types of projects, which are important to maintaining and supporting 
cultural diversity in this country.
                                 ______
                                 
    *The final report of the Commission on Language Learning, entitled 
``America's Languages: Investing in Language Education for the 21st 
Century'' has been retained in the Committee files and can be found at 
http://www.amacad.org/multimedia/pdfs/publications/
researchpapersmonographs/language/Commission-on-language-learning--
americas-languages.pdf
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Dr. Christine Sims
    Question 1. Your hearing testimony described the growing efforts to 
implement language programs and provide technical assistance with the 
support, resources, and academic knowledge of institutions of higher 
education, such as the Institute you co-founded at the University of 
New Mexico. However, universities are not eligible for direct grants 
for language revitalization like the Esther Martinez grants. How can we 
leverage resources from institutions of higher education such as the 
University of New Mexico? What barriers exist that prevent more of 
these University-Tribal partnerships from benefitting Indian Country?
    Answer. Federal funding sources can help mitigate and increase the 
capacity of Native tribal language and education efforts through 
engaged tribal partnerships with IHEs who have the capacity and 
experienced faculty expertise in Native language maintenance and 
revitalization issues. These latter qualifications are key to effective 
partnering and engagement with tribes. At the present time, many 
federal grant and discretionary fund regulations related to Native 
language preservation and program implementation in schools do not 
explicitly identify qualifying Institutions of Higher Education (IHEs) 
as potential applicants. In some instances they may be considered as 
tribal partners, but it is usually more the norm for Tribal colleges 
and organizations with tribal representation to be listed as qualifying 
partners concerning language program planning and implementation 
initiatives. An expansion of regulatory requirements that includes 
qualifying IHEs needs to be considered for the following reasons.
    At the University of New Mexico (UNM) the most valuable resource we 
have is the high number of Native American faculty representing 
enrolled members of tribes indigenous to the New Mexico and the 
southwest. In the UNM College of Education, out of 110 faculty, we have 
ten Native faculty who teach within different graduate programs and 
departments including teacher education, bilingual education, health 
sciences, Native American studies, early childhood education and 
educational psychology. Within the COE Department of Language, Literacy 
and Sociocultural Studies, where the American Indian Language Policy 
Research and Teacher Training Center (AILPRTTC) is housed, we have both 
faculty and graduate student assistants who are from New Mexico tribes 
and speakers of their Native languages. Across the board, Native 
American faculty represent a broad range of expertise at UNM in a 
variety of fields and disciplines including Indian law, linguistics, 
anthropology, medicine, and other fields. The Native American teaching 
resources at UNM represent one of the highest concentrations of Native 
faculty in a southwest IHE classified as a Carnegie Foundation Doctoral 
University and ranked among the Top 100 Research Institutions by the 
National Science Foundation (2014). As well, there is a growing pool of 
Native doctoral graduate students who are being trained as researchers 
and the next generation of educational leadership for Native 
communities.
    As mentioned in the previous example, the growing number of Native 
faculty in IHEs such as UNM, with expertise in educational research, K-
12 teaching backgrounds and field experience working with tribes, 
coupled with first hand knowledge and experiences with Native 
languages, should be considered assets to be sought after in federal 
regulations and governing mechanisms of federal professional 
development and other Native language related support grants. This is 
especially important in light of federal laws affecting Native students 
such as ESSA, federal funded programs such as ANA language preservation 
grants under the U.S. Department of Health and Human Services, American 
Indian/Alaska Native Head Start programs, and other Native student 
focused programs in the U.S. Department of Education, and the Bureau of 
Indian Education. Moreover, as federally funded programs move 
increasingly towards support for Native language programs and 
initiatives in school settings, local tribes, schools and districts may 
or may not have the local capacity to establish or maintain support for 
teacher training, Native language-specific curriculum development, or 
building the internal leadership and workforce capacity of tribes in 
order to sustain such efforts. This should be a key consideration for 
including qualified IHEs who have the capacity to support Native 
language initiatives and professional development.
    Lastly, for Native Language teacher training centers such as the 
AILPRTTC to continue providing support to local tribal efforts in 
language and education, major infusions of funding will be necessary 
for support staff and graduate assistants who assist faculty in this 
work. The challenge that many university faculty face is that in 
addition to their teaching responsibilities, they must often seek 
outside funding sources in order to support the work they do in 
partnership with tribal communities and/or to seek scholarship funds 
that will support Native language teachers' training. In New Mexico, 
future partnerships with tribes and school districts will be especially 
critical in order to address the current paucity of Native language and 
Native bilingual teachers, as referenced in the recent court ruling 
regarding Yazzie/Martinez Case (Yazzie, et al. v. State of New Mexico, 
et al.), as well as the growing need for Native language curriculum 
development and material resources as language efforts expand.

    Question 2. Can you expand on the relationship that your Institute 
and the University of New Mexico have, and how that relationship 
assists Tribes in language revitalization? What is the nature of your 
relationship with tribes? How does that relationship assist tribes in 
language revitalization?
    Answer. The American Indian Language Policy Research and Teacher 
Training Center has worked over a number of years in close partnership 
with New Mexico tribes, tribal leadership, and tribal community members 
in the work of Native language preservation and revitalization. We 
regularly maintain our connections with the broader tribal community by 
making ourselves present and actively participating in tribal education 
summits, community education forums, and numerous venues where we can 
learn more about pressing issues and challenges facing tribes in their 
language preservation efforts. We maintain updated listserves that 
includes tribal leaders, language teachers and other community members 
for purposes of inviting their participation in our workshops and 
training institutes, public language and education forum information 
that comes through the university and our academic networks, summits we 
organize, and other collaborations involving on-the-ground on-site 
training and technical assistance requests.
    We are guided in our work with tribes by maintaining a policy of 
acknowledging and recognizing fundamentally, the autonomy and 
sovereignty of tribes in making decisions and choices about their own 
languages and cultures. As an academic institution, we view our role as 
being a source of support and service to tribes in language 
revitalization efforts rather than utilizing a ``top down'' approach 
and we do not pursue any form of academic research about specific 
Native languages without the express sanction and approvals of local 
tribal leaders and their communities.
    Lastly, we maintain a close working relationship with the New 
Mexico Tribal Language Consortium, a recently formed non-profit 
organization that is inclusive of different Native language programs in 
the state. Tribal language teachers, language program directors, tribal 
leaders and other community members are some of the key people who have 
formed this advocacy organization. We meet with this organization on a 
quarterly basis, gathering their input about language teacher and 
program needs, guidance on our Center's training and technical 
assistance activities, as well as sharing and collaboratively working 
on native language policy issues that we can advocate for and help 
support.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Jeanie Hovland
Ensuring Federal Support at All Phases of Language Revitalization
    Question 1. The Commissioner of the ANA is responsible for 
overseeing the administration and processing of language revitalization 
grants, and as such, plays a vital role in Native language 
revitalization efforts throughout Indian Country. The importance of 
access to these programs for all Tribes is of great concern to the 
Committee. In your hearing testimony, you stated that, since your 
confirmation, you have visited multiple Tribes in their communities to 
ascertain their needs and to properly understand your role as 
Commissioner.
    Recognizing that different Tribes have different needs when it 
comes to language preservation and revitalization, what are you doing 
to ensure that your grant programs are tailored to fit the needs of 
Indian Country?
    Answer. As the Commissioner, I intend to visit as many tribes in 
their communities as practicable to share information about ANA and our 
funding opportunities. I am hopeful these visits will allow communities 
to articulate their individual needs, allowing ANA to make better 
informed decisions when planning outreach and developing Funding 
Opportunity Announcements. Further, I hope these visits will serve to 
increase interest in ANA programs, and perhaps encourage smaller or 
lower capacity tribes to apply for ANA funding.
    ANA provides discretionary grant funding in support of grassroots, 
community-based projects that address the current social and economic 
conditions in Native American communities, including language 
preservation and revitalization. ANA supports locally determined 
projects that achieve community goals through specific, measurable 
outcomes. Native Languages Preservation and Maintenance (P&M) is ANA's 
largest language program. P&M funding is flexible and can be used to 
meet the language preservation and revitalization needs of a community 
by supporting curriculum development, language instruction, teacher 
training and certification, language restoration programs, and 
preservation and documentation of native languages.
    ANA also supports immersion projects under the Esther Martinez 
Immersion (EMI) program. EMI is designed to preserve Native American 
languages through Native American language nests and language survival 
schools. The EMI program focuses support on projects that are based in 
teaching and building capacity for language immersion instruction.
    Lastly, ANA provides training workshops for Project Planning and 
Development, as well as technical assistance to applicants in four 
different regions. This is made possible through our training and 
technical assistance centers, which provide additional outreach and 
support to native communities. ANA regularly invites federal and 
academic representatives to partner with us at our Native American 
Language Summit, which is open to the public. We also invite our 
partners to present to grantees at our annual grantee meetings and to 
the broader public via webinars.
Leveraging Federal and Academic Resources to Support Native Languages
    Question 2. Federal resources including, but not limited to, the 
Library of Congress, the National Archives, and the Smithsonian 
Institute play a vital role in the research and archival processes that 
have assisted in language revitalization. Past Commissioners have made 
efforts to create strong partnerships with these institutions, which 
are vital for Tribes to access archives of old documents and recording.
    How do you intend to facilitate relationships with these and other 
federal partners, and what steps have you already taken to work with 
them?
    Answer. I am making it a priority to partner with other federal 
agencies and academic institutions to support native languages. 
Specifically, our Native Language Workgroup will reach out to other 
federal and academic resources and create an action plan as a part of 
the a proposed revision to the Native Language Memorandum of Agreement 
with the Department of Interior's Bureau of Indian Education and the 
White House Initiative on American Indian and Alaska Native Education. 
In addition, ANA plans to create a list of national and regional 
repositories to house materials, such as dictionaries, sample 
curriculum, videos, etc. created by our grantees. We will distribute 
the list as a resource for tribes and organizations to share their 
federally funded projects. The Smithsonian Institute's National Museum 
of the American Indian has offered to serve as a national repository, 
but final plans are not yet in place for the transfer of materials to 
their holdings.
    ANA is partnering with the following federal colleagues to develop 
materials and present at relevant meetings:

  <bullet> Dr. Colleen Fitzgerald, Program Director of the Documenting 
        Endangered Languages Program at the National Science 
        Foundation, is invited to present at the 2018 Native Languages 
        Summit in Oklahoma August 27-28, 2018.

  <bullet> Dr. Mary Linn, Curator of Cultural and Linguistic 
        Revitalization at the Smithsonian Center for Folklife and 
        Cultural Heritage, will participate in the Native Language 
        Community Coordination semiannual grantee meeting in September 
        2018.

  <bullet> Dr. Clifford Murphy, Folk & Traditional Arts Director in 
        Multidisciplinary Arts at the National Endowment for the Arts, 
        is developing a resource guide on federal support for culture 
        and traditional arts. He is also partnering with ANA on an 
        upcoming Native language conference in 2019.

  <bullet> Dr. Mary Downs, Senior Program Office in the Division of 
        Preservation and Access at the National Endowment for the 
        Humanities (NEH), manages the funding for the First Nations 
        Development Institute Native Language Immersion Initiative. The 
        NEH is also interested in partnering with ANA to strengthen 
        outreach to potential applicants and diversifying grant 
        reviewers and improving training for reviewers.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
